<html>
<title> - PROTECTING INFORMATION IN THE DIGITAL AGE: FEDERAL CYBERSECURITY RESEARCH AND DEVELOPMENT EFFORTS</title>
<body><pre>[House Hearing, 112 Congress]
[From the U.S. Government Publishing Office]






               PROTECTING INFORMATION IN THE DIGITAL AGE:
         FEDERAL CYBERSECURITY RESEARCH AND DEVELOPMENT EFFORTS

=======================================================================

                             JOINT HEARING

                               BEFORE THE

               SUBCOMMITTEE ON TECHNOLOGY AND INNOVATION

                                AND THE

             SUBCOMMITTEE ON RESEARCH AND SCIENCE EDUCATION

              COMMITTEE ON SCIENCE, SPACE, AND TECHNOLOGY
                        HOUSE OF REPRESENTATIVES

                      ONE HUNDRED TWELFTH CONGRESS

                             FIRST SESSION

                               __________

                        WEDNESDAY, MAY 25, 2011

                               __________

                           Serial No. 112-19

                               __________

 Printed for the use of the Committee on Science, Space, and Technology




<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>



       Available via the World Wide Web: http://science.house.gov






                  U.S. GOVERNMENT PRINTING OFFICE
66-560 PDF                WASHINGTON : 2011
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; DC 
area (202) 512-1800 Fax: (202) 512-2104  Mail: Stop IDCC, Washington, DC 
20402-0001









              COMMITTEE ON SCIENCE, SPACE, AND TECHNOLOGY

                    HON. RALPH M. HALL, Texas, Chair
F. JAMES SENSENBRENNER, JR.,         EDDIE BERNICE JOHNSON, Texas
    Wisconsin                        JERRY F. COSTELLO, Illinois
LAMAR S. SMITH, Texas                LYNN C. WOOLSEY, California
DANA ROHRABACHER, California         ZOE LOFGREN, California
ROSCOE G. BARTLETT, Maryland         DAVID WU, Oregon
FRANK D. LUCAS, Oklahoma             BRAD MILLER, North Carolina
JUDY BIGGERT, Illinois               DANIEL LIPINSKI, Illinois
W. TODD AKIN, Missouri               GABRIELLE GIFFORDS, Arizona
RANDY NEUGEBAUER, Texas              DONNA F. EDWARDS, Maryland
MICHAEL T. McCAUL, Texas             MARCIA L. FUDGE, Ohio
PAUL C. BROUN, Georgia               BEN R. LUJAN, New Mexico
SANDY ADAMS, Florida                 PAUL D. TONKO, New York
BENJAMIN QUAYLE, Arizona             JERRY McNERNEY, California
CHARLES J. ``CHUCK'' FLEISCHMANN,    JOHN P. SARBANES, Maryland
    Tennessee                        TERRI A. SEWELL, Alabama
E. SCOTT RIGELL, Virginia            FREDERICA S. WILSON, Florida
STEVEN M. PALAZZO, Mississippi       HANSEN CLARKE, Michigan
MO BROOKS, Alabama
ANDY HARRIS, Maryland
RANDY HULTGREN, Illinois
CHIP CRAVAACK, Minnesota
LARRY BUCSHON, Indiana
DAN BENISHEK, Michigan
VACANCY
                                 ------                                

               Subcommittee on Technology and Innovation

                  HON. BENJAMIN QUAYLE, Arizona, Chair
LAMAR S. SMITH, Texas                DAVID WU, Oregon
JUDY BIGGERT, Illinois               JOHN P. SARBANES, Maryland
RANDY NEUGEBAUER, Texas              FREDERICA S. WILSON, Florida
MICHAEL T. McCAUL, Texas             DANIEL LIPINSKI, Illinois
CHARLES J. ``CHUCK'' FLEISCHMANN,    GABRIELLE GIFFORDS, Arizona
    Tennessee                        BEN R. LUJAN, New Mexico
E. SCOTT RIGELL, Virginia                
RANDY HULTGREN, Illinois                 
CHIP CRAVAACK, Minnesota                 
RALPH M. HALL, Texas                 EDDIE BERNICE JOHNSON, Texas
                                 ------                                

             Subcommittee on Research and Science Education

                     HON. MO BROOKS, Alabama, Chair
ROSCOE G. BARTLETT, Maryland         DANIEL LIPINSKI, Illinois
BENJAMIN QUAYLE, Arizona             HANSEN CLARKE, Michigan
STEVEN M. PALAZZO, Mississippi       PAUL D. TONKO, New York
ANDY HARRIS, Maryland                JOHN P. SARBANES, Maryland
RANDY HULTGREN, Illinois             TERRI A. SEWELL, Alabama
LARRY BUCSHON, Indiana                   
DAN BENISHEK, Michigan                   
RALPH M. HALL, Texas                 EDDIE BERNICE JOHNSON, Texas









                            C O N T E N T S

                        Wednesday, May 25, 2011

                                                                   Page
Witness List.....................................................     2

Hearing Charter..................................................     3

                           Opening Statements

Statement by Representative Benjamin Quayle, Chairman, 
  Subcommittee on Technology and Innovation, Committee on 
  Science, Space, and Technology, U.S. House of Representatives..     8
    Written Statement............................................     9

Statement by Representative David Wu, Ranking Minority Member, 
  Subcommittee on Technology and Innovation, Committee on 
  Science, Space, and Technology, U.S. House of Representatives..    10
    Written Statement............................................    11

Statement by Representative Mo Brooks, Chairman, Subcommittee on 
  Research and Science Education, Committee on Science, Space, 
  and Technology, U.S. House of Representatives..................    12
    Written Statement............................................    13

Statement by Representative Daniel Lipinsky, Ranking Minority 
  Member, Subcommittee on Research and Science Education, 
  Committee on Science, Space, and Technology, U.S. House of 
  Representatives................................................    13
    Written Statement............................................    15

                               Witnesses:

Dr. George Strawn, Director, National Coordination Office, 
  Networking and Information Technology Research and Development 
  Program
    Oral Statement...............................................    16
    Written Statement............................................    18
    Biography....................................................    22

Dr. Farnam Jahanian, Assistant Director, Directorate for Computer 
  and Information Science and Engineering, National Science 
  Foundation
    Oral Statement...............................................    22
    Written Statement............................................    24
    Biography....................................................    34

Ms. Cita Furlani, Director, Information Technology Laboratory, 
  National Institute of Standards and Technology
    Oral Statement...............................................    35
    Written Statement............................................    36
    Biography....................................................    42

Rear Admiral Michael A. Brown, Director, Cybersecurity 
  Coordination, Department of Homeland Security
    Oral Statement...............................................    43
    Written Statement............................................    44
    Biography....................................................    52

              Appendix: Answers to Post-Hearing Questions

Dr. George Strawn, Director, National Coordination Office, 
  Networking and Information Technology Research and Development 
  Program........................................................    68

Dr. Farnam Jahanian, Assistant Director, Directorate for Computer 
  and Information Science and Engineering, National Science 
  Foundation.....................................................    73

Ms. Cita Furlani, Director, Information Technology Laboratory, 
  National Institute of Standards and Technology.................    76

Rear Admiral Michael A. Brown, Director, Cybersecurity 
  Coordination, Department of Homeland Security..................    80

 
               PROTECTING INFORMATION IN THE DIGITAL AGE:
                    FEDERAL CYBERSECURITY RESEARCH
                        AND DEVELOPMENT EFFORTS

                              ----------                              


                        WEDNESDAY, MAY 25, 2011

                  House of Representatives,
      Subcommittee on Technology and Innovation and
     Subcommittee on Research and Science Education
               Committee on Science, Space, and Technology,
                                                    Washington, DC.

    The Subcommittees met, pursuant to call, at 10:05 a.m., in 
Room 2318 of the Rayburn House Office Building, Hon. Benjamin 
Quayle [Chairman of the Subcommittee on Technology and 
Innovation] presiding.

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

                            hearing charter

              COMMITTEE ON SCIENCE, SPACE, AND TECHNOLOGY

               SUBCOMMITTEE ON TECHNOLOGY AND INNOVATION

             SUBCOMMITTEE ON RESEARCH AND SCIENCE EDUCATION

                     U.S. HOUSE OF REPRESENTATIVES

               Protecting Information in the Digital Age:

         Federal Cybersecurity Research and Development Efforts

                        wednesday, may 25, 2011
                         10:00 a.m.--12:00 p.m.
                   2318 rayburn house office building

I. Purpose

    On Wednesday, May 25, 2011, the Subcommittee on Technology and 
Innovation and the Subcommittee on Research and Science Education will 
convene a joint hearing to examine Federal agency efforts to improve 
our national cybersecurity and prepare the future cybersecurity talent 
needed for national security. An overview of cybersecurity research and 
development activities will be provided by the Networking and 
Information Technology Research and Development program (NITRD), the 
National Science Foundation (NSF), the National Institute of Standards 
and Technology (NIST), and the Department of Homeland Security (DHS). 
In reviewing the activities of the agencies' cybersecurity programs, 
the hearing will address: how each agency has responded to and 
continues to address objectives of the 2009 Cyberspace Policy Review; 
efforts to educate and develop the necessary cybersecurity personnel; 
and how standards development is coordinated with other relevant 
agencies.

II. Witnesses

Dr. George O. Strawn is the Director of the National Coordination 
Office for the Networking and Information Technology Research and 
Development Program.

Dr. Farnam Jahanian is the Assistant Director of the Directorate for 
Computer and Information Science and Engineering at the National 
Science Foundation.

Ms. Cita Furlani is the Director of the Information Technology 
Laboratory at the National Institute of Standards and Technology.

Rear Admiral Michael Brown is the Director of Cybersecurity 
Coordination in the National Protection and Programs Directorate for 
the U.S. Department of Homeland Security.

III. Overview

    In January 2008, the Bush Administration established, through a 
series of classified executive directives, the Comprehensive National 
Cybersecurity Initiative (CNCI). The Obama Administration has continued 
this initiative, with the goal of securing Federal systems and 
fostering public-private cooperation. In February 2009, the Obama 
Administration called for a 60-day review of the national cybersecurity 
strategy. The President's review required the development of a 
framework that would ensure that the CNCI was adequately funded, 
integrated, and coordinated among Federal agencies, the private sector, 
and state and local authorities.
    On May 29, 2009, the Administration released its Cyberspace Policy 
Review. The Review recommended an increased level of interagency 
cooperation among all departments and agencies, highlighted the need 
for information sharing concerning attacks and vulnerabilities, and 
highlighted the need for an exchange of research and security 
strategies essential to the efficient and effective defense of Federal 
computer systems. Furthermore, it stressed the importance of advancing 
cybersecurity research and development, and the need for the Federal 
Government to partner with the private sector to guarantee a secure and 
reliable infrastructure. The Review also called for increased public 
awareness, improved education and expansion of the number of 
information technology professionals.
    The House Committee on Science, Space, and Technology held three 
Subcommittee hearings in the 111th Congress to explore the state of 
federal cybersecurity research and development, to review the findings 
and recommendations included in the Administration's Cyberspace Policy 
Review, and to review the findings and recommendations of a report from 
the Government Accountability Office (GAO) \1\. Both the review and the 
report called for an increase in effective public/private partnerships, 
and for clarification of roles and responsibilities.
---------------------------------------------------------------------------
    \1\  National Cybersecurity Strategy: Key Improvements Are Needed 
to Strengthen the Nation's Posture, Government Accountability Office, 
http://www.gao.gov/new.items/d09432t.pdf
---------------------------------------------------------------------------
    Since the release of the Cyberspace Policy Review and the hearings 
held in the 111th Congress, NITRD has continued to provide leadership 
in coordinating the Federal unclassified research and development. DHS 
has been tasked with monitoring Federal civilian networks for cyber 
attacks and coordinating the gathering and dissemination of information 
on cyber attacks to Federal agencies and private industry. NIST 
currently develops cybersecurity standards for non-national security 
Federal information technology systems, and NSF acts as the principal 
agency supporting unclassified cybersecurity research and development, 
education, and the development of cybersecurity professionals.

IV. Legislation

    In June 2009, GAO found that the Federal agencies responsible for 
protecting the U.S. Information Technology (IT) infrastructure were not 
satisfying their responsibilities, leaving the Nation's IT 
infrastructure vulnerable to attack. In an effort to strengthen the 
work of those Federal agencies, the U.S. House of Representatives 
passed the Cybersecurity Enhancement Act of 2010 (H.R. 4061) in the 
111th Congress. H.R. 4061 required increased coordination and 
prioritization of Federal cybersecurity research and development 
activities, and the development of cybersecurity technical standards. 
It also strengthened cybersecurity education and talent development and 
industry partnership initiatives. The Senate did not act on the 
legislation.
    The Obama Administration released a cybersecurity legislative 
proposal \2\ on May 12, 2011. The proposed legislation is focused on 
simplifying and standardizing data breach reporting and it sets 
penalties for computer crimes. The Administration's proposal requires 
that DHS work with industry to identify the core critical-
infrastructure operators, and that the agency prioritize the most 
important cyber threats and vulnerabilities for those operators. In 
addition, specific cybersecurity risks must be addressed by 
standardized frameworks, to be developed by private sector 
representatives and evaluated by DHS. If DHS determines that the 
standardized frameworks developed by industry are insufficient, DHS 
will develop alternative frameworks with advice and guidance from the 
Director of NIST. The Administration proposal would also update the 
Federal Information Security Management Act (FISMA) and would formalize 
DHS's current role in managing cybersecurity for the Federal 
Government's civilian computers and networks in order to provide 
departments and agencies with a shared source of expertise.
---------------------------------------------------------------------------
    \2\ http://www.whitehouse.gov/sites/default/files/omb/legislative/
letters/Law-Enforcement-Provisions-Related-to-Computer-Security-Full-
Bill.pdf

V. Issues and Concerns

    Research and Development
    Cybersecurity research and development efforts include working on 
the prevention of cyber attacks, detecting attacks as they are 
occurring, responding to attacks effectively, mitigating severity, 
recovering quickly, and identifying responsible parties. In December 
2010, the President's Council of Advisors on Science and Technology 
(PCAST) reported on Federally funded research and development in 
networking and information technology. The report made several 
recommendations, including investing in long-term, multi-agency 
research initiatives in security and cyber infrastructure and enhancing 
the effectiveness of government coordination of networking and 
information research and development.
    Research and development provides a greater understanding of 
weaknesses in systems and networks and of how to protect those systems 
and networks. The Subcommittees will examine the integration of 
research and development activities within the Federal Government's 
cybersecurity efforts given its importance in increasing security over 
the long term. The hearing will explore current government research and 
development investments to ensure they are properly focused to provide 
effective and lasting cybersecurity, and will assess the challenges to 
establishing a prioritized national research and development agenda 
that strategically includes near-term, mid-term, and long-term goals.

    Education and the Development of Cybersecurity Professionals
    Well trained professionals are essential to the implementation of 
security techniques in critical computer and network systems. 
Institutions of higher education are working to create and improve 
cyber education and training programs focused on ensuring an adequate 
number of relevant cyber professionals. Furthermore, public awareness 
about protecting personal information is another area of identified 
need within cybersecurity education. Federal agencies engaged in 
cybersecurity activities currently support a number of cybersecurity 
education, training, and development programs. The Subcommittees will 
consider the coordination and implementation of these activities across 
Federal agencies.

    Standards Development
    The Subcommittees will examine NIST's current and future role in 
the development of benchmarks, guidelines, and standards for 
cybersecurity, in conjunction with other government agencies and the 
private sector. The Subcommittees will also examine the appropriate 
role for NIST in facilitating the voluntary critical infrastructure 
cybersecurity standards as envisioned in the Administration's 
legislative package.

    Agency Coordination
    Since 1991, Federal agencies have been required to set goals, 
prioritize investments, and coordinate activities in networking and 
information technology research and development. The Subcommittees will 
explore what measures have been taken to improve the coordination of 
Federal cybersecurity research and development efforts and the best 
approach to improve the coordination of private sector critical 
infrastructure and network cybersecurity. This hearing will also 
examine how agencies are coordinating cybersecurity standards 
development.

VI. Background

    In the current system, Federal Government responsibilities for 
cybersecurity research and development, coordination, and education 
fall on many different agencies. The National Security Agency (NSA) is 
responsible for all classified network systems. The Department of 
Defense (DOD) is responsible for military network systems, and DHS is 
the lead agency for all Federal civilian network systems. Additionally, 
DHS is responsible for communicating information on cyber attacks to 
other Federal agencies. The NITRD program coordinates unclassified 
cybersecurity research and development across 14 Federal agencies and 
is currently chaired by the Director of National Coordinating Office 
and the NSF Assistant Director of the Directorate for Computer and 
Information Science and Engineering. NSF funds a majority of Federal 
basic cybersecurity research and development and education efforts. 
Three other key agencies, NIST, DHS and DOD also fund significant 
cybersecurity research and development. NIST develops and promulgates 
standards to help secure Federal civilian network systems and the 
Office of Management and Budget (OMB) implements and enforces the 
standards set by NIST.

    Networking and Information Technology Research and Development 
Program
    The Networking and Information Technology Research and Development 
(NITRD) program coordinates unclassified cybersecurity research and 
development across 14 Federal agencies (additional agencies informally 
participate in NITRD).
    The High-Performance Computing Act of 1991 (PL 102-194) established 
NITRD. The Act has since been amended through the Next Generation 
Internet Research Act of 1998 and the America COMPETES Act of 2007. In 
the 111th Congress, the U.S. House of Representatives passed the 
National Information and Technology Research and Development 
Reauthorization Act (H.R. 2020). The bill sought to prioritize and 
strengthen Federal information technology activities across the Federal 
government. The Senate did not act on this legislation.
    In December 2010, the President's Council of Advisors on Science 
and Technology (PCAST) completed a legislatively required report on 
NITRD. The report, entitled Designing a Digital Future: Federally 
Funded Research and Development in Networking and Information 
Technology, found that ``NITRD is well coordinated and that the U.S. 
computing research community, coupled with a vibrant Networking and 
Information Technology (NIT) industry, has made seminal discoveries and 
advanced new technologies that are helping meet many societal 
challenges.'' \3\ The PCAST report included several recommendations, 
including increasing investments in long-term, multi-agency research 
initiatives in security and cyberinfrastructure, and enhancing the 
effectiveness of government coordination of NIT research and 
development.
---------------------------------------------------------------------------
    \3\  President's Council of Advisors on Science and Technology, 
Report to the President and Congress December 2010, Designing a Digital 
Future: Federally Funded Research and Development in Networking and 
Information Technology, p. v
---------------------------------------------------------------------------
    In February 2011, NITRD released its Supplement to the President's 
Budget request. The Supplement is a summary of the NITRD research 
activities planned and coordinated for Fiscal Year (FY) 2012. The NITRD 
request totals $3.9 billion for FY 2012, a 1.9 percent increase from FY 
2010 expenditures. The NITRD Supplement also breaks down budget 
requests for the fourteen Federal agencies involved in NITRD according 
to Program Component Areas, including Cyber Security and Information 
Assurance and Social, Economic, and Workforce Implications of IT \4\:
---------------------------------------------------------------------------
    \4\  Subcommittee on Networking and Information Technology Research 
and Development, Supplement to the President's Budget for Fiscal Year 
2010, p. 28

    National Science Foundation
    NSF is the principal agency supporting unclassified cybersecurity 
research and development and education. NSF provides the largest 
Federal investment in cyber-related research and development 
activities. The February 2011 NITRD Supplement to the President's FY 
2012.
    Budget totals NSF's budget request for advanced technologies (which 
combines eight Program Component Areas) at nearly $1.3 billion, with 
$94.7 million dedicated for cybersecurity and information assurance and 
$98 million dedicated to the social, economic, and workforce 
implications of IT.
    At NSF, the Directorate for Computer and Information Science and 
Engineering (CISE) is the principal directorate promoting the progress 
of computer and information science. CISE works across its three 
Divisions and across a number of NSF Directorates, focusing on theory, 
people and systems. Programs like Trustworthy Computing and 
Cybsersecurity Research, Computing Education for the 21st Century, 
Science and Engineering Beyond Moore's Law, and Cyber Infrastructure 
Framework for the 21st Century are only a handful of CISE cross-cutting 
programs. CISE's FY 2012 budget request includes a 17.7 percent 
increase over FY 2010 funding, totaling $728.4 million.
    NSF has also made significant investments in cybersecurity 
education and workforce through the Directorate on Education and Human 
Resources (EHR). EHR's Scholarship for Service program provides awards 
to increase the number of students entering the computer security and 
information assurance fields, and to increase the capacity of 
institutions of higher education to produce professionals in these 
fields. EHR also offers Advanced Technological Education grants 
educating technicians for high-technology fields with a focus on two-
year colleges.

    National Institute of Standards and Technology
    The NIST Information Technology Laboratory (ITL) promotes 
innovation and competitiveness through research and development in 
information technology, mathematics, and statistics. ITL, which is made 
up of six divisions, manages the majority of NIST cybersecurity 
activities, primarily through the Computer Security Division (CSD). CSD 
provides standards and technology to protect information systems 
against threats to the confidentiality, integrity, and availability of 
information and services.
    NIST has extensive experience in developing cybersecurity standards 
and guidelines. NIST's core cybersecurity focus areas include: 
research, development, and specification; secure system and component 
configuration; and assessment and assurance of security properties of 
products and systems.
    NIST develops and issues cybersecurity standards through Federal 
Information Processing Standards (FIPS). NIST also develops standards 
in conjunction with national and international consensus standards 
bodies. NIST publishes cybersecurity guidelines through Special 
Publications (NIST SP) and Interagency Reports (NISTIR).
    The Computer Security Act of 1987 (PL 100-235), later replaced by 
the Information Technology Management Reform Act of 1996 (P.L. 104-
106), gave NIST the authority to develop standards and guidelines to 
secure non-classified Federal information systems. Title III of the E-
Government Act (PL 107-347), entitled the Federal Information Security 
Management Act of 2002 (FISMA), tasked NIST with developing 
cybersecurity standards, guidelines, and associated methods and 
techniques for use by the Federal Government.
    The Administration's 2009 Cyberspace Policy Review listed trusted 
identities as a key issue in improving cybersecurity. On April 15, 
2011, the Administration released its National Strategy for Trusted 
Identities in Cyberspace (NSTIC), with a focus on establishing identity 
solutions and privacy-enhancing technologies to improve the security 
and convenience of sensitive online transactions. As part of the 
strategy, the Administration plans to establish a National Program 
Office (NPO), which will be led by NIST within the Department of 
Commerce, to manage the Federal Government's role in implementing 
NSTIC. NIST included $24.5 million in its FY 2012 budget request to 
fund the NPO and to provide grants and other funding programs to 
conduct pilot projects of trusted authentication systems.

    Department of Homeland Security
    DHS is responsible for coordinating the overall national effort to 
enhance the protection of the critical infrastructure and key resources 
of the United States \5\. DHS works to prevent or minimize disruptions 
to our critical information infrastructure in order to protect the 
public, economy, government services, and the overall security of the 
United States by supporting a series of continuous efforts designed to 
further safeguard Federal Government systems by reducing potential 
vulnerabilities, protecting against cyber intrusions, and anticipating 
future threats.
---------------------------------------------------------------------------
    \5\  Homeland Security Presidential Directive-7: Critical 
Infrastructure Identification, Prioritization, and Protection. December 
17, 2003. http://www.dhs.gov/xabout/laws/gc_1214597989952.shtm#1
---------------------------------------------------------------------------
    The DHS Science and Technology Directorate (S&T) conducts and 
supports research, development, testing, evaluation, and transition for 
advanced cybersecurity and information assurance technologies to secure 
the Nation's current and future cyber and critical infrastructures. The 
President's National Strategy to Secure Cyberspace \6\ and the 
Comprehensive National Cybersecurity Initiative \7\ detail DHS S&T's 
research and development roles and responsibilities. Cybersecurity 
research within DHS S&T is planned, managed, and coordinated through 
the Cyber Security Research and Development Center. This center 
supports the research efforts of the Homeland Security Advanced 
Research Projects Agency (HSARPA), coordinates the testing and 
evaluation of technologies, and manages technology transfer efforts. 
The FY 2012 budget request for the DHS S&T Cybersecurity Division is 
$64.1 million.
---------------------------------------------------------------------------
    \6\  The National Strategy to Secure Cyberspace, February 2003. 
http://www.us-cert.gov/reading_room/cyberspace_strategy.pdf
    \7\  Comprehensive National Cybersecurity Initiative. May 2009. 
http://www.whitehouse.gov/sites/default/files/cybersecurity.pdf
---------------------------------------------------------------------------
    Housed within the National Protection and Programs Directorate 
(NPPD) the National Cyber Security Division (NCSD) is the operational 
arm of DHS's Office of Cybersecurity and Communications (CS&C). NCSD 
works collaboratively with public, private, and international entities 
to secure cyberspace and America's cyber assets, and protect cyber 
infrastructure through two overarching objectives: building and 
maintaining an effective national cyberspace response system, and 
implementing a cyber-risk management program for the protection of 
critical infrastructure. Numerous programs housed within NPPD work on 
cybersecurity related issues. The total FY 2012 budget request, as 
related to cyber programs, totals more than $500 million.
    NCSD programs include the United States Computer Emergency 
Readiness Team (US-CERT), which is responsible for analyzing and 
reducing cyber threats and vulnerabilities, disseminating cyber threat 
warning information through the National Cyber Alert System, and 
coordinating incident response activities. The National Cyber Response 
Coordination Group (NCRCG) is the principle Federal agency mechanism 
for cyber incident response. In the event of a nationally significant 
cyber-related incident, the NCRCG, which is made up of 13 Federal 
agencies, helps to coordinate the Federal response, including that of 
US-CERT, and the cybersecurity groups of DOD, the Federal Bureau of 
Investigation, the NSA, and the intelligence community.
    The coordinated efforts of DHS to reduce risk and improve the 
resilience of the nation's critical infrastructure are facilitated with 
many departments and agencies. DHS works with OMB to reduce and 
consolidate the number of external connections that Federal agencies 
have to the internet through the Trusted Internet Connection 
initiative. This initiative allows DHS to focus monitoring efforts, and 
block against cyber attacks on government computers. The EINSTEIN 
system, which is designed to provide intrusion protection and early 
warning of intrusions, shares information with DOD for enhanced 
situational awareness. DHS, OMB, and NIST coordinate the protection of 
agency information systems through compliance with FISMA, and DHS also 
coordinates with the Department of Justice to enable real-time 
assessments of baseline security postures across individual agencies 
and the Federal enterprise as a whole.

    Chairman Quayle. The Subcommittee on Technology and 
Innovation and the Subcommittee on Research and Science 
Education will come to order.
    Good morning, everybody. Welcome to today's hearing 
entitled ``Protecting Information in the Digital Age: Federal 
Cybersecurity Research and Development.'' In front of you are 
packets containing the written testimony, biographies and truth 
in testimony disclosures for today's witness panel.
    Before we get started, since this is a joint hearing 
involving two Subcommittees, I want to explain how we will 
operate procedurally so all Members understand how the 
question-and-answer period will be handled. As always, we will 
alternate between the majority and the minority Members, and 
allow all Members an opportunity for questioning before 
recognizing a Member for a second round of questions. We will 
recognize those Members of either Subcommittee present at the 
gavel in order of seniority on the Full Committee, and those 
coming in after the gavel will be recognized in order of 
arrival. I now recognize myself for five minutes for an opening 
statement.
    It is next to impossible to ignore the relevance of 
cybersecurity these days. News coverage has increasingly 
focused on cyber vulnerabilities covering stories such as 
companies losing personnel information or customers' financial 
data, or a government database being compromised by a malicious 
hacker. Perhaps most unsettling is that most stakeholders agree 
that our national cybersecurity response has not kept pace with 
the threats.
    In early 2008, the need to increase network security was 
brought to the forefront when President Bush formally 
established the Comprehensive National Cybersecurity Initiative 
(CNCI) to deal with widespread cyberattacks on federal 
networks. Early in his administration, President Obama 
committed to continue this effort, and expanded it through the 
2009 Cyberspace Policy Review, which identified a number of 
problems to be addressed through both near-term and mid-term 
actions. At that time, the Committee on Science, Space, and 
Technology held a series of hearings evaluating the state of 
cybersecurity research and development and the recommendations 
contained within the review.
    Security efforts are often focused on the past and designed 
to respond to the most recently faced attack. However, the 
technology sector is exceptionally dynamic, and where possible, 
we need to attempt to anticipate vulnerabilities and future 
threats. This is where research and development and proper 
coordination can make a contribution.
    It has now been a number of years since the review 
identified vulnerabilities across federal agencies. We are here 
today in part to evaluate what progress has been made. 
Additionally, as new threats emerge, we must assess whether we 
are staying ahead with research and development. Finally, we 
must make sure that we are appropriately tracking federally 
funded research and development initiatives. Since multiple 
agencies have cybersecurity responsibilities, and federal 
efforts in this area are growing, I am concerned that agencies 
may compete with each other for cyber ownership.
    Congress must ensure that agencies are working 
collaboratively to prevent work from being duplicated at the 
cost of precious taxpayer funds.
    Several agencies before us today have an important role in 
the development of cybersecurity standards. We should not 
underestimate the value of standards, whether they are minimum 
security measures for use by federal government agencies to 
protect information, or a framework to address cybersecurity 
risks for critical infrastructure. The lead responsibility for 
working closely with industry to develop successful standards 
has historically fallen to NIST. We would like to ensure that 
any comprehensive cybersecurity legislation effectively 
leverages the expertise of all federal assets.
    I should also note that today's hearing is focused on 
federal cybersecurity stakeholders. Notably absent are those 
who design, build, own and operate the majority of the digital 
infrastructure in our nation. To that end, I intend to hold 
further discussions related to cybersecurity issues through 
future hearings of the Technology and Innovation Subcommittee 
that will include voices from the private sector.
    I would like to thank my co-Chairman, Congressman Brooks, 
for sharing leadership on this important hearing. I also thank 
the witnesses for being here today and I look forward to a 
productive discussion.
    [The prepared statement of Mr. Quayle follows:].
             Prepared Statement of Chairman Benjamin Quayle
    It is next to impossible to ignore the relevance of cybersecurity 
these days. News coverage has increasingly focused on cyber 
vulnerabilities covering stories such as a company losing personnel 
information or customers' financial data, or a government database 
being compromised by a malicious hacker. Perhaps most unsettling, is 
that most stakeholders agree that our national cybersecurity response 
has not kept pace with the threats.
    In early 2008, the need to increase network security was brought to 
the forefront when President Bush formally established the 
Comprehensive National Cybersecurity Initiative (CNCI) to deal with 
widespread cyberattacks on Federal networks.
    Early in his administration, President Obama committed to continue 
this effort, and expanded it through the 2009 Cyberspace Policy Review, 
which identified a number of problems to be addressed through both 
near-term and mid-term actions. At that time, the Committee on Science, 
Space and Technology held a series of hearings evaluating the state of 
cybersecurity research and development and the recommendations 
contained within the Review.
    Security efforts are often focused on the past, and designed to 
respond to the most recently faced attack. However, the technology 
sector is exceptionally dynamic, and where possible, we need to attempt 
to anticipate vulnerabilities and future threats. This is where 
research and development and proper coordination can make a 
contribution.
    It has now been a number of years since the Review identified 
vulnerabilities across federal agencies. We are here today in part to 
evaluate what progress has been made.
    Additionally, as new threats emerge, we must assess whether we are 
staying ahead with research and development. Finally, we must make sure 
that we are appropriately tracking federally funded research and 
development initiatives. Since multiple agencies have cybersecurity 
responsibilities, and federal efforts in this area are growing, I am 
concerned that agencies may compete with each other for cyber 
ownership. Congress must ensure that agencies are working 
collaboratively to prevent work from being duplicated at the cost of 
precious taxpayer funds.
    Several agencies before us today have an important role in the 
development of cybersecurity standards. We should not underestimate the 
value of standards - whether they are minimum security measures for use 
by federal government agencies to protect information, or a framework 
to address cybersecurity risks for critical infrastructure. The lead 
responsibility for working closely with industry to develop successful 
standards has historically fallen to NIST.
    We would like to ensure that any comprehensive cybersecurity 
legislation effectively leverages the expertise of all federal assets.
    I should also note that today's hearing is focused on federal 
cybersecurity stakeholders. Notably absent are those who design, build, 
own, and operate the majority of the digital infrastructure in our 
nation. To that end, I intend to further the discussion of related 
cybersecurity issues through future hearings of the Technology and 
Innovation Subcommittee that will include voices from the private 
sector.
    I would like to thank my co-Chairman, Congressman Brooks, for 
sharing leadership on this important hearing. I also thank the 
witnesses for being here today and I look forward to a productive 
discussion.

    Chairman Quayle. I would now like to recognize the 
gentleman from Oregon, Mr. Wu, for his opening statement.
    Mr. Wu. Thank you, Mr. Chairman, for calling this very, 
very important hearing, and thanks to all the witnesses for 
being with us today.
    More and more of our personal information is making its way 
online and our Nation's entire infrastructure from traffic 
systems to the electricity grid to manufacturing to our health 
information is becoming increasingly dependent on secure and 
reliable access to the Internet, and I can think of few topics 
more important to this Committee to address than cybersecurity, 
and in the last Administration it was referred to as the 
greatest threat to our national security standing today, and I 
agree with that assessment.
    Anyone following the headlines recently knows that 
cybercrimes are becoming more frequent. Sony's PlayStation 
network has been repeatedly targeted, exposing the personal 
information of over 100 million users. A server at NASA was 
recently targeted, revealing satellite data, and social media 
sites like Facebook are constantly targeted by phishing scams 
and other cyberattacks.
    I am pleased that this Administration has provided Congress 
with the legislative framework to consider ways to address 
various vulnerabilities. The proposal focuses primarily on the 
role and authority of the Department of Homeland Security in 
securing non-defense systems. I look forward to working with 
Chairman Quayle and the other Members of the Subcommittee and 
the Full Committee to ensure that NIST's expertise in 
information security is maintained, especially in the 
development of technical standards and as a facilitator of 
private sector collaboration.
    I am also interested in ensuring that any comprehensive 
House bill advances cybersecurity research and development and 
lays out a clear strategy for building a highly skilled federal 
cyber workforce.
    According to OMB, last year federal agencies spent $12 
billion on cybersecurity to protect the $80 billion federal 
information technology infrastructure. Additionally, the 
Federal Government funds about $400 million in cybersecurity 
research each year.
    Despite this considerable funding and many federal employee 
hours spent on this issue, the assessment remains the same: Our 
cybersecurity is insufficient. We need to use existing 
resources more efficiently and with specific achievable goals 
in mind.
    Previously, federal efforts have been output-oriented, 
focusing on metrics such as the number of programs, funds spent 
and the number of interagency working groups rather than 
outcome-driven. I am pleased that the current Administration is 
focusing its efforts on achieving outcomes such as reducing 
breaches of federal systems and cases of identity theft as well 
as ensuring the security of smart grid and health IT systems.
    It is true that the Administration's Cyberspace Policy 
Review reemphasized recommendations from previous reports 
including improving information sharing, bolstering cross-
sector coordination, modernizing the research agenda, and 
enhancing public cybersecurity awareness. But the review was 
also successful in outlining a concrete vision and set of 
objectives that have been steadily addressed by the 
Administration over the last two years. For example, the 
creation of a national initiative for cybersecurity education 
to educate consumers about online risks and to provide training 
to build a skilled cybersecurity workforce--I am fond of saying 
that some aspects of cybersecurity are rocket science but 
others are relatively simple like wearing your seat belt or 
washing your hands--the development of the National Strategy 
for Trusted Identities in Cyberspace to combat online fraud and 
strengthen privacy, and the recent release of an international 
strategy for cyberspace that calls for the development of 
international standards aimed at preventing barriers to trade, 
commerce, and an open environment that fosters free expression 
and innovation around the world. By addressing these 
recommendations, we are laying the building blocks for a new 
outcome-based approach to federal cybersecurity.
    The agencies appearing before the Committee today have a 
significant role to play in creating that foundation. During 
today's hearing, I hope to learn how each agency has progressed 
toward meeting the goals and objectives outlined in the 
Administration's review, the agency's plans going forward, and 
the impact of the Administration's legislative proposal on 
their current roles and authorities. This information will help 
guide the Committee's ongoing efforts to protect our Nation 
from cyberattacks.
    Again, I would like to thank the witnesses for being here 
today and I look forward to your testimony.
    Thank you, Mr. Chairman. I yield back the balance of my 
time.
    [The prepared statement of Mr. Wu follows:]
             Prepared Statement of Ranking Member David Wu
    Thank you, Chairman Quayle, for calling this hearing. And thank you 
to our witnesses for being here today.
    More and more of our personal information is making its way online, 
and our nation's entire infrastructure-from traffic systems and the 
electricity grid to manufacturing-is becoming increasingly dependent on 
secure and reliable access to the internet. I can think of few topics 
more important for this Committee to address than cybersecurity.
    Anyone following the headlines recently knows that cybercrimes are 
becoming more frequent- Sony's PlayStation network has been repeatedly 
targeted by hackers, exposing the personal information of over 100 
million users; a server at NASA was recently targeted revealing 
satellite data; and social media sites like Facebook are consistently 
targeted by phishing scams and other cyber attacks.
    I'm pleased that the Administration has provided Congress with a 
legislative framework to consider ways to address various 
vulnerabilities. The proposal focuses primarily on the role and 
authority of the Department of Homeland Security in securing non-
defense systems.
    I look forward to working with Chairman Quayle and the other 
members of this Subcommittee to ensure that NIST's expertise in 
information security is maintained-especially in the development of 
technical standards and as a facilitator of private-sector 
collaboration. I am also interested in ensuring that any comprehensive 
House bill advances cybersecurity research and development and lays out 
a clear strategy for building a highly-skilled federal cyberworkforce.
    According to OMB, last year Federal agencies spent $12 billion on 
cybersecurity to protect the $80 billion dollar federal information 
technology infrastructure. Additionally, the Federal government funds 
about $400 million in cybersecurity research each year.
    Despite this considerable funding and many federal employee hours 
spent on this issue, the assessment remains the same: our cybersecurity 
is insufficient. We need to use existing resources more efficiently and 
with specific achievable goals in mind.
    Previously, federal efforts have been output oriented-focusing on 
metrics such as the number of programs, funds spent, and the number of 
inter-agency working groups-rather than outcome driven. I am pleased 
that the current Administration is focusing its efforts on achieving 
outcomes--such as reducing breaches of federal systems and cases of 
identity theft, as well as ensuring the security of smart grid and 
health IT systems.
    It's true that the Administration's Cyberspace Policy Review re-
emphasized recommendations from previous reports--including improving 
information sharing, bolstering cross-sector coordination, modernizing 
the research agenda, and enhancing public cybersecurity awareness. But 
the review was also successful in outlining a concrete vision and set 
of objectives that have been steadily addressed by the Administration 
over the last two years. For example:

        <bullet>  the creation of a National Initiative for 
        Cybersecurity Education to educate consumers about online risks 
        and provide training to build a skilled cybersecurity 
        workforce;

        <bullet>  the development of the National Strategy for Trusted 
        Identities in Cyberspace to combat online fraud and strengthen 
        privacy;

        <bullet>  and the recent release of an International Strategy 
        for Cyberspace that calls for the development of international 
        standards aimed at preventing barriers to trade, commerce, and 
        an open environment that fosters free expression and innovation 
        around the world.
    By addressing these recommendations, we are laying the building 
blocks for a new, outcome-based approach to federal cybersecurity. The 
agencies appearing before the Committee today have a significant role 
to play in creating that foundation.
    During today's hearing, I hope to learn how each agency has 
progressed toward meeting the goals and objectives outlined in the 
Administration's review, the agencies' plans going forward, and the 
impact of the Administration's legislative proposal on their current 
roles and authorities. This information will help guide the Committee's 
ongoing efforts to protect our nation from cyber attacks.
    I'd like to again thank the witnesses for being here today and I 
look forward to your testimony. Thank you, Mr. Chairman. I yield back 
the balance of my time.

    Chairman Quayle. Thank you, Mr. Wu.
    I now recognize the Chairman of the Subcommittee on 
Research and Science Education, Mr. Brooks, for his opening 
statement.
    Mr. Brooks. Thank you, Chairman Quayle.
    Good morning and welcome to each of our witnesses. As my 
fellow Chairman already pointed out, our hearing topic today, 
cybersecurity, is a dynamic issue that plays a role in a myriad 
of fields from our Nation's infrastructure to our private 
lives. It is an issue that is not only of interest to the 
government and industry, but also affects each of us 
personally.
    The Research and Science Education Subcommittee, of which I 
am the Chairman, shares jurisdiction of this issue with the 
Technology and Innovation Subcommittee for a number of reasons. 
In large part, this is due to the essential basic research 
taking place on cyber-related issues, conducted in large part 
through the National Science Foundation's Directorate for 
Computer and Information Science and Engineering (CISE). 
Likewise, NSF has an important role to fill regarding the 
cybersecurity workforce pipeline and education.
    In addition, the Subcommittee also authorizes and has 
oversight over the cyber-related work of the interagency 
Networking and Information Technology Research and Development 
program, also known as NITRD, which coordinates the Nation's 
unclassified federal research development efforts in 
cybersecurity.
    Today our witnesses include a number of federal agency 
representatives who will be able to discuss specific agency 
priorities related to cybersecurity research and development, 
as well as the larger issue of collaboration and coordination 
across the Federal Government.
    While I recognize and understand the essential functions of 
cybersecurity research and development, I am looking forward to 
an earnest discussion on the recent fiscal year 2012 budget 
requests. NSF's CISE Directorate requested over $728 million 
for fiscal year 2012, a 17.7 percent increase over fiscal year 
2010. The fiscal year 2012 budget request for the NITRD program 
is $3.866 billion, a $73 million increase over fiscal year 2010 
expenditures. Our role in Congress is to ensure that federal 
investments are made wisely, and once made, investments must 
produce significant value for the Nation.
    I look forward to our discussion today. Thank you for 
joining us.
    [The prepared statement of Mr. Brooks follows:]
                Prepared Statement of Chairman Mo Brooks
    Thank you Chairman Quayle. Good morning, and welcome to each of our 
witnesses. As my fellow Chairman already pointed out, our hearing topic 
today, cybersecurity, is a dynamic issue area that plays a role in a 
myriad of fields from our Nation's infrastructure to our private lives. 
It is an issue that is not only of interest to the government and 
industry, but also affects each of us personally.
    The Research and Science Education Subcommittee, of which I am the 
Chairman, shares jurisdiction of this issue with the Technology and 
Innovation Subcommittee for a number of reasons. In large part, this is 
due to the essential basic research taking place on cyber-related 
issues, conducted in large part through the National Science 
Foundation's Directorate for Computer and Information Science and 
Engineering (CISE). Likewise, NSF has an important role to fill 
regarding the cybersecurity workforce pipeline and education.
    In addition, the Subcommittee also authorizes and has oversight 
over the cyber-related work of the interagency Networking and 
Information Technology Research and Development program (NITRD). NITRD 
(Niter-dee) coordinates the Nation's unclassified federal research 
development efforts in cybersecurity.
    Today our witnesses include a number of Federal agency 
representatives who will be able to discuss specific agency priorities 
related to cybersecurity research and development, as well as the 
larger issue of collaboration and coordination across the Federal 
government.
    While I recognize and understand the essential functions of 
cybersecurity research and development, I am looking forward to an 
earnest discussion on the recent FY12 budget requests. NSF's CISE 
Directorate requested over $728 million for FY12, a 17.7 percent 
increase from FY10. The FY12 budget request for the NITRD Program is 
$3.866 billion, a $73 million dollar increase over FY10 expenditures.
    Our role in Congress is to ensure that Federal investments are made 
wisely, and once made, investments must produce significant value for 
the Nation. I look forward to our discussion today.
    Thank you for joining us.

    Chairman Quayle. Thank you, Mr. Brooks.
    The Chair now recognizes Mr. Lipinski for an opening 
statement.
    Mr. Lipinski. Good morning. I want to thank you, Chairman 
Quayle, and also Chairman Brooks for holding this hearing.
    I agree with my colleagues' remarks on the nature and 
severity of the challenges we face in cybersecurity in both the 
public and private sectors. Cybercrime is a problem for our 
national security, for businesses large and small, and for 
every single American. Like Mr. Wu, I can think of no more 
important topic for this Committee to address.
    While there are several other agencies not here today who 
also play a significant role in cybersecurity, the three 
agencies that are represented here are all central to these 
efforts. I know some of my colleagues will address the cyber 
efforts of NIST and DHS, so I would like to highlight those of 
the National Science Foundation.
    NSF is the agency overseen by the Research and Science 
Education Subcommittee and is second only to the Department of 
Defense in its support for cybersecurity research. In addition, 
NSF uniquely funds research across the entire range of science 
and engineering disciplines that are relevant to cybersecurity, 
and joins only DARPA in supporting truly game-changing 
research. It is also significant that the Director of the 
interagency NITRD program is here today since all of the 
civilian agencies coordinate their cybersecurity R&D activities 
through NITRD.
    I want to highlight one particular area that is often left 
out of discussions on cybersecurity research needs, and that is 
the human element of cybersecurity. People are perhaps the most 
important part of our IT infrastructure, and according to 
experts, they are also the weakest link in many systems. Better 
cybersecurity education for both the general public and for 
current and future IT professionals is vital. However, there is 
still a lot we don't understand about how humans interact with 
technology. Therefore, more research into the social and 
behavioral sciences has the potential to significantly improve 
the security of our IT systems. I am happy to see that the 
social, behavioral, and economic sciences directorate at NSF 
now has a more explicit role in the agency's Trustworthy 
Computing initiative. In the end, our cybersecurity efforts can 
only be as strong as our weakest link. I look forward to 
hearing more from Dr. Jahanian about that.
    We last held a series of hearings on cybersecurity in 2009, 
when I was Chair of the Research and Science Education 
Subcommittee. We learned at that time about the respective 
roles of different agencies and we received extensive outside 
expert testimony. We also learned that a lot had changed since 
Congress, led by this Committee, enacted the 2002 Cybersecurity 
R&D Act. That is why last Congress I introduced the 
Cybersecurity Enhancement Act of 2010, building on the 2002 
Act. That bill, like today's hearing, was a joint effort 
between my Subcommittee and T&I, then chaired by my friend Mr. 
Wu. Mr. McCaul, who has been a strong leader on cybersecurity 
issues, joined me as the lead Republican cosponsor, and the 
bill passed the House by a margin of 422 to 5. Since our bill, 
like so many others, never made it through the Senate in the 
last Congress, I am now joining Mr. McCaul in introducing an 
updated version. We are still making some small modifications, 
but I am hoping we can introduce the bill soon, perhaps as 
early as this week. I know the witnesses were asked about this 
legislation, and I look forward to hearing your thoughts and 
feedback today.
    We are anticipating that our R&D bill will be part of a 
bigger, bipartisan cybersecurity bill in both the House and 
Senate. The efforts to move a larger bill have stalled for some 
time over disagreements about how to assign leadership and 
coordination responsibilities across the government. I am glad 
that the President is taking an active role in this discussion, 
and I hope that the proposal the White House sent up to 
Congress two weeks ago will help to move efforts along in both 
chambers. I look forward to working with both my colleagues and 
the Administration to ensure the development of a strong cyber 
security strategy.
    I want to thank all of our witnesses for being here this 
morning and I look forward to hearing your testimonies, and I 
yield back.
    [The prepared statement of Mr. Lipinski follows:]
          Prepared Statement of Ranking Member Daniel Lipinski
    Ranking Member, Subcommittee on Research & Science Education
    Good morning. I want to thank both Chairman Quayle and Chairman 
Brooks for holding this hearing. I agree with my colleagues' remarks on 
the nature and severity of the challenges we face in cybersecurity in 
both the public and private sectors. Cybercrime is a problem for our 
national security, for businesses large and small, and for every single 
American. Like Mr. Wu, I can think of no more important topic for this 
committee to address.
    While there are several other agencies not here today who also play 
a significant role in cybersecurity, the three agencies that are 
represented here are all central to these efforts. I know some of my 
colleagues will address the cyber efforts of NIST and DHS, so I'd like 
to highlight those of the National Science Foundation. NSF is the 
agency overseen by the Research and Science Education Subcommittee and 
is second only to the Department of Defense in its support for 
cybersecurity research. In addition, NSF uniquely funds research across 
the entire range of science and engineering disciplines that are 
relevant to cybersecurity, and joins only DARPA in supporting truly 
game-changing research. It is also significant that the Director of the 
interagency NITRD program is here today since all of the civilian 
agencies coordinate their cybersecurity R&D activities through NITRD.
    I want to highlight one particular area that is often left out of 
discussions on cybersecurity research needs, and that is the human 
element of cybersecurity. People are perhaps the most important part of 
our IT infrastructure, and according to experts, they are also the 
`weakest link' in many systems. Better cyber security education for 
both the general public and for current and future IT professionals is 
vital. However, there's still a lot we don't understand about how 
humans interact with technology; therefore, more research into the 
social and behavioral sciences has the potential to significantly 
improve the security of our IT systems. I am happy to see that the 
social, behavioral, and economic sciences directorate at NSF now has a 
more explicit role in the agency's trustworthy computing initiative. In 
the end, our cybersecurity efforts can only be as strong as our 
`weakest link'. I look forward to hearing more from Dr. Jahanian about 
that.
    We last held a series of hearings on cybersecurity in 2009, when I 
was chair of the Research and Science Education Subcommittee. We 
learned at that time about the respective roles of different agencies 
and we received extensive outside expert testimony. We also learned 
that a lot had changed since Congress, led by this committee, enacted 
the 2002 Cybersecurity R&D Act. That is why last Congress I introduced 
the Cybersecurity Enhancement Act of 2010, building on the 2002 Act. 
That bill, like today's hearing, was a joint effort between my 
subcommittee and T&I, then chaired by my friend Mr. Wu. Mr. McCaul, who 
has been a strong leader on cybersecurity issues, joined me as the lead 
Republican cosponsor, and the bill passed the House by a margin of 422-
5. Since our bill, like so many others, never made it through the 
Senate in the last Congress, I am now joining Mr. McCaul in introducing 
an updated version. We are still making some small modifications, but 
I'm hoping we can introduce the bill soon, perhaps as early as this 
week. I know the witnesses were asked about this legislation, and I 
look forward to hearing your thoughts and feedback today.
    We are anticipating that our R&D bill will be part of a bigger, 
bipartisan cybersecurity bill in both the House and Senate. The efforts 
to move a larger bill have stalled for some time over disagreements 
about how to assign leadership and coordination responsibilities across 
the government. I am glad that the President is taking an active role 
in this discussion, and I hope that the proposal the White House sent 
up to Congress two weeks ago will help to move efforts along in both 
chambers. I look forward to working with both my colleagues and the 
Administration to ensure the development of a strong cyber security 
strategy.
    I want to thank all of our witnesses for being here this morning, 
and I look forward to hearing your testimonies.

    Chairman Quayle. Thank you, Mr. Lipinski.
    If there are Members who wish to submit additional opening 
statements, your statements will be added to the record at this 
point.
    At this time I would like to introduce our witness panel. 
Our first witness is Dr. George Strawn, the Director of the 
National Coordination Office for the Networking and Information 
Technology Research and Development program. Prior to his 
appointment as Director at NITRD, Dr. Strawn served as the 
Chief Information Officer at the National Science Foundation.
    Next is Dr. Farnam Jahanian, Assistant Director of the 
Directorate for Computer and Information Science and 
Engineering at the National Science Foundation. Prior to 
joining NSF, Dr. Jahanian served as Chair of Computer Science 
and Engineering at the University of Michigan.
    Next is Ms. Cita Furlani, the Director of the Information 
Technology Laboratory at the National Institute of Standards 
and Technology. Previously, Ms. Furlani has served as Director 
of the National Coordination Office for Information Technology, 
Research and Development.
    Finally, we will hear from Rear Admiral Michael A. Brown, 
Director of Cybersecurity Coordination at the Department of 
Homeland Security. Rear Admiral Brown is also assigned as the 
DHS Senior Cybersecurity Representative to the United States 
Cyber Command.
    As our witnesses should know, spoken testimony is limited 
to five minutes each after which the Members of the Committee 
will have five minutes each to ask questions.
    I now recognize our first witness, Dr. George Strawn, the 
Director of the National Coordination Office for the Networking 
and Information Technology Research and Development program.

STATEMENT OF DR. GEORGE STRAWN, DIRECTOR, NATIONAL COORDINATION 
  OFFICE, NETWORKING AND INFORMATION TECHNOLOGY RESEARCH AND 
                      DEVELOPMENT PROGRAM

    Dr. Strawn. Thank you, and good morning. As you say, I am 
George Strawn, Director of what we call the NCO, National 
Coordinating Office, of Networking and Information Technology 
Research and Development, called both NITRD or NITRD, as the 
case may be. I will use those shorthands, NCO and NITRD, in the 
rest of my comments in the interest of brevity.
    With Dr. Farnam Jahanian of NSF, I also co-Chair the NITRD 
Subcommittee of the National Science and Technology Council. I 
would like to thank Chairman Brooks, Chairman Quayle, Ranking 
Members Lipinski and Wu, and the Members of the Subcommittee 
for this opportunity to come before you today to discuss 
protecting information in the digital age and NITRD's role in 
federal efforts to improve cybersecurity.
    The NITRD program provides for the coordination of research 
and development in networking and information technology across 
14 federal agencies and many other partners. Their combined 
efforts represent America's primary investment in research and 
development for IT-related technologies in general and 
cybersecurity in particular. The NCO supports the coordination 
of the activities of the NITRD program.
    My written testimony responds to each of the five questions 
posed by the Subcommittees. In my oral comments today, I just 
want to highlight three points.
    First, the NITRD community strongly believes that this 
Nation's cybersecurity infrastructure must be made more secure 
and trustworthy than it is today if we are to sustain our 
technological and economic leadership role in the global 
information age. Indeed, the agency developed NITRD's strategic 
plan. One of the most significant tests of technological 
leadership will be the ability to engineer and build IT systems 
that inspire high levels of confidence because they function as 
intended: safely, securely, reliably and cost-effectively. The 
agencies added that fundamental research to ensure that digital 
networks, systems, devices, applications and communication 
processes earn and deserve the trust and confidence of society, 
thus constitutes an essential foundation for the Nation's 
future. Advancing our IT capabilities with radically improving 
cybersecurity technologies directly supports such U.S. 
priorities as national and homeland security, economic 
innovation, global competitiveness, health care reform and job 
creation.
    My second point is that because cyberspace interconnects us 
all, both the problems and solutions of cybersecurity transcend 
any one federal agency, any one sector or even any one nation. 
They involve not just a small number of discrete technologies 
but global scale interdependencies among a vast array of 
technologies. The scope and complexity of these cybersecurity 
challenges absolutely requires effective coordination of 
research and development between the federal agencies 
themselves as well as collaboration with our private sector 
partners, and this is the central role of the NITRD program. 
This coordination process is exemplified by NITRD's two 
cybersecurity and information assurance groups, one called a 
Senior Steering Group, the other called an interagency working 
group, which have responded to the Cyberspace Policy Review 
with innovative conceptual framework for R&D intended to 
radically change the game of cybersecurity in favor of the 
defendants.
    NITRD's recently developed strategic plan for federal R&D 
and cybersecurity brings me to my third point. Visionary 
federal R&D in cybersecurity is necessary but not sufficient. 
Much of cybersecurity infrastructure is in the private sector 
and much of it is overseas. Federal strategic plan for R&D in 
cybersecurity expressly calls for new forms of federal outreach 
and partnerships with the private sector and international 
stakeholders to accelerate the deployment of promising research 
into commercial applications and adoption. This transition to 
practice is currently exemplified in a variety of interagency 
projects of NITRD members and within several of the NITRD 
working groups.
    Thank you for your interest in cybersecurity and the 
opportunity to appear before you today. The NITRD community 
looks forward to working with you to realize the goal of a 
cyberspace in which we can all have trust and confidence.
    [The prepared statement of Mr. Strawn follows:]
    Prepared Statement of Dr. George O. Strawn, Director, National 
Coordination Office for Networking and Information Technology Research 
                            and Development
    Good morning. I am George Strawn, Director of the National 
Coordination Office (NCO) for Networking and Information Technology 
Research and Development (NITRD). With my colleague, Dr. Farnam 
Jahanian of the National Science Foundation (NSF), I co-chair the NITRD 
Subcommittee of the National Science and Technology Council's (NSTC) 
Committee on Technology. I want to thank Chairman Brooks and Chairman 
Quayle, Ranking Members Lipinski and Wu, and members of the 
Subcommittees for the opportunity to come before you today to discuss 
protecting information in the digital age and NITRD's role in Federal 
efforts to improve cybersecurity.
    The NITRD Program--now in its 20th year--provides a coordinated 
view of the Government's portfolio of unclassified investments in 
fundamental, long-term research and development (R&D) in advanced 
networking and information technology (IT), including cybersecurity and 
information assurance. All of the research reported in this portfolio 
is managed, selected, and funded by one or more of the 14 member 
agencies under their own individual appropriations. In addition to 
cybersecurity, the Program's current research areas are high-end 
computing, large-scale networking, human-computer interaction and 
information management, high-confidence software and systems, software 
design and productivity, and socioeconomic, education, and workforce 
implications of IT. Advances in these areas further our nation's goals 
for national defense and national security, economic competitiveness, 
energy and the environment, health care, and science and engineering 
leadership.

    Response to the Committee Request

    Your invitation to testify here today asked me to address five 
specific questions. But I would like to preface my comments with the 
general statement that the NITRD agencies strongly concur that 
improving the overall security of our cyber infrastructure--including 
computing systems, mobile devices, networks, digitally controlled 
critical infrastructures, and the vast quantities of information that 
now flow through cyberspace--is a critical national challenge. It is 
imperative that we successfully address this challenge, not only to 
strengthen our national security but also to sustain the technological 
leadership that drives our economic innovation, global competitiveness, 
and science and engineering preeminence, and supports our quality of 
life as Americans.
    The 2010 strategic plan for NITRD developed by the Program's 14 
member agencies (and now awaiting White House sign-off) describes 
``trust and confidence'' in our systems, networks, and information as 
one of three fundamental prerequisites for a bright U.S. future. The 
NITRD Plan states:
    ``The perspective of the NITRD agencies is that one of the most 
significant tests of technological leadership in the years ahead will 
be the ability to engineer and build IT systems that inspire high 
levels of confidence because they function as intended--safely, 
securely, reliably, and cost-effectively. Fundamental research to 
ensure that digital networks, systems, devices, applications, and 
communications processes earn and deserve the trust and confidence of 
society thus constitutes an essential foundation for the Nation's 
future.''
    The 14 NITRD member agencies and some two dozen other participating 
agencies represent the broad spectrum of Federal interests in 
networking and information technology R&D related to cybersecurity--
such as national defense and intelligence capabilities; health records 
privacy and confidentiality; the security of the national power grid; 
the reliability and functionality of the air-traffic-control system; 
the integrity and persistence of scientific research data; and the 
maintenance of secure real-time communications systems in emergency 
response, weather forecasting, and the financial markets; and many 
other key national purposes. The role of the NITRD Program in advancing 
the Government's cybersecurity efforts is to identify the 
technologically hard but critical problems and coordinate effective 
research and development to address them.
    The Program's framework of regular and ongoing interagency 
coordination enables the varied agencies to identify significant 
leverage, target common critical needs, avoid duplication of effort, 
maximize resource sharing, and partner in investments to pursue higher-
level goals. Moreover, because NITRD research is performed in 
universities, Federal research centers and laboratories, Federally 
funded R&D centers, and in partnerships with private companies and 
nonprofit organizations across the country, continuous interaction, 
information exchange, and feedback takes place, providing new 
perspectives and insights to both Federal and private-sector 
stakeholders.
    Initiatives #4 and 9 of the Comprehensive National Cybersecurity 
Initiative (CNCI) called for coordinating R&D efforts and developing 
enduring ``leap-ahead'' technology, strategies, and programs. The 
President's Cyberspace Policy Review builds on these goals to include 
developing a framework for research and development strategies that 
focus on game-changing technologies. The NITRD program has a key role 
in pursuing these goals. Research coordination has been strengthened 
through the establishment of a Cybersecurity and Information Assurance 
(CSIA) Senior Steering Group (SSG; made up of budget-level officials). 
The SSG, in close cooperation with the Special Cyber Operations 
Research and Engineering group (SCORE: convened by the Office of 
Science and Technology Policy and the Office of the Director of 
National Intelligence) enables effective coordination between the 
classified and unclassified Federal IT security R&D portfolios. This 
strong framework for coordination and the partnerships it has 
engendered enabled a comprehensive response to the near- and mid-term 
action items of the Cyberspace Policy Review as described in my answer 
to question #2 below.
    While individual members of the NITRD community are likely to be 
involved in multiple elements of the near- and mid-term action plans, I 
would like to focus on three of these in which NITRD, supported by the 
NCO, has a prominent role:
    Near-term Action Plan #9: Develop a framework for research and 
development strategies that focus on game-changing technologies that 
have the potential to enhance the security, reliability, resilience, 
and trustworthiness of digital infrastructure; provide the research 
community with access to event data to facilitate developing tools, 
testing theories, and identifying workable solutions.
    Over the last two years, NITRD's CSIA IWG and SSG have engaged in 
an intensive round of public discussions, brainstorming, and thorough 
technical examinations of cybersecurity issues in order to develop just 
such a game-changing R&D framework. The result is the soon-to-be-
released Federal cybersecurity R&D strategic plan, ``Trustworthy 
Cyberspace: Strategic Plan for the Federal Cybersecurity Research and 
Development Program.'' The strategic plan provides game-changing themes 
to direct R&D efforts towards understanding the underlying root causes 
of known current threats with the goal of disrupting the status quo 
with radically different approaches. The four themes serve as a 
framework to unify cybersecurity R&D activities. The themes are: 
Designed-In Security (DIS), Tailored Trustworthy Spaces (TTS), Moving 
Target (MT), and Cyber Economic Incentives (CEI), with focus areas on 
wireless mobile networks in the TTS theme and nature-inspired solutions 
and a deep understanding of cyberspace in the MT theme.
    The process of building the R&D strategic plan began with a Leap-
Ahead Initiative, developed by the White House Office of Science and 
Technology Policy (OSTP) and the CSIA SSG. The initiative solicited 
public inputs and received more than 200 responses on ideas for how to 
change the cybersecurity landscape. These ideas were distilled into 
five fundamentally game-changing concepts in cybersecurity and provided 
as inputs to the National Cyber Leap Year Summit held August 17-19, 
2009, in Arlington, Virginia. The summit gathered innovators from the 
academic and commercial sectors to explore these concepts. The outcomes 
of the summit were distilled into the three game-changing R&D themes. 
In FY 2010, the themes were provided as inputs to the Administration's 
cybersecurity R&D agenda and introduced to the research community as 
strategies for public-private actions to secure the Nation's digital 
future. Since the Summit, as the understanding of cyberspace has 
evolved, a new theme--Designed-In Security (DIS)--has been added to the 
Federal cybersecurity R&D plan. The next phase in this effort will be 
to develop, with private-sector input, a roadmap to implement the 
strategic plan.
    An important new strategic thrust introduced in the Federal 
cybersecurity R&D plan is to develop a science of security. A science 
of security is needed to ground research efforts and would have the 
potential of producing hypotheses subject to experimental validation 
and universal concepts that are predictive and transcend specific 
systems, attacks, and defenses. Within 10 years, the aim is to develop 
a scientific framework that applies to real-world settings and provides 
explanatory value. The CSIA agencies are working with private-sector 
stakeholders to identify real-world data sets that can be used for 
research experimentation and testing without compromising privacy or 
proprietary and sensitive information.
    Mid-term Action Plan #3: Expand support for key education programs 
and research and development to ensure the Nation's continued ability 
to compete in the information age economy.
    The portfolio of research and development activities sponsored by 
the NITRD agencies constitutes this country's only full-spectrum IT R&D 
enterprise, and thus these activities represent a unique resource for 
seeding U.S. innovation of all kinds. In addition, NITRD funding 
represents the single largest source of support for the education and 
training of new generations not only of U.S. IT research leaders but of 
IT entrepreneurs and technical experts in many fields of endeavor. Our 
Nation's investments in this NITRD portfolio in general, and in its 
cybersecurity-related components in particular, have increased along 
with the critical roles that these technologies play in our information 
age economy. NITRD agencies now support multiple NCO-coordinated 
activities impacting research and development, education, and workforce 
readiness for cybersecurity and the protection of our Nation's critical 
infrastructure and its entire economy. Nevertheless, all recognize that 
the challenge remains large and growing.
    Mid-term Action Plan #11: Encourage collaboration between academic 
and industrial laboratories to develop migration paths and incentives 
for the rapid adoption of research and technology development 
innovations.
    The forthcoming Federal cybersecurity R&D plan specifically 
addresses the need to accelerate the transition of R&D to practice. It 
states that an explicit, coordinated process that transitions the 
fruits of research into practice is essential if Federal cybersecurity 
R&D investments are to have significant, long-lasting impact. As part 
of the transition to practice activities, the Federal cybersecurity 
research community plans to participate in activities related to 
technology discovery; test and evaluation; and transition, adoption, 
and commercialization. Planned activities in technology discovery 
include, for example, participation in the Information Technology 
Security Entrepreneurs' Forum (ITSEF) and Defense Venture Catalyst 
Initiative (DeVenCI). In test and evaluation, NITRD agencies plan to 
leverage available operational and next-generation networked 
environments to support experimental deployment, test, and evaluation 
of novel security technologies in realistic settings in both public- 
and private-sector environments. For transition, adoption, and 
commercialization, NITRD agencies plan to participate in the System 
Integrator Forum (SIF) and Small Business Innovative Research (SBIR) 
Conferences.
    As part of their activities to engage with the cybersecurity 
research community, senior Federal agency cybersecurity officials are 
presenting the framework for R&D strategies and themes articulated in 
the strategic plan to researchers attending the annual IEEE Security 
and Privacy Symposium, May 22-25, 2011 in Oakland, California.
    I would like to note here that the transition to practice is also 
being addressed by NITRD's Large Scale Networking (LSN) agencies. They 
have developed an innovative network-performance monitoring technology 
called perfSONAR, which provides network managers with unprecedented 
capabilities to evaluate how well their networks are functioning, to 
find problems, and to recognize anomalies in network security. The LSN 
agencies are now working with private-sector networks and international 
research network partners to implement deployment of this powerful new 
tool. The LSN teams, JET (Joint Engineering Team) and MAGIC (Middleware 
and Grid Infrastructure Coordination), are also closely involved in 
transition to practice through their testing and implementation in 
advanced research networks of security-enhancing technologies such as 
federated identity management, IPv6, and DNSSec.
    NITRD activities are supported by the NCO, which provides logistics 
as well as expert technical coordinators to support the operations of 
the Subcommittee and an evolving collection of working groups (such as 
the CSIA IWG) in which the agencies participate to coordinate their own 
research and development activities and to plan and oversee joint 
activities when appropriate. They regularly share plans and 
developments, host workshops, author papers, and interact with the 
academic and private sectors as a means of defining and operating the 
most effective programs of research and development attainable in their 
subject areas.
    The following snapshot examples illustrate how such interagency 
collaboration can lead to substantially better results in research and 
development as well as education:

        <bullet>  Partnership for Cyberspace Innovation--a partnership 
        of NIST, the Science and Technology Directorate of DHS, and the 
        Financial Services Sector Coordinating Council (FSSCC), with 
        the goal of speeding the commercialization of cybersecurity 
        research innovations that support our Nation's critical 
        infrastructures. This agreement will accelerate the deployment 
        of network testbeds for specific use cases that strengthen the 
        resiliency, security, integrity, and usability of financial 
        services and other critical infrastructures such as online 
        health services, the Smart Grid, water, and transportation.

        <bullet>  Middleware And Grid Infrastructure Coordination 
        (MAGIC) Team--a partnership of agencies and Federal 
        laboratories including ANL, DHS, DOE/SC, FNAL, LANL, LBL, NASA, 
        NIH, NIST, NOAA, NSF, PNNL, and UCAR, and their industry 
        partners, which improves the Nation's cybersecurity and privacy 
        environment through research, development, and promotion of 
        Identity Management best practices, standards, and community 
        outreach.

        <bullet>  Joint Engineering Team (JET)--a partnership of agency 
        and research networks including DoD, DOE, NASA, NSF, Internet2, 
        and National Lambda Rail that seeks to improve performance as 
        well as security by coordinating networking testbeds (for 
        optical, cloud, architecture, and networking research) and 
        promoting the deployment in advanced networks of more secure 
        technologies such as IPv6 and DNSSec.

        <bullet>  National Initiative for Cybersecurity Education 
        (NICE)--a partnership led by NIST and including DHS, DoD, NSF, 
        ED, OPM, NSA, DOJ, NSA, ODNI, and others, with the goal of 
        establishing an operational, sustainable, and continually 
        improving cybersecurity education program to foster sound cyber 
        practices that will enhance the Nation's security.

        <bullet>  The SEW-Education subgroup of the NITRD SEW 
        Coordinating Group, with a focus on raising the national 
        profile of computing-related knowledge through fundamental 
        changes in K-12 computer science education. This new group, one 
        of whose co-chairs leads the NIST cybersecurity education 
        initiative, is a participant in the NICE program and is now 
        developing its plan of action.
    As Director of the NCO for NITRD, it is always a pleasure for me to 
describe how, by facilitating the collaborative efforts of 
representatives from many agencies--by arranging meetings and 
teleconferences, hosting/supporting workshops and conferences, 
preparing ``zero-th'' drafts of brainstorming documents, communicating 
regularly with NITRD participants, and the like--the NCO helps empower 
the collective intelligence of the NITRD community to accomplish 
together far more than any single agency could on its own. I believe 
the NITRD model of cooperation among very disparate agencies truly 
works, and has led to significant improvements in research and 
development as well as strategic planning and for cybersecurity.
    As is described above, the NITRD Program currently supports an 
extensive process of coordination and planning across the Federal 
agencies involved in research and development. This process has led to 
the development of the Federal cybersecurity R&D strategic plan, 
Trustworthy Cyberspace: Strategic Plan for the Federal Cybersecurity 
Research and Development Program, which defines a set of interrelated 
priorities for the agencies of the U.S. government that conduct or 
sponsor R&D in cybersecurity. This plan aligns well with the planning 
objectives noted in H.R. 4061, and is to be followed by coordinated 
development of a roadmap of steps guiding its implementation. In this 
process, NITRD and its agency members have hosted workshops for the 
exchange of information with academia and the private sector and have 
requested comments from a wide range of stakeholders including the 
public. NITRD member agencies are beginning to use language and 
direction from this coordinated plan in agency research and development 
activities. We greatly appreciate the interest of the Committee and the 
Subcommittees represented here today and share your commitment to 
research and development for better cybersecurity. We look forward to 
continuing to work closely with you on this shared goal with or without 
any additional legislation.
    The proposed legislation directly promotes greater cybersecurity 
research and development, education, and workforce needs as one of five 
parts of its basic approach as outlined in SEC 243 (b). The same 
section promotes the development and implementation of technical 
capabilities in support of national cybersecurity goals. Many such 
technical capabilities of the future will represent the practical 
implementations of the results of ongoing Federal research and 
development coordinated in the NITRD Program.
    The legislation also calls for research and development in 
cybersecurity in SEC 243 (c) as an important component of a 
multifaceted program to foster the development, in conjunction with 
other governmental entities and the private sector, of essential 
information security technologies and capabilities for protecting 
Federal systems and critical information infrastructure, including 
comprehensive protective capabilities and other technological 
solutions. Such research and development will be essential not only to 
better meet existing threats, but to provide the technical and 
scientific foundation for capabilities to meet emerging threats and 
developments. The coordination of such research and development, and 
the transition to practice of its successful results, are key 
components of the NITRD contributions to improving cybersecurity. The 
proposed legislation for cybersecurity research and development, as 
outlined in Sections 243 (c) and (d), thus is consistent and aligns 
with the R&D coordination in which the NITRD Program engages.

  Biography for Dr. George O. Strawn, Director, National Coordination 
Office, Networking and Information Technology Research and Development 
                                Program
    Dr. George O. Strawn is the Director of the National Coordination 
Office (NCO) for the Networking and Information Technology Research and 
Development (NITRD) interagency program. He also serves as the Co-Chair 
of the Subcommittee on NITRD. The NCO reports to the Office of Science 
and Technology Policy (OSTP) within the Executive Office of the 
President.
    Dr. Strawn is on assignment to the NCO from the National Science 
Foundation (NSF), where he most recently served as Chief Information 
Officer (CIO). As the CIO for NSF, he guided the agency in the 
development and design of innovative information technology, working to 
enable the NSF staff and the international community of scientists, 
engineers, and educators to improve business practices and pursue new 
methods of scientific communication, collaboration, and decision-
making.
    Prior to his appointment as NSF CIO, Dr. Strawn served as the 
executive officer of the NSF Directorate for Computer and Information 
Science and Engineering (CISE) and as Acting Assistant Director for 
CISE. Previously, Dr. Strawn had served as the Director of the CISE 
Division of Advanced Networking Infrastructure and Research, where he 
led NSF's efforts in the Presidential Next Generation Internet 
Initiative.
    Prior to coming to NSF, Dr. Strawn was a Computer Science faculty 
member at Iowa State University (ISU) for a number of years. He also 
served there as Director of the ISU Computation Center and Chair of the 
ISU Computer Science Department. Under his leadership, ISU became a 
charter member of MIDNET, a regional NSFNET network; he also lead the 
creation of a thousand-workstation academic system based on an 
extension of the MIT Athena system; and under his leadership, the ISU 
Computer Science department was accredited by the then-new Computer 
Science Accreditation Board.
    Dr. Strawn received his Ph.D. in Mathematics from Iowa State 
University and his BA Magna Cum Laude in Mathematics and Physics from 
Cornell College.

    Chairman Quayle. Thank you very much.
    I now recognize our second witness, Dr. Farnam Jahanian, 
for five minutes.

     STATEMENT OF DR. FARNAM JAHANIAN, ASSISTANT DIRECTOR, 
     DIRECTORATE FOR COMPUTER AND INFORMATION SCIENCE AND 
            ENGINEERING, NATIONAL SCIENCE FOUNDATION

    Mr. Jahanian. Good morning. Chairmen Quayle and Brooks, 
Ranking Members Wu and Lipinski, and Members of the 
Subcommittees, I am Farnam Jahanian, Assistant Director for the 
Computer and Information Science and Engineering Directorate at 
the National Science Foundation.
    As you know, NSF is dedicated to the support of fundamental 
research in all disciplines to the advancement of science and 
engineering and to educating a new generation of innovative 
leaders. I welcome this opportunity to present NSF's 
investments in cybersecurity research and education this 
morning.
    Investments in unclassified long-term research are critical 
to an effective national strategy of achieving trustworthy 
cyberspace. It is important to note that many powerful 
information technologies deployed today capitalize on 
fundamental research outcomes generated decades ago. NSF brings 
the problem-solving capabilities of the Nation's best minds to 
bear on these challenges. It also promotes connections between 
academia and industry which help to protect the cyberspace, 
secure the Nation's critical infrastructure and fuel job 
growth.
    In fiscal year 2011, NSF will invest up to $130 million in 
cybersecurity research including $55 million in the cross-
cutting Trustworthy Computing program at NSF. Its projects 
range from security at the microscopic level, detecting whether 
a silicon chip contains a malicious circuit, to the macroscopic 
level, determining strategies for securing the next generation 
electrical power grid.
    Fundamental research in cryptography, formal specification, 
verification techniques and security testing all contribute to 
improved methods for building systems that perform as intended, 
even in the face of threats. Research in secure programming 
languages and methodologies, secure operating systems and 
specialty virtualization mechanisms on which many of the 
security of cloud computing depends are also prominent in NSF's 
portfolio. Cybersecurity investments are also made in the 
subdisciplines of computing and information sciences, for 
example, in the physical cybersystems, algorithmic foundations 
and networking programs in my directorate.
    Center-scale activities play an important role in NSF's 
portfolio. The Trust Center, a multidisciplinary collaborative 
research effort, is focused on science and technology for 
developing and using secure information systems with almost 30 
industrial partners. Four cybertrust centers and two industry-
university cooperative centers also focus on a number of 
foundational challenges. Research outcomes and innovations 
developed with the funding from NSF and other federal partners 
are now being used by the private sector and government 
agencies to protect the Nation's cyber infrastructure. In 
recent years, research outcomes have led to the formation of 
numerous startup companies in the IT sector that bring 
innovative solutions to the marketplace.
    Education is embedded in all these projects through the 
training of graduate students, many of whom will join the 
cybersecurity workforce. CAREER NSF, most prestigious program 
for junior faculty, carries specific requirements for the 
integration of research and education. Research experiences for 
undergraduates, another NSF program, gives students 
opportunities to do cybersecurity research. Scholarship for 
Service program provides tuition at academic institutions in 
exchange for government service following graduation. To date, 
this program has provided 1,400 scholarships at 34 institutions 
and has placed graduates in 30 federal agencies. Advanced 
technology innovation education program educates technicians 
and has three regional centers: Cyber Watch in Maryland with 35 
community colleges, 15 universities from 20 States and an 
enrollment of 1,800 students; the CSSIA Center in Illinois, 
eight institutions from five States with more than 1,400 
enrolled; and a third regional center, the CSEC Center in 
Oklahoma with 45 institutions from eight states and almost 
2,000 students enrolled.
    NSF has been actively responding to the near-term and 
midterm action plans outlined in the Cyberspace Review Policy. 
NSF also participates in the interagency NITRD program, which 
ensures the coordination of cybersecurity investment across 14 
government agencies.
    To conclude, the Internet plays a critical role in tightly 
integrating the economic, political and social fabric of our 
global society. These interdependencies leave the Nation 
vulnerable to a wide range of threats that challenge the 
security, reliability, availability and overall trustworthiness 
of all IT resources. In my testimony today, I have emphasized 
that NSF's investment in cybersecurity research and education 
allows our society to benefit from a robust, secure, dependable 
infrastructure that supports all application sectors including 
those on which our lives depend.
    This concludes my testimony. I would be happy to answer any 
questions at this time.
    [The prepared statement of Mr. Jahanian follows:]
   Prepared Statement of Farnam Jahanian, Ph.D., Assistant Director, 
      Computer and Information Science and Engineering Directorate
    Good afternoon, Chairman Quayle and Chairman Brooks, Ranking 
Members Wu and Lipinski, and members of the Subcommittees. My name is 
Farnam Jahanian and I am the Assistant Director of the Computer and 
Information Science and Engineering Directorate at the National Science 
Foundation.
    I welcome this opportunity to highlight NSF's investments in cyber 
security research and education. NSF aims to fund cyber security 
research at the frontiers of knowledge, to capitalize on the 
intellectual capacity of both young and experienced investigators in 
our Nation's academic and research institutions, and to partner with 
other U.S. government agencies and private sector and international 
organizations to meet the challenges of securing cyberspace. It is 
important to note that the many powerful information technologies (IT) 
deployed today around the world capitalize on fundamental research 
outcomes generated decades ago. An effective national strategy for 
achieving a cyberspace that is deemed ``trustworthy'' must include 
investments in fundamental, unclassified, long-term research. These 
investments will allow our society to continue to benefit from a 
robust, secure, dependable cyber infrastructure that supports all 
application sectors, including those on which our lives depend.
    Allow me to share with you some examples of the important 
contributions made to date by the research community with both NSF and 
other Federal support. They include:

        <bullet>  Cryptographic schemes and cryptographic-based 
        authentication, enabling today's Internet commerce, supporting 
        secure digital signatures and online credit card transactions;

        <bullet>  Program analyses and verification techniques, 
        enabling the early detection of software vulnerabilities and 
        flaws, which can prevent cyber attacks, such as phishing, worms 
        and botnets;

        <bullet>  New approaches to prevent and mitigate distributed 
        denial of service attacks have helped secure Internet's 
        underlying infrastructure;

        <bullet>  Approaches to identify exploitable flaws in cyber-
        enabled systems, including automotive control software and 
        medical device software, that have alerted industry to the need 
        for secure software and system development practices;

        <bullet>  Technology to detect and defeat ``drive-by 
        downloads'' from malicious websites makes web browsing safer 
        for the public;

        <bullet>  Innovative machine learning and data mining 
        approaches used in spam filtering, and methods for detecting 
        attacks, such as those involving credit card fraud;

        <bullet>  CAPTCHAs, the distorted text that only humans--not 
        machines or bots--can decipher, to ensure that it is indeed a 
        human, and not a bot, who is buying a ticket on-line or setting 
        up an email account;

        <bullet>  Open source tools that enable rapid analysis of 
        malware allow for quick detection and mitigation and new 
        methods to study botnets reveal the structure of the 
        underground economy, allowing investigators to make attribution 
        and prevent future attacks from the same sources;

        <bullet>  Better understanding of how humans respond to 
        software security warnings gives designers new models for 
        designing usable and secure systems; and

        <bullet>  The underpinnings for fully homomorphic encryption, 
        which means that we may eventually be able to perform encrypted 
        computations on untrusted platforms (such as on a distributed 
        ``cloud'' platform), just as today we can send encrypted 
        communications over untrusted networks.
    The research contributions listed above and other research outcomes 
and innovations developed with funding from NSF and other Federal 
partners are now being used by the private sector and government 
agencies to protect the nation's cyber infrastructure. Moreover, in 
recent years, NSF-funded research activities have led to the formation 
of start-up companies in the IT sector that bring innovative solutions 
and technologies to the marketplace, fueling job growth, and helping to 
protect cyber space. By promoting a healthy connection between academia 
and companies, NSF further enhances its research portfolio in 
trustworthy computing with foundational concepts and new ideas that are 
directly relevant to the commercial sector.
    While the advances in cyber security research and development (R&D) 
are many, including those mentioned above, the Nation needs to continue 
its investments in long-term, game-changing research if our cyber 
systems are to be trustworthy. As you know, every day, we learn about 
more sophisticated and dangerous attacks. Why is the cyber security 
challenge so hard? The general answer is that attacks and defenses co-
evolve: a system that was secure yesterday might no longer be secure 
tomorrow. More specific responses to this question include:

        <bullet>  The technology base of our systems is frequently 
        updated to improve functionality, availability, and/or 
        performance. New systems introduce new vulnerabilities that 
        need new defenses.

        <bullet>  The settings in which our computing systems are 
        deployed and the functionality they provide are not static. 
        With new computing models/platforms, like cloud computing and 
        smart phones, come new content and function, which in turn 
        creates new incentives for attack and disruption.

        <bullet>  The sophistication of attackers is increasing as well 
        as their sheer number and the specificity of their targets.

        <bullet>  Achieving system trustworthiness is not purely a 
        technology problem. System developers, purchasers, operators 
        and users all have a role to play in system security, and ways 
        to incentivize them are required. Security mechanisms that are 
        not convenient will be ignored or circumvented; security 
        mechanisms that are difficult to understand will be ignored.

        <bullet>  Humans can be tricked into performing insecure 
        actions or divulging confidential information through various 
        ruses of clever adversaries.

    Emerging Threats

    The Internet plays a critical role in tightly integrating the 
economic, political, and social fabric of global society. These 
interdependencies leave the Nation vulnerable to a wide range of 
threats that challenge the security, reliability, availability, and 
overall trustworthiness of all information technology resources.
    An evolution of means and motives. In retrospect, early threats, 
such as first-generation viruses and worms, while costly and dangerous, 
did not seriously challenge the availability or security of the 
Internet. In practice, many attackers simply engaged in acts of 
vandalism. Quickly, however, global Internet threats underwent a 
profound transformation--from attacks designed solely to disable all or 
part of the Internet to those that specifically targeted people and 
organizations. Driven in large part by financial incentives, attackers 
learned that these systems offered a valuable resource, both in terms 
of the personal data they contained and as a resource that could be 
used for future attacks. Networks of these compromised machines, or 
botnets, have become the delivery platform of choice and fuel a variety 
of threats, such as SPAM, identity theft, phishing, and Distributed 
Denial of Service Attacks (DDoS).
    These threats continue to evolve both in the motives of the 
attackers and the means they employ to achieve their goals. Today, 
exclusively economic motivations have given way to a wide range of 
goals, including the desire to project political will into cyber-space, 
such as the denial of service attacks that shadowed the clashes between 
Russia and Georgia over the region of South Ossetia in 2008, and the 
Ghostnet cyber spying operation that infiltrated the computers of 
embassies, foreign ministries, and the offices of the Dalai Lama in 
2009. Both instances serve to highlight the scope of this problem and 
the difficulty in discovering the persons or nations that launched the 
attacks. With these changing motivations, attackers continue to 
innovate with new methods. Attacks continue to increase in size. They 
are more targeted, sophisticated, and stealthy. Furthermore, these 
attacks are more effective, propagating through high-level applications 
and through social engineering.
    Future security challenges will follow Internet adoption patterns. 
While Internet threats are likely to continue along the trajectory 
outlined above, I believe new security challenges will emerge as 
attackers shadow Internet adoption patterns.
    Mobile Internet use is growing quickly: it will become the 
predominant global Internet access method by 2014. Tens of thousands of 
applications available today support banking, ecommerce, highway 
navigation, health and wellbeing, and social networking, for example; 
the future will only bring more varied applications used in all facets 
of daily life. The current culture that encourages application 
downloading makes mobile devices especially vulnerable to malware. For 
example, in 2010, a smart phone weather application downloaded by 
mobile phone users demonstrated how a malicious attack could quickly 
co-opt a cohort of smart phones around the globe. Today, we lack the 
understanding and technology to enforce security policies in these 
situations.
    Machine rooms and data centers have long been a mainstay of 
commercial information technology support. But new technology now 
enables the unprecedented aggregation of hardware and software, which 
is then provided in a comprehensive, highly-elastic service that we 
call ``cloud computing.'' Cloud providers are adding infrastructure at 
a rapid rate to support this new model. These opportunities bring new 
risks. A new trust model is required. Users of cloud computing must 
place their trust in a third party that could well be sharing its 
resources with competitors and adversaries. Moreover, the cloud--
because it concentrates value--is especially attractive to attackers. 
The ramifications of these changes require continued research and 
development; new approaches for protecting cloud infrastructure will be 
key to its long-term success. For more information on the strengths and 
weaknesses of cloud computing, see the NIST draft recommendations for 
information technology policy makers: http://csrc.nist.gov/
publications/drafts/800-146/Draft-NIST-SP800-146.pdf.
    The trend toward increasingly cyber-enabled systems, i.e., the 
integration of computation, communication, and control into physical 
systems, offers new challenges. Healthcare, education, and finance have 
been at risk of attack for a long time, and physical infrastructure--
manufacturing, energy production, and transportation--are now at risk. 
Recent attacks demonstrate that even facilities not directly connected 
to the Internet can be targeted.
    The Nation's researchers must start building systems whose 
trustworthiness derives from first principles, i.e., proven 
assumptions. To do that, NSF is formulating and developing a 
comprehensive research portfolio around a view of systems that are 
deemed trustworthy, i.e., systems that people can depend on day after 
day and year after year to operate correctly and safely--from our 
avionics, mass transit and automobile systems to medical devices 
operated remotely to save lives on battlefields. Included in this 
notion of trustworthiness are a number of critical concepts: 
reliability (does it work as intended?); security (how vulnerable is it 
to attack?); privacy (does it protect a person's information?); and 
usability (can a human easily use it?). Research needs to be game-
changing and forward-looking; new policies and continued focus on cyber 
security education, public awareness and workforce development are 
critical to our success.
    Given this summary of the emerging threats in cybersecurity and 
NSF's contributions to these challenges, let me now turn to the issues 
that were raised by the Subcommittees in the invitation to this 
hearing.
    (1) Please provide a brief overview of the National Science 
Foundation's (NSF) cybersecurity activities and how research and 
development is integrated into your agency's mission.
    The National Science Foundation funds a broad range of activities 
to advance cybersecurity research, develop a well-educated and capable 
workforce, and to keep all citizens informed and aware. Investments in 
these activities include the Trustworthy Computing program in the 
Directorate for Computer and Information Science and Engineering, the 
Scholarships for Service program in the Directorate for Education and 
Human Resources, the TRUST Science and Technology Center, and many 
related research projects across Engineering, Mathematical and Physical 
Sciences, and Office of Cyberinfrastructure programs. As stated in its 
organic act, NSF's mission is ``to promote the progress of science; to 
advance the national health, prosperity, and welfare; to secure the 
national defense.'' Support for basic and applied research is integral 
to NSF's mission. NSF also supports development activities beyond the 
stage of research prototypes through its Small Business Innovative 
Research (SBIR) and Small Business Technology Transfer (STTR) programs 
and in its support of science and engineering computing infrastructure 
through its Office of Cyberinfrastructure.

    Cybersecurity Research

    NSF has been investing in cyber security research for many years. 
In FY 2011, NSF will invest almost $117 million in fundamental research 
in the science of trustworthiness and related trustworthy systems and 
technologies. Approximately one half of this $117 million is allocated 
to the cross-cutting Trustworthy Computing program, which in FY 2011 is 
funded at a level of $55 million dollars. Currently, there are about 
500 projects that are active. About a third of these projects includes 
more than one faculty researcher and all include graduate students. 
Active awards in the Trustworthy Computing program include $1.2M for 
support of 19 post-doctoral students as well. In addition to the 
Trustworthy Computing program, NSF continues to make cyber security 
investments in the core scientific sub-disciplines of the computing and 
information sciences, including the foundations of algorithms and 
information and communications, cyber physical systems, smart health 
and wellbeing, future internet architectures, networking technology and 
systems, information integration and informatics, and in the social and 
economic implications of developing secure, trustworthy systems.
    NSF continues to cast a wide net and let the best ideas surface, 
rather than pursuing a prescriptive research agenda. It engages the 
cyber security research community in developing new fundamental ideas, 
which are then evaluated by the best researchers through the peer 
review process. This process, which supports the vast majority of 
unclassified cyber security research in the United States, has led to 
innovative and transformative results. Today, NSF's cyber security 
research portfolio includes projects addressing security from the 
microscopic level, detecting whether a silicon chip may contain a 
malicious circuit, to the macroscopic level, determining strategies for 
securing the next generation electrical power grid, as well as at the 
human level, studying online privacy and security behaviors of both 
adolescents and senior citizens. Fundamental research in cryptography, 
cryptographic protocol analysis, formal specification and verification 
techniques, static and dynamic program analysis, security testing 
methods, all contribute to improved methods for building systems that 
perform as intended, even in the face of threats. Research in secure 
programming languages and methodologies, in securing operating systems 
and especially the virtualization mechanisms and hypervisors on which 
much of the security of cloud computing architectures depends is also 
prominent in NSF's portfolio. NSF's researchers are investigating novel 
methods for detecting when security measures have failed, when 
intrusions have occurred, and when information may have been altered or 
stolen. NSF's portfolio includes projects studying security in human-
centric systems and in a variety of web application contexts as well as 
in smart phones, medical devices, and automotive systems.
    Aside from single investigator and team awards, NSF also invests in 
center-scale activities. In FY 2012, NSF will provide the eighth year 
of funding for the Team for Research in Ubiquitous Secure Technology 
(TRUST) Science and Technology Center (STC). This center, which 
includes University of California (UC), Berkeley, Carnegie Mellon 
University, Cornell University, San Jose State University, Stanford 
University, and Vanderbilt University and many industrial partners, is 
focused on the development of cybersecurity science and technology that 
will radically transform the ability of organizations to design, build, 
and operate trustworthy information systems for the Nation's critical 
infrastructure by addressing the technical, operational, legal, policy, 
and economic issues affecting security, privacy, and data protection as 
well as the challenges of developing, deploying, and using trustworthy 
systems.
    Since 2004, the Trustworthy Computing program has funded four 
centers. All of these centers are coming to an end this year or next:

        <bullet>  Trustworthy Cyber Infrastructure for the Power Grid 
        led by University of Illinois Urbana-Champaign, now 
        transitioned to Department of Energy (DoE) and Department of 
        Homeland Security (DHS) for continued funding
    This research creates infrastructure technology that will convey 
critical information to grid system operators despite partially 
successful cyber attacks and accidental failures. Security and trust 
validation techniques are developed that can quantify the 
trustworthiness of a proposed design with respect to critical 
properties. An interactive simulator created by the project will allow 
users to experiment with new power grid cyber-infrastructure design 
approaches.

        <bullet>  Cybertrust Center for Internet Epidemiology and 
        Defenses led by UC San Diego and UC Berkeley
    Understanding the scope and emergent behavior of Internet-scale 
worms seen in the wild constitutes a new science termed Internet 
epidemiology. To gain visibility into pathogens propagating across the 
global Internet, the Center has developed and operated an Internet 
pathogen detection service of unprecedented scale. With this service, 
the Center has demonstrated the speed and coverage over which such 
pathogens can spread, and has developed mechanisms for deriving 
``signatures'' of a worm's activity and disseminating these to worm 
suppression devices deployed throughout the global network.

        <bullet>  Situational Awareness for Everyone led by Carnegie 
        Mellon University and University of North Carolina, Chapel Hill
    This center focuses on how to make both users and organizations 
more aware of their cybersecurity situation--the risks they face and 
how they can deal with them in practice. For organizations, the center 
has developed tools and techniques focused on network security 
awareness and management. Some of these tools are now operating in 
California's inter-campus network as well as Berkeley's and Carnegie 
Mellon's internal campus networks; industry is also showing concrete 
interest. The center has also focused on educating children and adults, 
reaching children through a novel game that educates users about 
security issues and tailors its behavior for the age and background of 
the player. It has been tested in Pittsburgh regional school districts 
and is now available on the Internet.

        <bullet>  ACCURATE led by Johns Hopkins University
    The voting system integrity problem is a paradigmatic hard cyber 
trust problem, requiring trustworthy system architectures, security, 
integrity, privacy, anonymity, high assurance, and human-machine 
interfaces. Voting systems must preserve a voter's privacy and 
anonymity, while also being auditable and transparent. This center has 
generated new understanding of voting systems and has participated in 
the California Secretary of State's ``Top to Bottom Review'' of voting 
systems.
    NSF has also invested in two active industry/university cooperative 
research centers:

        <bullet>  CITeR: Center for Identification Technology Research 
        (Biometrics) at West Virginia University and the University of 
        Arizona
    CITeR focuses on identification of people that includes iris, 
fingerprint and face recognition and will significantly enhance the 
research database available for the disciplines involved with security 
biometrics technologies. Research is needed in large-scale, fully-
automated, distributed systems in several applications, ranging from 
drivers license to passports and visas, for example.

        <bullet>  S2ERC: Security and Software Engineering at Ball 
        State and other universities
    S2ERC investigates integrated methods of engineering practical 
software systems that are able to meet emerging security requirements. 
This goal is of great importance to both industry and government in 
order for them to confidently deploy real-world software systems that 
meet their mission goals in the face of a broad range of security 
attacks. Participants in S2ERC include Ball State University, DePaul 
University, Indiana University- Purdue University Fort Wayne, Indiana 
University--Purdue University Indianapolis, Iowa State University, 
James Madison University, Pennsylvania State University, Purdue 
University, University of Illinois at Chicago, University of West 
Florida, Virginia Polytechnic Institute and State University, and West 
Virginia University.

    Cybersecurity Education

    Investments in cybersecurity research are accompanied by 
investments in cyber-security education and workforce development. 
Research undertaken in academia not only engages some of our nation's 
best and brightest researchers, but because these researchers are also 
teachers, new generations of students are exposed to the latest 
thinking from the people who understand it best. And when these 
students graduate and move into the workplace, they will bring this 
knowledge and understanding with them. Moreover, faculty members in 
this dual role of researchers and teachers have incentives to write 
textbooks and prepare other teaching materials that allow dissemination 
of their work to a wide audience, including teachers and students 
nationwide.
    Over the years, the Trustworthy Computing program has supplemented 
its awards by giving small amounts of additional funding to researchers 
who were willing to bring undergraduates into their labs through the 
Research Experiences for Undergraduates (REU) program. This program 
gives many undergraduate students their first hands-on experiences with 
real science and engineering research projects. In addition, the 
Trustworthy Computing program has funded up and coming young 
investigators through the CAREER program that offers NSF's most 
prestigious awards in support of junior faculty who exemplify the role 
of teacher-scholars through outstanding research, excellent education 
and the integration of education and research within the context of the 
mission of their organizations.
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    The NSF Directorate for Education and Human Resources (EHR) has 
focused on increasing the number of professionals with degrees in 
cybersecurity. An overwhelming majority of these EHR developed 
professionals were supported by the Federal Cyber Service: Scholarship 
for Service (SFS) and Advanced Technological Education (ATE) programs.
    The SFS program seeks to increase the number of qualified students 
entering the field of cybersecurity and to increase the capacity of 
United States higher education enterprise to produce cybersecurity 
professionals. The SFS program is an interagency program administered 
by NSF in collaboration with the Office of Personnel Management (OPM), 
the Department of Homeland Security (DHS), and the National Security 
Agency (NSA), among other agencies. SFS was established as a result of 
a January 2000 Presidential Executive Order that defined the National 
Plan for Information Systems Protection. The SFS program supports two 
tracks.
    The first track, the SFS Scholarship Track, provides funding to 
colleges and universities to award scholarships to students in the 
information assurance and computer security fields. A recipient must be 
a U.S. citizen, a full-time student within two years of graduation, 
demonstrate academic talent, meet selection criteria for Federal 
employment, be willing to undergo a background investigation for 
security clearance and must agree to work for at least two years in the 
Federal government. To date, the SFS program has provided scholarships 
to 1400 students with 1100 of them successfully placed in the Federal 
government. The SFS graduates were employed by more than 30 Federal 
agencies, including National Security Agency, Department of Homeland 
Security, Central Intelligence Agency, and Department of Justice.
    From 2007 to 2010, twenty-eight awards were made totaling $46.75 
million dollars. Currently, SFS Scholarships are offered at 34 
institutions, with the largest enrollments at the University of Tulsa, 
Carnegie Mellon University, Mississippi State, and University of North 
Carolina.
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    The second track, the SFS Capacity Building Track, provides funds 
to colleges and universities to improve the quality and increase the 
production of information assurance and computer security 
professionals. Examples of projects include: developing faculty 
expertise in information cybersecurity, creating learning materials and 
strategies, outreach activities, or other innovative and creative 
projects, which lead to an increase in the national cyber security 
workforce. Proposing organizations must demonstrate expertise in 
cybersecurity education or research. From 2007 to 2010, twenty-four 
awards were made totaling $5.73 million dollars and covering every 
region of the country.
    With an emphasis on two-year colleges, the Advanced Technological 
Education (ATE) program focuses on the education of technicians for the 
high-technology fields, including cybersecurity. Activities may have 
either a national or a regional focus, but not a purely local one. The 
ATE program supports projects, centers, and targeted research in 
technician education. Currently, there are 14 active ATE awards in 
cybersecurity for a total of $17.1M, including $3M awarded in FY10. 
Three of these projects have been funded under the Regional ATE Center 
track, providing $3M for four years for each of the centers.

        <bullet>  CyberWatch (Maryland)--The CyberWatch Center is 
        headquartered at Prince George's Community College. The mission 
        of the center is to ``increase the quantity and quality of the 
        cybersecurity workforce.'' It sponsors a K-12 program, college-
        level model programs and courses, lab resources, articulation 
        agreements, and resources for faculty development. CyberWatch 
        has 50 institutional members, including 35 community colleges 
        and 15 universities from 20 states. More than 1800 students 
        were enrolled in cybersecurity courses at partnering community 
        colleges in 2009.

        <bullet>  Center for Systems Security and Information Assurance 
        (CSSIA) (Illinois)--The CSSIA center has developed an 
        associate's degree program in information technology security, 
        and is providing professional development opportunities and 
        curricular materials. CSSIA has 8 institutional members, 
        including 6 community colleges and 2 universities from 5 
        states--Illinois, Indiana, Michigan, Minnesota, and Wisconsin. 
        Their community college partner institutions enrolled more than 
        1400 students in cybersecurity courses in 2009.

        <bullet>  Cyber Security Education Consortium (CSEC) 
        (Oklahoma)--The CSEC center is ``dedicated to building a 
        cybersecurity workforce who will play a critical role in 
        implementing the national strategy to secure cyberspace.'' The 
        center provides regional training workshops as well as 
        internships in SCADA security and digital forensics. CSEC has 
        45 institutional members, including 42 community colleges and 3 
        universities from 8 states--Arkansas, Colorado, Kansas, 
        Louisiana, Missouri, Oklahoma, Tennessee, and Texas. Almost 
        2000 students enrolled in cybersecurity courses at partnering 
        community colleges in 2009.
    (2) Describe NSF's role in meeting the objectives outlined in the 
near-term and mid-term action plans included in the Cyberspace Policy 
Review, and detail past progress and future plans for meeting the 
objectives outlined in the Review.
    NSF supported the development of the Cyberspace Policy Review, 
providing the task force that prepared the review with direct access to 
an extensive group of academic cyber security researchers. The 
Cyberspace Policy Review Near-Term Action Plan lists ten items and the 
Mid-Term Action Plan lists fourteen. The actions most concerned with 
NSF's mission are discussed below.
    Near-term Action Plan #9 calls for (a) developing a framework for 
research and development strategies that focus on game-changing 
technologies that can enhance the trustworthiness of the digital 
infrastructure and (b) providing the research community with access to 
event data to facilitate developing tools, testing theories, and 
identifying workable solutions.
    (a)Specifically, over the past two years, NSF has participated in a 
set of activities designed to develop research themes related to game-
changing technologies, including the announcement of three such themes 
last year: Moving Target, intended to raise the costs for attackers; 
Tailored Trustworthy Spaces, intended to support the creation of 
trustworthy computing environments that can respond to a range of trust 
requirements; and Cyber Economic Incentives, intended to help 
understand how to motivate adoption of trustworthy technologies. NSF 
has collaborated with its partner agencies in publicizing these themes 
to the research community and has incorporated them into related 
research solicitations. In the succeeding year, NSF has participated 
actively in a working group organized under the Networking Information 
Technology R&D (NITRD) program's Cyber security and Information 
Insurance (CSIA) Interagency Working Group (IWG) to develop a strategic 
plan for the Federal cyber security research and development program. 
This plan is expected to be released officially before the end of May.
    (b)NSF has also actively promoted research access to event data. 
Although NSF itself does not possess any datasets appropriate for this 
purpose, it convened a workshop on cyber security data for 
experimentation in August 2010 that brought companies and organizations 
that possess such data together with members of the research community 
who would like to study the data. Several companies have agreed to make 
data available on their premises, and NSF has invited its researchers 
to request supplementary funds to support visits to data repositories 
that are not available for remote access.
    Mid-Term Action Plan #3: Expand support for key education programs 
and research and development to ensure the Nation's continued ability 
to compete in the information age economy.
    As already described above, NSF supports a broad range of cyber 
security research; in FY2011 NSF will invest almost $117 million in 
this area; approximately half of this is in the Trustworthy Computing 
program. The balance of NSF's cyber security investments are made in 
the many core scientific sub-disciplines of the computing and 
information sciences. In addition to single and multiple-investigator 
research grants, NSF has funded a Science and Technology Center, four 
Center-Scale Activities, and Industry/University Cooperative Research 
Centers. Education is embedded in virtually all of these research 
grants through the training of graduate students, many of whom will 
join the industry or university workforce in cyber security research. 
NSF CAREER awards, among NSF's most prestigious grants, carry specific 
requirements for integration of research and education. Cyber security 
research funds also support the Research Experience for Undergraduates 
(REU) program to grow student interest in cyber security research. The 
Scholarships for Service (SFS) program ($52.5 million from 2007-2010) 
provides tuition scholarships for students enrolled in cyber security 
programs at a wide range of institutions across the nation in exchange 
for a commitment to a period of service in a government post following 
graduation. A component of the SFS program is also devoted to building 
additional teaching capacity through curriculum and faculty 
development. The Advanced Technological Education (ATE) program 
supports cyber security education in fourteen projects.
    Mid-Term Action Plan #4: Develop a strategy to expand and train the 
workforce, including attracting and retaining cyber security expertise 
in the Federal government.
    As described earlier, NSF's Scholarships for Service program, 
including capacity building grants to support expansion of the 
educational resources available to train students in cyber security, is 
a fundamental part of the national strategy to train and expand the 
workforce in this key area; scholarships under this program carry a 
commitment for service in the Federal government. Last fall, NSF 
sponsored a Summit on Education in Secure Software to help identify how 
to teach students to write programs that cannot easily be subverted. 
NSF is also participating in the National Initiative for Cyber security 
Education (NICE) as co-lead with the Department of Education for Formal 
Cyber security Education. This activity encompasses development of 
education programs for K-12, higher education, vocational and other 
discipline-related programs in order to help provide a pipeline of 
skilled workers for private sector and government.
    Mid-Term Action Plan #11: Encourage collaboration between academic 
and industrial laboratories to develop migration paths and incentives 
for rapid adoption of research and technology development innovations.
    NSF's Small Business Innovation Research (SBIR) and Small Business 
Technology Transfer (STTR) programs aim to support the transition of 
successful research projects into the marketplace. These programs have 
funded several projects related to cyber security in recent years. Of 
the current active projects, eight have direct linkage to cyber 
security; these have been awarded about $4.5M to date.
    CISE also participates in the Grant Opportunities for Academic 
Liaison with Industry (GOALI) program, which aims to promote academic-
industry partnerships on high risk, transformational research projects. 
CISE plans to supplement its regular Advisory Committee with a new 
panel of industry leaders to further promote the adoption of research 
results by industry.
    CISE also encourages academic industry partnerships. For example, 
as mentioned above, the NSF Team for Research in Ubiquitous Security 
Technology (TRUST) Science and Technology Center works with a number of 
industry partners who 1) help define the Center's strategic intent and 
research and education priorities through the Center's External 
Advisory Board, and 2) interact directly with faculty and students on 
individual research projects. Industry partners include Broadcom, 
Cisco, eBay, Google, HP, IBM, Intel, Juniper, Microsoft, Oracle/Sun, 
Qualcom, Raytheon, Symantec, United Technologies, and Yahoo. CISE has 
similar active engagement with industry across its portfolio, including 
in four Trustworthy Computing Centers and two Industry & University 
Cooperative Research Centers.
    The following areas--as stated in the Cyberspace Policy Review--are 
not directly addressable by NSF; however, the Trustworthy Computing 
Program has invested in foundational research that can facilitate 
progress.
    Mid-Term Action Plan #8: Develop mechanisms for cyber security-
related information sharing that address concerns about privacy and 
proprietary information and make information sharing mutually 
beneficial.
    Example research areas include methods for specifying and enforcing 
privacy policies, applying new cryptographic schemes to support access 
control, developing techniques for anonymizing sensitive data, and 
secure multiparty computation techniques.
    Mid-Term Action Plan #9: Develop solutions for emergency 
communications capabilities during a time of natural disaster, crisis, 
or conflict while ensuring network neutrality.
    Example research areas include communication patterns during 
emergencies; efficient, robust mesh networks that can operate through 
disasters; and network architectures for first-responder 
communications.
    Mid-Term Action Plan #13: Implement, for high-value activities 
(e.g., the Smart Grid), an opt-in array of interoperable identity 
management systems to build trust for online transactions and to 
enhance privacy.
    Example research areas include biometrics, cryptographic means for 
securing identities, and access management based on identity and 
experience.
    (3) Please discuss how cybersecurity research and development, 
education and workforce training, and standards development are 
coordinated with other relevant agencies;
    NSF coordinates its cyber security research and planning activities 
with other Federal agencies, including the Departments of Defense (DoD) 
and Homeland Security (DHS) and the agencies of the Intelligence 
Community, through the following ``mission-bridging'' activities:

        <bullet>  NSF plays a leadership role in the interagency 
        Networking and Information Technology Research and Development 
        (NITRD) Program. The National Science and Technology Council's 
        NITRD Sub-Committee, of which I am co-chair, has played a 
        prominent role in the coordination of the Federal government's 
        cyber security research investments.

        <bullet>  In January 2008, President Bush initiated the 
        Comprehensive National Cybersecurity Initiative (CNCI). The 
        current Administration supports and has continued efforts on 
        this initiative. One of the goals of the CNCI is to develop 
        ``leap-ahead'' technologies that would achieve orders-of-
        magnitude improvements in cybersecurity. Based on this 
        directive, a NITRD Senior Steering Group (SSG) for 
        Cybersecurity R&D was established to provide a responsive and 
        robust conduit for cybersecurity R&D information across the 
        policy, fiscal, and research levels of the Government. The SSG 
        is composed of senior representatives of agencies with national 
        cybersecurity leadership positions, including: DoD, ODNI, DHS, 
        NSA, NSF, NIST, OSTP, and OMB. A principal responsibility of 
        the SSG is to define, coordinate, and recommend strategic 
        Federal R&D objectives in cybersecurity, and to communicate 
        research needs and proposed budget priorities to policy makers 
        and budget officials, including recommendations to OSTP, OMB, 
        and the Joint Inter-Agency Cyber Task Force (JIACTF). One of 
        CISE's Division Directors is the co-chair of this group.

        <bullet>  The NITRD CyberSecurity and Information Assurance 
        Interagency Working Group (CSIA IWG) coordinates cyber security 
        and information assurance research and development across the 
        thirteen member agencies, including DoD, the Department of 
        Energy (DOE) and the National Security Agency (NSA).

        <bullet>  To facilitate cross conversation between classified 
        and unclassified programs in the Federal government, a 
        coordinating group called Special Cyber Operations Research and 
        Engineering (SCORE) was established, which includes members 
        from the SSG. NSF research is reported in this forum. In the 
        past year, SCORE has organized a series of workshops 
        questioning some commonly held assumptions about technical 
        approaches to cybersecurity; NSF investigators have been active 
        participants.

        <bullet>  Under the auspices of the NITRD program and the CSIA 
        SSG and IWG, NSF and the other member agencies have co-funded 
        and co-sponsored a number of workshops:

          Science of Security Workshop, co-funded by NSF, NSA, and 
        IARPA (November 16-18, 2008): To discuss the foundations of 
        making security into a science.

          Usability, Security, Privacy Workshop, hosted by the 
        National Academies' Computer Science and Telecommunications 
        Board (July 21-22, 2009): To advance the study of usability and 
        ways to embed usability considerations into the research, 
        design and development of secure systems.

          Workshop on Clean-Slate Security Architectures, co-funded by 
        NSF and DARPA (July 28, 2009): To frame a new security 
        architecture that could be the basis of clean-slate networks.

          Workshop on Security Research for the Financial 
        Infrastructure, co-supported by Treasury, DHS and NSF (October 
        28-29, 2009): To gain a better understanding of the security 
        problems faced by the financial sector and how the research 
        community might help solve those problems.

          Workshop on Cyber Security Data for Experimentation (August 
        26-27, 2010): To explore options for research access to event 
        data.

          Summit on Education in Secure Software (October 18-19, 
        2010): To develop a comprehensive agenda focused on the 
        challenges of secure software education.

          NSF Workshop on the Future of Trustworthy Computing (October 
        27-29, 2010): To provide context and direction for researchers 
        interested in Trustworthy Computing.

          NSF/Microsoft Research Workshop on Usable Verification 
        (November 15-16, 2010): To stimulate advances in the usability 
        of tools for formal verification.

          Workshop on Fundamental Research Challenges for Trustworthy 
        Biometrics (November 8-9, 2010): To identify underlying 
        biometrics research challenges.

        <bullet>  A number of projects have received their seed or 
        beginning funding at NSF and then have been picked up by other 
        agencies as they see the value of applying basic research to 
        their mission challenges. NSF has also encouraged its 
        researchers to take advantage of research assets created by its 
        partner agencies. For example,

          NSF funded the Trustworthy Cyber Infrastructure for the 
        Power Grid Center at UIUC; it has now transitioned to DoE/DHS 
        for continued funding.

          NSF funded the DETER testbed in its early years; it is now 
        wholly funded by DHS.

          NSF encourages its Principal Investigator (PI) community to 
        use the data available from the DHS-funded PREDICT repository 
        to validate and test their ideas.
    (4) Please provide feedback on H.R. 4061, the Cybersecurity 
Enhancement Act of 2009, from the 111th Congress, by commenting on the 
merits of that bill and any areas that you see room for improvement or 
changes.
    The Cyber Security Research and Development Act of 2002 has been an 
important asset in stimulating innovative research and development. 
NSF's activities are well-aligned with the provisions of the existing 
Act and its proposed enhancement. NSF has been working with the 
National Coordinating Office (NCO) on a national strategy for research 
and development, which is one of the key points in the new draft 
legislation. The addition of usability and social and behavioral 
factors as areas of research interest is consistent with the path that 
NSF is currently pursuing, as is the focus on fostering curriculum 
development on principles and techniques of designing secure software. 
Calling out investments in center-scale activities is also consistent 
with the importance that NSF places on funding centers to create 
visibility and activity around important national challenges. As 
mentioned above, NSF actively encourages interaction across government, 
academic, and commercial sectors. CISE plans to supplement its regular 
Advisory Committee with a new panel of industry leaders to further 
promote the adoption of research results by industry. In summary, NSF's 
investments in cybersecurity research, education and workforce 
development are consistent with the provisions of H.R. 4061.
    (5) How would the Administration's proposed cybersecurity 
legislation impact NSF's cyber security activities?
    The National Science Foundation is the Nation's premier agency for 
advancing fundamental research and education in science and 
engineering. NSF's mission is to ``to promote the progress of science; 
to advance the national health, prosperity, and welfare; to secure the 
national defense.''
    The Administration's proposal is offering a carefully tailored and 
measured approach that relies on private sector innovation. This 
proposal will enable cyber infrastructure owners and operators to adopt 
new strategies and techniques to deal with cyber threats. NSF's R&D 
investments enable scientific discovery and engineering advances that 
continuously fuel that innovation.

    Conclusions

    In my testimony today, I've tried to show that the pace and scope 
of today's cyber threats pose grand challenges to our national critical 
infrastructure. I have outlined the investments in NSF's cyber security 
research and education portfolio, which show progress and significant 
advances over the years. Nonetheless, the Nation needs to invest in 
long-term, fundamental and game-changing research if our cybersystems 
are to remain secure in the future. I have indicated NSF's role in 
addressing the Near- and Mid-Term Action Plans included in the 
Cyberspace Policy Review and have detailed our progress in meeting 
those objectives. I have also discussed how NSF partners with other 
agencies and have given examples of many cross-agency activities. 
Finally, I have provided feedback on H.R. 4061, The Cybersecurity 
Enhancement Act of 2009, as well as on the Administration's proposed 
cybersecurity legislation. I appreciate the opportunity to have this 
dialogue with members of your Subcommittees on these very important 
topics. With robust sustained support for cyber security research and 
development in both the executive and legislative branches, there is a 
unique opportunity to protect our national security and enhance our 
economic prosperity for decades to come. This concludes my remarks. I 
would be happy to answer any questions at this time.

Biography for Dr. Farnam Jahanian, Assistant Director, Directorate for 
  Computer and Information Science and Engineering, National Science 
                               Foundation
    Farnam Jahanian is the Assistant Director of the Computer and 
Information Science and Engineering (CISE) Directorate at the National 
Science Foundation. Prior to joining NSF, he held the Edward S. 
Davidson Collegiate Professorship in Electrical Engineering and 
Computer Science at the University of Michigan, where he served as 
Chair for Computer Science and Engineering from 2007--2011 and as 
Director of Software Systems Laboratory from 1997--2000. Dr. Jahanian 
also serves as co-chair of the Networking and Information Technology 
Research and Development (NITRD) Subcommittee of the NSTC Committee on 
Technology, providing overall coordination for activities of 14 
government agencies.
    At CISE, Dr. Jahanian guides the directorate in its mission to 
uphold the nation's leadership in computer and information science and 
engineering through its support for fundamental and transformative 
advances that are a key driver of economic competitiveness and crucial 
to achieving our major national priorities. With a budget of 
approximately $618 million, CISE supports ambitious long-term research 
and innovation, the creation of cutting-edge facilities and tools, 
broad interdisciplinary collaborations, and education and training of 
the next generation of computer scientists and information technology 
professionals with skills essential to success in the increasingly 
competitive, global market.
    Over the last two decades at the University of Michigan, Dr. 
Jahanian led several large-scale research projects that studied the 
growth and scalability of the Internet infrastructure and which 
ultimately transformed how cyber threats are addressed by Internet 
Service Providers. His work on Internet routing stability and 
convergence has been highly influential within both the network 
research and the Internet operational communities. This work was 
recently recognized with an ACM SIGCOMM Test of Time Award in 2008. His 
research on Internet infrastructure security formed the basis for the 
successful Internet security services company Arbor Networks, which he 
co-founded in 2001. He served as Chairman of Arbor Networks until its 
acquisition by Tektronix Communications, a division of Danaher 
Corporation, in 2010.
    The author of over 100 published research papers, Dr. Jahanian has 
served on dozens of national advisory boards and government panels. He 
has received numerous awards for his research, teaching, and technology 
commercialization activities. He has been an active advocate for 
economic development efforts over the last decade, working with 
entrepreneurs, and frequently lecturing on how basic research can be 
uniquely central to an innovation ecosystem that drives economic growth 
and global competitiveness. In 2009, he was named Distinguished 
University Innovator at the University of Michigan.
    Dr. Jahanian holds a master's degree and a Ph.D. in Computer 
Science from the University of Texas at Austin. He is a Fellow of the 
American Association for the Advancement of Science (AAAS), the 
Association for Computing Machinery (ACM), and the Institute of 
Electrical and Electronic Engineers (IEEE).

    Chairman Quayle. Thank you very much.
    The Chair now recognizes our next witness, Ms. Furlani, for 
five minutes.

STATEMENT OF MS. CITA FURLANI, DIRECTOR, INFORMATION TECHNOLOGY 
   LABORATORY, NATIONAL INSTITUTE OF STANDARDS AND TECHNOLOGY

    Ms. Furlani. Thank you very much, Chairmen Quayle and 
Brooks, Ranking Members Wu and Lipinski, and Members of the 
Subcommittee. I am Cita Furlani, the Director of the 
Information Technology Laboratory at the Department of 
Commerce's National Institute of Standards and Technology. 
Thank you for the opportunity to appear before you today to 
discuss NIST's role in protecting information in the digital 
age.
    Since the early 1970s, NIST has developed standards to 
support federal agencies' information assurance requirements. 
Through FISMA, Congress reaffirmed NIST's leadership role in 
developing standards for cybersecurity. FISMA provides for the 
development and promulgation of Federal Information Processing 
Standards, or FIPS, that are compulsory and binding for federal 
computer systems. The responsibility for the development of 
FIPS rests with NIST.
    NIST works with federal agencies, industry and academic to 
research, develop and deploy information security standards and 
the technology that is necessary to protect information systems 
against threats to the confidentiality, integrity and 
availability of information and services. Consistent with its 
mission and with the recommendations of the President's 
Cyberspace Policy Review, NIST is actively engaged with private 
sector, academia, non-national security federal departments and 
agencies, the intelligence community and other elements of the 
law enforcement and national security communities to coordinate 
and prioritize cybersecurity research, standards development, 
standards conformance demonstration, and cybersecurity 
education and outreach.
    Our research activities range from innovations in identity 
management and verification, to metrics for complex systems, to 
development of practical and secure cryptography and quantum 
computing environments, to automation of discovery and 
maintenance of system security configurations and status, to 
techniques for specification and automation of access 
authorization in line with many different kinds of access 
policies. NIST is actively contributing to the objectives of 
several of the near- and midterm action plan activities from 
the Cyberspace Policy review.
    The National Initiative for Cybersecurity Education 
represents the evolution of the comprehensive National 
Cybersecurity Initiative, the work on cybersecurity education, 
moving it from a federal focus to a broader national focus. 
NIST has assumed the overall coordination role for this effort 
and is finalizing a strategic framework and a tactical plan of 
operation.
    NIST and the National Security Agency lead an interagency 
activity to establish strategic objectives in pursuing the 
development of timely, technically sound, international 
voluntary consensus cybersecurity standards including a 
commitment to the development of an international standards 
framework. NIST is an active member in each of the groups 
coordinating cybersecurity R&D among federal agencies including 
the NITRD CSIA, the SCORE and the Senior Steering Group, all 
designed to actively share cybersecurity R&D information across 
the policy, fiscal and research levels of the government.
    NIST participated in the creation of the National Strategy 
for Trusted Identifies in Cyberspace, which calls for a 
national program office to coordinate needed federal 
activities. This office will be led by NIST and will have full 
access to NIST technical expertise as NIST has been actively 
involved in the development and interoperability of secure 
identity management for many years.
    NIST believes that effective cybersecurity legislation 
requires an appropriate balance between short- and long-term 
goals as well as providing motivation for strong collaborations 
between federal agencies, industry, academia, state and local 
governments, and other interested stakeholders. Indeed, the 
legislation proposed by the Administration is focused on 
improving cybersecurity for the American people and our 
Nation's critical infrastructure. NIST looks forward to 
leveraging its legacy of research, development and standards in 
this area with other federal and private sector partners.
    Thank you for the opportunity today, and I will answer any 
questions you may have.
    [The prepared statement of Ms. Furlani follows:]
Prepared Statement of Cita M. Furlani, Director, Information Technology 
  Laboratory, National Institute of Standards and Technology, United 
                     States Department of Commerce
    Chairmen Quayle and Brooks, Ranking Members Wu and Lipinski and 
Members of the Subcommittees, I am Cita M. Furlani, Director of the 
Information Technology Laboratory at the Department of Commerce's 
National Institute of Standards and Technology (NIST). Thank you for 
the opportunity to appear before you today to discuss our role in 
protecting information in the digital age.
    As Secretary of Commerce Gary Locke said at the White House during 
the launch of the U.S. International Strategy for Cyberspace: ``To 
preserve and even improve on people's confidence in cyberspace, we need 
an environment that not only rewards innovation and empowers 
entrepreneurs, but one that also is constantly improving upon the 
integrity of the interactions that take place online.'' NIST's mission 
to promote U.S. innovation and industrial competitiveness by advancing 
measurement science, standards, and technology in ways that enhance 
economic security and improve our quality of life is well positioned to 
support that goal.
    As one of the major research components of NIST, the Information 
Technology Laboratory (ITL) accelerates, through standards, tests and 
metrics, the development, deployment and use of secure, usable, 
interoperable and reliable information systems that enable American 
businesses to be more innovative competitive. ITL enables world-class 
measurement and testing through research innovations in the areas of 
computer science and systems engineering, mathematics, and statistics. 
We balance our research portfolio to be responsive to pressing national 
priorities while pursuing research necessary to meet future challenges 
in measurement science and technology. Our R&D agenda focuses on the 
following broad program areas: cloud computing, complex systems, 
cybersecurity, biometrics, health information technology, National 
Initiative for Cybersecurity Education (NICE), National Strategy for 
Trusted Identities in Cyberspace (NSTIC), quantum information, 
pervasive information technology, security automation, smart grid, 
virtual measurement systems, and voting standards.
    ITL addresses technical challenges through an integrated, 
multidisciplinary and systems approach that emphasizes collaboration 
with other NIST organizations, the Department of Commerce, other 
government agencies, the U.S. private sector, standards development 
organizations, and other national and international stakeholders. Our 
rich programmatic diversity derives from our mission and mandates like 
the Federal Information Security Management Act (FISMA), which charges 
ITL to develop cybersecurity standards, guidelines, and associated 
methods and techniques. Charged under other legislation, such as the 
USA PATRIOT Act, the HITECH Act and the Help America Vote Act, we are 
addressing major challenges faced by the nation in the areas of 
homeland security, health IT and electronic voting.

    Overview of NIST Cybersecurity Activities

    As you are aware, beginning in the early 1970s with enactment of 
the Brooks Act, NIST has developed standards to support federal 
agencies' information assurance requirements. Through FISMA, Congress 
again reaffirmed NIST's leadership role in developing standards for 
cybersecurity. FISMA provides for the development and promulgation of 
Federal Information Processing Standards (FIPS) that are ``compulsory 
and binding'' for Federal computer systems. The responsibility for the 
development of FIPS rests with NIST, and the authority to promulgate 
mandatory FIPS is given to the Secretary of Commerce. Section 303 of 
FISMA states that NIST shall:

        <bullet>  have the mission of developing standards, guidelines, 
        and associated methods and techniques for information systems;

        <bullet>  develop standards and guidelines, including minimum 
        requirements, for information systems used or operated by an 
        agency or by a contractor of an agency or other organization on 
        behalf of an agency, other than national security systems; and

        <bullet>  develop standards and guidelines, including minimum 
        requirements, for providing adequate information security for 
        all agency operations and assets, but such standards and 
        guidelines shall not apply to national security systems.

    NIST's mission in cybersecurity is to work with federal agencies, 
industry, and academia to research, develop and deploy information 
security standards and technology to protect information systems 
against threats to the confidentiality, integrity and availability of 
information and services. Consistent with this mission and with the 
recommendations of the President's Cyberspace Policy Review, NIST is 
actively engaged with private industry, academia, non-national security 
federal departments and agencies, the intelligence community, and other 
elements of the law enforcement and national security communities in 
coordination and prioritization of cybersecurity research, standards 
development, standards conformance demonstration and cybersecurity 
education and outreach activities. Research activities range from 
innovations in identity management and verification, to metrics for 
complex systems, to development of practical and secure cryptography in 
a quantum computing environment, to automation of discovery and 
maintenance of system security configurations and status, to techniques 
for specification and automation of access authorization in line with 
many different kinds of access policies.
    NIST addresses cybersecurity challenges throughout the information 
and communications infrastructure through its cross-community 
engagements. Enabled by Congressional funding increases in 2002 and in 
response to FISMA, NIST is responsible for establishing and updating, 
on a recurring basis, the federal government risk management framework 
and cybersecurity controls. The national security community, a number 
of state governments and major private sector organizations are also 
adopting the risk management framework and cybersecurity controls 
designed by NIST. NIST is engaging industry to harmonize standards 
conformance requirements to align with industry business models and 
system development practices. NIST is also playing a leading security 
role in supply chain risk management, Health Information Technology, 
the Smart Grid, biometrics/face authentication, cybersecurity education 
and training beyond the federal government, next generation voting 
systems, and cloud computing. NIST is working with the intelligence and 
counterterrorism communities to facilitate cross sector information 
sharing among federal, state and local government organizations.
    Recognizing the importance of security-related standards beyond the 
federal government, NIST leads national and international consensus 
standards activities in cryptography, identity management, biometrics, 
electronic credentialing, secure network protocols, software and 
systems reliability, and security conformance testing.
    Included in the scope of NIST cybersecurity activities are the 
usability of systems such as voting machines, electronic health records 
and software interfaces; network security, including standards and 
tests for Internet Protocol version 6, Domain Network Security 
(DNSSec), and wireless network protocols; research in mathematical 
foundations to determine the security of information systems; the 
National Software Reference Library, computer forensics tool testing, 
and mobile device forensics; software assurance metrics, tools, and 
evaluation; approaches to balancing safety, security, reliability, and 
performance in SCADA and other Industrial Control Systems used in 
manufacturing and other critical infrastructure industries; 
technologies for detection of anomalous behavior, quarantines; 
standards, modeling, and measurements to achieve end-to-end security 
over heterogeneous, multi-domain networks; biometrics evaluation, 
usability, and standards (fingerprint, face, iris, voice/speaker, 
multimodal biometrics) and an international competition for a next 
generation Secure Hash Algorithm (SHA-3).

    NIST Role in Cyberspace Policy Review Activities

    NIST is actively participating in meeting the objectives of several 
of the near- and mid-term action plan activities from the Cyberspace 
Policy review.
    National Initiative for Cybersecurity Education
    Cyberspace Policy Review Near-Term Action Item 6: Initiate a 
national public awareness and education campaign to promote 
cybersecurity
    Cyberspace Policy Review Mid-Term Action Item 3: Expand support for 
key education programs and research and development to ensure the 
Nation's continued ability to compete in the information age economy
    Cyberspace Policy Review Mid-Term Action Item 4: Develop a strategy 
to expand and train the workforce, including attracting and retaining 
cybersecurity expertise in the Federal government.
    The National Initiative for Cybersecurity Education (NICE) 
represents the evolution of the Comprehensive National Cybersecurity 
Initiative (CNCI) work on cybersecurity education. The scope of the 
initiative has been expanded from a federal focus to a broader national 
focus. NIST has assumed the overall coordination role for the effort, 
and is finalizing a strategic framework and a tactical plan of 
operation to support that framework. This expansion and the overall 
coordination role by NIST are in response to the President's priorities 
as expressed in Chapter II, Building Capacity for a Digital Nation, of 
the President's Cyberspace Policy Review.
    NIST is currently readying the NICE strategic plan for public 
review, which should be available this summer. The strategic plan 
describes the goals and objectives that support the NICE Vision: a 
secure digital nation capable of advancing America's economic 
prosperity and national security in the 21st century through innovative 
cybersecurity education, training, and awareness on a grand scale.
    NIST's NICE Team is working to unify and coordinate federal 
resources to enable the larger national effort to improve cybersecurity 
awareness, education, and training for the entire country. This effort 
is targeted to all U.S. citizens of all ages, and all types of 
professions whether it be academia, federal/state/local government, 
business partners (small-medium to large size businesses/companies), 
and local community groups. NICE is comprised of four components.

        <bullet>  Component 1: National Cybersecurity Awareness 
        Campaign, encouraging a national culture of security in 
        cyberspace; lead agency Department of Homeland Security (DHS), 
        supported by Department of Education (ED), National Science 
        Foundation (NSF),

        <bullet>  Department of Defense (DoD), Office of the Director 
        of National Intelligence (ODNI) and others as identified.

        <bullet>  Component 2: Formal Cybersecurity Education, enabling 
        a broader pool of skilled workers for a cyber-secure nation; 
        lead agencies DoED and NSF, supported by Office of Personnel 
        Management (OPM), DHS, National Security Agency (NSA) and 
        others as identified (e.g., Department of Labor)

        <bullet>  Component 3: Cybersecurity Workforce Structure, 
        defining cybersecurity jobs, attraction, recruitment, 
        retention, and career path strategies; lead agency DHS and 
        supported by OPM.

        <bullet>  Component 4: Cybersecurity Workforce Training and 
        Development, enabling the development and maintenance of an 
        unrivaled cyber workforce; lead agencies DHS, DoD and ODNI, 
        supported by OPM, DoED, NSF, and others as identified.

    In addition, NIST co-chairs the Networking and Information 
Technology Research and Development (NITRD) Social, Economic, and 
Workforce Implications of IT and IT Workforce Development (SEW) 
Coordinating Group Education Team. The NITRD SEW Education Team was 
recently established to focus on workforce development, training, and 
education needs arising from the growing demand for productive 
information technology-skilled workers and the role of innovative IT 
applications in education and training. The group is currently 
developing a draft set of priority federal research areas in education 
and IT.
    International Cybersecurity Policy Framework
    Cyberspace Policy Review Near-Term Action Item 7: Develop U.S. 
Government positions for an international cybersecurity policy 
framework and strengthen our international partnerships to create 
initiatives that address the full range of activities, policies, and 
opportunities associated with cybersecurity.
    Cyberspace Policy Review Mid-Term Action Item 12: Use the 
infrastructure objectives and the research and development framework to 
define goals for national and international standards bodies
    To support the U.S. Government's international cybersecurity policy 
framework and strengthen our international partnerships, NIST and the 
National Security Agency lead an interagency activity to establish 
strategic objectives in pursuing the development of timely, technically 
sound international voluntary consensus cybersecurity standards. This 
includes commitment to the development of an international standards 
framework that:

        <bullet>  Ensures the availability of standards that promote 
        security and resiliency for all U.S. information systems;

        <bullet>  Specifies performance criteria rather than detailed 
        design criteria;

        <bullet>  Is open to innovation; and

        <bullet>  Discourages barriers to international trade.

    Game Changing Technologies
    Cyberspace Policy Review Near-Term Action Item 9: In collaboration 
with other EOP entities, develop a framework for research and 
development strategies that focus on game-changing technologies that 
have the potential to enhance the security, reliability, resilience, 
and trustworthiness of digital infrastructure; provide the research 
community access to event data to facilitate developing tools, testing 
theories, and identifying workable solutions.
    NIST is an active member in the groups that coordinate the 
cybersecurity research and development agenda for federal agencies. The 
NITRD Cyber Security and Information Assurance Interagency Working 
Group (CSIA IWG), co-chaired by NIST, coordinates research and 
development to prevent, resist, detect, respond to, and/or recover from 
actions that compromise or threaten to compromise the availability, 
integrity, or confidentiality of computer- and network-based systems. 
The Special Cyber Operations Research and Engineering (SCORE) 
Interagency Working Group works in parallel to the CSIA IWG to 
coordinate classified cybersecurity R&D. Representatives from both of 
these groups participate together in the Senior Steering Group (SSG) 
for CSIA R&D, to actively share cybersecurity R&D information across 
the policy, fiscal, and research levels of the Government.
    In May 2010, the CSIA IWG released its ``Cybersecurity Game-Change 
Research & Development Recommendations,'' \1\ identifying three primary 
R&D themes to motivate future Federal cybersecurity research 
activities: (a) Moving Target, (b) Tailored Trustworthy Spaces, and (c) 
Cyber Economic Incentives. These themes are designed to inspire Federal 
and private cybersecurity researchers to discover novel solutions to 
increase the nation's cybersecurity protections. The NITRD CSIA IWG is 
currently developing a ``Trustworthy Cyberspace: Strategic Plan for the 
Federal Cybersecurity Research and Development Program.''
---------------------------------------------------------------------------
    \1\  The full document is available at http:1//nitrd.gov/PUBS/
CSIA_IWG_%20Cybersecurity_%20GameChange_RD_%20Recommendations_20100513.p
df 6
---------------------------------------------------------------------------
    Many of NIST's research activities include standards and 
technologies that will address the three R&D themes recommended by the 
CSIA IWG, including, but not limited to,

    Multi-Factor Authentication methods

        <bullet>  NIST has successfully initiated an international 
        standards project on anti-spoofing/liveness detection within 
        ISO/IEC JTC 1 SC 37 (Biometrics). This is the first standards 
        projects in this field, with the goal of strengthening the 
        security of biometrics as an authentication factor for 
        unattended applications. NIST is leading an international 
        ``team'' of co-editors and has completed the first official 
        working draft.

        <bullet>  On March 31, NIST released results from the latest in 
        its series of tests of fingerprint minutiae match-on-card (MOC) 
        implementations. The report, NIST Interagency Report 7477, 
        Revision II, details results for 17 MOC implementations 
        submitted by 12 fingerprint-provider card-provider teams. The 
        study shows that there are now five implementation providers 
        that can meet the error rate requirements for Homeland Security 
        Presidential Directive/HSPD-12 Personal Identify Verification 
        (for biometric matching off card) while being able to process 
        the comparison on a smartcard. This is a great example of 
        successful standards and testing work to provide multi-factor 
        authentication that is a privacy-enhancing solution.

        <bullet>  NIST is collaborating with OASIS, ANSI/INCITS M1 and 
        ISO JTC 1 SC 37 in developing web services protocols to enable 
        the use of biometrics as a second factor for remote 
        authentication of users for applications requiring higher 
        levels of assurance. Biometrics and Web services may be 
        combined to enhance mobile identification and remote 
        authentication capabilities.

    Foundations of Measurement Science for Information Systems

        <bullet>  Developing measurement and modeling techniques needed 
        to enable the characterization, prediction, and control of the 
        security of dynamic, large-scale interconnected information 
        systems

    Emerging Virtual Technologies

        <bullet>  Implementing a cloud computing and virtualization 
        test environment to evaluate the security of virtualization 
        techniques and the cloud computing systems and to develop ideas 
        to mitigate security vulnerabilities in virtualized and cloud 
        systems.

        <bullet>  Leverage the test environment to support some of the 
        Standards Acceleration to Jumpstart Adoption of Cloud Computing 
        (SAJACC) use cases by implementing a proof of concept for 
        supporting the NIST 800-53 security control requirements for 
        low and moderate impact baseline to a cloud computing service 
        model such as infrastructure as a service reference 
        implementation, which includes typical virtual workloads 
        running on commercial hypervisors.

        <bullet>  Define some typical use cases involving migrating 
        virtual workloads from a private cloud to a public or community 
        cloud while demonstrating compliance with the security and 
        audit requirements.

    Usability of Security

        <bullet>  Developed an in-depth interview instrument to explore 
        users' perception of online risk, trust, privacy, and their 
        knowledge of computer security terms and mechanisms. The goal 
        of this effort is to understand user's mental models in order 
        to assist in computer security education and training.

        <bullet>  Completed the analysis of the password survey that 
        was performed at NIST. Now analyzing the survey results from 
        all of the Bureaus with the Department of Commerce; the survey 
        closed at the end of April 2011.

        <bullet>  Preparing to implement a second usability pilot based 
        on the lessons learned with the Homeland Security Presidential 
        Directive/HSPD-12 Personal Identify Verification (PIV) pilot at 
        NIST.

        <bullet>  Planning studies to evaluate the tradeoff of error 
        rates in the human limitation between memory and typing and the 
        complexity of the password.

    Quantum Computing

        <bullet>  Researching cryptographic algorithms for public key-
        based key agreement and digital signatures that are not 
        susceptible to cryptanalysis by quantum algorithms. Results are 
        expected to be submitted to relevant standards development 
        organizations.

    Mobile Handheld Device Security and Forensics

        <bullet>  Developing tests and methodologies that will improve 
        the security of mobile devices and enable the advancement of 
        the state of the art in mobile device forensics.

    Security for Pervasive Systems and Grid Computing

        <bullet>  Investigating trust management frameworks, protocols, 
        and application programming interfaces for generalized 
        pervasive systems security functions.

    National Strategy for Trusted Identities in Cyberspace

    Cyberspace Policy Review Near-Term Action Item 10: Build a 
cybersecurity-based identity management vision and strategy that 
addresses privacy and civil liberties interests, leveraging privacy-
enhancing technologies for the Nation.

    Cyberspace Policy Review Mid-Term Action Item 13: Implement, for 
high-value activities (e.g., the Smart Grid), an opt-in array of 
interoperable identity management systems to build trust for online 
transactions and to enhance privacy.

    Under the leadership of the National Cybersecurity Coordinator, a 
multi-agency team, of which NIST was a substantial partner, created 
``The National Strategy for Trusted Identities in Cyberspace,'' which 
laid out the vision for individuals and organizations to be able to 
utilize secure, efficient, easy-to-use, and interoperable identity 
solutions to access online services in a manner that promotes 
confidence, privacy, choice, and innovation. The Strategy calls for a 
National Program Office to facilitate the carrying out of the Strategy 
and the development of interoperable technology standards and 
policies--an ``Identity Ecosystem''--where individuals, organizations, 
and underlying infrastructure--such as routers and servers--can be 
authoritatively authenticated. The goals of the Strategy are to promote 
private sector capabilities for protecting individuals, businesses, and 
public agencies from the high costs of cyber crimes like identity theft 
and fraud, while simultaneously helping to ensure that the Internet 
continues to support innovation and a thriving marketplace of products 
and ideas in a privacy enhancing manner.
    The National Program Office (NPO), to be established within the 
Department of Commerce, will coordinate the federal activities--
including coordination of cooperative public/private efforts--needed to 
implement NSTIC. The office will be led by NIST with activities 
involving public policy development and privacy protections to be led 
by the National Telecommunications and Information Administration. The 
NPO will have full access to NIST technical expertise, both in the 
development and acceptance of broad consensus-based standards. NIST has 
been actively involved in the development and interoperability of 
secure identity management for many years and recently initiated 
research into how to make such identity schemes easy to use and hard to 
misuse.
    NIST has hired an internationally recognized expert in identity 
management to manage the establishment of the NSTIC NPO. NIST has also 
announced the first in a series of workshops to collect public comments 
on possible private-sector led governance structures for the Identity 
Ecosystem. This first workshop will be held June 9-10, 2011 in 
Washington, D.C. Finally, NIST is working with others in the Department 
of Commerce to develop and release a Notice of Inquiry to achieve even 
greater public comment on the issue of governance.

    Risk Management Framework

    Cyberspace Policy Review Mid-Term Action Item 6: Develop a set of 
threat scenarios and metrics that can be used for risk management 
decisions, recovery planning, and prioritization of R&D.
    NIST has produced Special Publication 800-34 ``Contingency Planning 
Guide for Federal Information Systems'' to assist with planning for 
system recovery and is currently working on
    Special Publication 800-30 revision 1, ``Risk Management Guide,'' 
which will provide guidance to agencies in threat identification, 
threat modeling, and threat metrics for use in risk management 
decisions. The current set of NIST Security Automation specifications 
includes the Common Vulnerability Scoring System which is a metric-
based score for known vulnerabilities in the National Vulnerability 
Database. This information is used by federal agencies, industry, and 
internationally as an input to threat metrics for risk based decision 
making. NIST plans to extend these specifications into additional 
information areas to further facilitate threat discovery, 
identification, and measurement.

    NIST Cybersecurity Coordination with Other Government Agencies

    As mentioned above, NIST is actively engaged with private industry, 
academia, and other Federal agencies, including those in the NITRD 
community, in coordination of cybersecurity research and development.
    In addition, under the provisions of the National Technology 
Transfer and Advancement Act (PL 104-113) and OMB Circular A-119, NIST 
is tasked with the key role of encouraging and coordinating federal 
agency use of voluntary consensus standards and participation in the 
development of relevant standards, as well as promoting coordination 
between the public and private sectors in the development of standards 
and in conformity assessment activities. NIST works with other agencies 
to coordinate standards issues and priorities with the private sector 
through consensus standards organizations such as the American National 
Standards Institute (ANSI), the International Organization for 
Standardization (ISO), the Institute of Electrical and Electronic 
Engineers (IEEE), the Internet Engineering Task Force (IETF), the 
Organization for the Advancement of Structured Information Standards 
(OASIS), and the International Telecommunication Union (ITU). Key 
contributions NIST has made include:

        <bullet>  Development of the current Federal cryptographic and 
        cybersecurity assurance standards that have been adopted by 
        many state governments, national governments, and much of 
        industry;

        <bullet>  Development of the identity credentialing and 
        management standard for Federal employees and contractors (also 
        becoming the de facto national standard);

        <bullet>  Development of the standard and conformance test 
        capability for interoperable multi-vendor fingerprint minutia 
        capture and verification;

        <bullet>  Development and demonstration of quantum key 
        distribution;

        <bullet>  Establishment of a national cyber vulnerability 
        database;

        <bullet>  Establishment of U.S. Government IPv6 Test Program;

        <bullet>  Assisting the General Services Administration in 
        deploying DNSSec on the .gov Top Level Domain; and 
        Establishment and oversight of an international cryptographic 
        algorithm and module validation program. (Over 1,440 
        cryptographic module validation certificates have been issued, 
        representing over 3,100 modules. These modules have been 
        developed by more than 335 domestic and international vendors.)

    Cybersecurity Legislation

    The President made cybersecurity an Administration priority upon 
taking office. During the release of his Cyberspace Policy Review in 
2009, the President declared that the ``cyber threat is one of the most 
serious economic and national security challenges we face as a 
nation.''
    Over the past two years, the Administration has taken significant 
steps to ensure that Americans, our businesses, and our government are 
building better protections against cyber threats. Departments and 
agencies have implemented programs to enhance their risk management 
with regard to federal systems.
    NIST believes that effective cybersecurity legislation requires an 
appropriate balance between short and long term goals, as well as 
providing motivation for strong collaborations between federal 
agencies, industry, academia, state and local governments and other 
interested stakeholders. The proposed legislation is focused on 
improving cybersecurity for the American people, our Nation's critical 
infrastructure, and the Federal Government's own networks and 
computers. NIST looks forward to playing its part, leveraging its 
legacy of research, development, and standards in this area with other 
federal and private sector partners.

    Conclusion

    NIST is actively involved with other federal agencies, industry and 
academia to address the highest priority cybersecurity research and 
development needs. NIST's expertise and mission provide the best 
environment for performing the research necessary to enable the 
innovative cybersecurity specifications, standards, assurance 
processes, and training needed for securing U.S. Government and 
critical infrastructure information systems as well as many other 
elements of the Nation's digital infrastructure to mitigate the growing 
threat. Finally, consistent with the NIST 3-Year Planning Report, NIST 
plans to expand its focus on cybersecurity challenges associated with 
healthcare IT, the Smart Grid, automation of federal systems security 
conformance, and cybersecurity game-changing research.
    Thank you for the opportunity to testify today on NIST's Federal 
cybersecurity research and development efforts. I would be happy to 
answer any questions that you may have.

   Biography for Ms. Cita Furlani, Director, Information Technology 
       Laboratory, National Institute of Standards and Technology
    Cita M. Furlani is Director of the Information Technology 
Laboratory (ITL). ITL is one of six research Laboratories within the 
National Institute of Standards and Technology (NIST) with an annual 
budget of $120 million, 367 employees, and about 160 guest researchers 
from industry, universities, and foreign laboratories.
    Furlani oversees a research program designed to promote U.S. 
innovation and industrial competitiveness by developing and 
disseminating standards, measurements, and testing for 
interoperability, security, usability, and reliability of information 
systems, including cybersecurity standards and guidelines for Federal 
agencies and U.S. industry, supporting these and measurement science at 
NIST through fundamental and applied research in computer science, 
mathematics, and statistics. Through its efforts, ITL seeks to enhance 
productivity and public safety, facilitate trade, and improve the 
quality of life.
    Within NIST's traditional role as the overseer of the National 
Measurement System, ITL is addressing the hard problems in IT 
Measurement Research. ITL's research results in metrics, tests, and 
tools for a wide range of subjects such as complex systems, pervasive 
information technologies, and virtual measurements, as well as issues 
of information and software quality, integrity, and usability.
    ITL has been charged with leading the nation in utilizing existing 
and emerging IT to meet national priorities that reflect the broad-
based social, economic, and political values and goals of the country. 
Under the Federal Information Security Management Act, ITL is charged 
with developing cybersecurity standards, guidelines, and associated 
methods and techniques. Under other legislation, such as the USA 
PATRIOT Act, the Help America Vote Act, and the American
    Recovery and Reinvestment Act, ITL is addressing the major 
challenges faced by the nation in the areas of homeland security, 
electronic voting, and health information technology.
    Furlani has served as the Acting Director of the NIST Advanced 
Technology Program and as Chief Information Officer for NIST. She 
previously served as director of the National Coordination Office for 
Networking and Information Technology Research and Development.
    This office, reporting to the White House through the Office of 
Science and Technology Policy and the National Science and Technology 
Council, coordinates the planning, budget, and assessment activities 
for the Networking and Information Technology Research and Development 
Program.
    She has been awarded the Department of Commerce Silver and Bronze 
Medal Awards.

    Chairman Quayle. Thank you, Ms. Furlani.
    The Chair now recognizes our final witness, Rear Admiral 
Brown, for five minutes.

     STATEMENT OF REAR ADMIRAL MICHAEL A. BROWN, DIRECTOR, 
  CYBERSECURITY COORDINATION, DEPARTMENT OF HOMELAND SECURITY

    Admiral Brown. Good morning, Chairmen Quayle and Brooks, 
Ranking Members Wu and Lipinski, and distinguished Members of 
the Committee. It is a pleasure for me to be here today to 
discuss the important issue of cybersecurity.
    My testimony will provide an overview of the current 
cybersecurity environment, the cybersecurity mission carried 
out by the National Protection and Programs Directorate, and 
the coordination of this mission with our public and private 
sector partners.
    As you well know, these operational missions benefit from 
and drive many of the requirements for the research and 
development work of the DHS Science and Technology Directorate. 
We also coordinate closely with our interagency partners such 
as the National Institute of Standards and Technology in the 
development and application of cybersecurity standards that are 
relevant across our mission set. Of note, the legislative 
proposal recently introduced by the Administration would, if 
enacted, provide a single statutory authorization which would 
enable DHS to better fulfill our critical infrastructure and 
civilian government cybersecurity responsibilities.
    As you stated, we are very dependent in digital networks as 
part of our day-to-day lives. Without a secure cyberspace, many 
aspects of modern life, our economies, our health care systems 
and our transportation and communications networks would grind 
to a halt. DHS's roles and missions reflect a bipartisan 
agreement as established under the previous Administration and 
expanded upon under the current Administration. We have several 
specific roles in cybersecurity.
    The first is protecting the federal Executive Branch 
civilian agencies, in other words, the dot-gov world. The 
second is leading the protection of critical infrastructure 
such as power plants, financial markets, communication systems 
and major transportation hubs. Thirdly, DHS must lead the 
national response to major cyber incidents. Finally, we lead 
the educational efforts to raise public awareness about the 
need for cyber hygiene and responsible use of computers. These 
missions require a full range of partners including other 
government agencies, the private sector and individual users of 
the Internet.
    At the Department, we believe cyberspace is fundamentally a 
vibrant civilian space similar to a neighborhood, a library, a 
marketplace or a workshop. We also know that it can facilitate 
conflict, exploitation and criminal activity. Just last year, a 
leading cybersecurity firm reported a 93 percent increase in 
cyberattacks compared with the year before. DHS's role within 
that space which constitutes both the dot-gov and the dot-com 
environments results in unique technical, legal and policy 
challenges. Our responsibilities cover distributed networks 
with vastly different ownership, configuration and legal 
considerations as compared to DOD networks that are relatively 
closed and owned by DOD.
    We have accomplishments. We are moving on several fronts. 
The Department is deploying an intrusion detection system known 
as EINSTEIN to protect the dot-gov world and we are providing 
the latest tools and information to our infrastructure partners 
to support the financial services, transportation, energy and 
defense industries, to name a few. We have also deployed fly-
away teams to assist private companies as they seek to prevent 
and combat cyber attacks against their networks. In addition, 
the Department has spearheaded the development and testing of 
the first-ever National Cyber Incident Response Plan, which 
enables us to coordinate the response at all levels. This is 
not a standalone document. It has been used to respond to 
significant real-world events this year. We are focused on 
building a world-class cybersecurity team of professionals, 
computer engineers, scientists, analysts to secure the Nation's 
digital assets and critical infrastructure.
    From the National Cyber Security Division, we have 
coordinated with the Science and Technology Directorate for 
many years on research and development requirements for 
cybersecurity. Our NCSD's Research and Standards Integration 
Team communicates regularly our R&D requirements for inclusion 
in S&T's broad area announcements and Small Business Innovation 
Research information. The NCSD research is currently working 
with the S&T to identify and pursue specialized technologies 
that could be integrated into our operational posture. In the 
past, while some adopted technologies did not work well, we 
have worked to prevent this problem in the future, and NCSD is 
finalizing a technology transition process to ensure these new 
technologies will deliver the desired functionalities and be 
compatible. In addition, we have regular, ongoing efforts with 
NIST in developing standards related to software assurance, 
smart grid technologies and supply chain risk management.
    Thank you, and I look forward to your questions.
    [The prepared statement of Admiral Brown follows:]
   Prepared Statement of RADM Michael Brown, Director, Cybersecurity 
Coordination, National Protection and Programs Directorate, Department 
                          of Homeland Security
    Chairmen Quayle and Brooks, Ranking Members Wu and Lipinski, and 
distinguished Members of the Committee, it is a pleasure to appear 
before you today to discuss the important issue of cybersecurity. My 
testimony will provide an overview of the current cybersecurity 
environment, the cybersecurity mission carried out by the National 
Protection and Programs Directorate (NPPD), and the coordination of 
this mission with our public and private sector partners. As you well 
know, these operational missions benefit from, and drive the 
requirements for, the research and development work of the DHS Science 
and Technology directorate. We also coordinate closely with our 
interagency partners, such as the National Institute of Standards and 
Technology, in the development and application of cybersecurity 
standards that are relevant across our mission set.
    I look forward to exploring how we might work collaboratively with 
the Committee, and I applaud the Committee for holding this hearing as 
a step toward such important cooperation.
    Moving forward, we would like to work more closely with you to 
convey the relevance of cybersecurity to average Americans. 
Increasingly, the services we rely on for daily life, such as water 
distribution and treatment, electricity generation and transmission, 
healthcare, transportation, and financial transactions depend on an 
underlying information technology and communications infrastructure. 
Cyber threats put the availability and security of these and other 
services at risk.

    The Current Cybersecurity Environment

    The United States confronts a combination of known and unknown 
vulnerabilities, strong and rapidly expanding adversary capabilities, 
and a lack of comprehensive threat and vulnerability awareness. Within 
this dynamic environment, we are confronted with threats that are more 
targeted, more sophisticated, and more serious.
    Sensitive information is routinely stolen from both government and 
private sector networks, undermining confidence in our information 
systems, the information collection and sharing process and, as bad as 
the loss of precious national intellectual capital is, we increasingly 
face threats that are even greater. We currently cannot be certain that 
our information infrastructure will remain accessible and reliable 
during a time of crisis.
    We face persistent, unauthorized, and often unattributed intrusions 
into Federal Executive Branch civilian networks. These intruders span a 
spectrum of malicious actors, including nation states, terrorist 
networks, organized criminal groups, or individuals located here in the 
United States. They have varying levels of access and technical 
sophistication, but all have nefarious intent. Several are capable of 
targeting elements of the U.S. information infrastructure to disrupt, 
dismantle, or destroy systems upon which we depend. Motives include 
intelligence collection, intellectual property or monetary theft, or 
disruption of commercial activities, among others. Criminal elements 
continue to show increasing levels of sophistication in their technical 
and targeting capabilities and have shown a willingness to sell these 
capabilities on the underground market. In addition, terrorist groups 
and their sympathizers have expressed interest in using cyberspace to 
target and harm the United States and its citizens. While some have 
commented on terrorists' own lack of technical abilities, the 
availability of technical tools for purchase and use remains a 
potential threat.
    In the virtual world of cyberspace, malicious cyber activity can 
instantaneously result in virtual or physical consequences that 
threaten national and economic security, critical infrastructure, 
public health and welfare, and confidence in government. Similarly, 
stealthy intruders can lay a hidden foundation for future exploitation 
or attack, which they can then execute at their leisure- and at their 
time of greatest advantage. Securing cyberspace requires a layered 
security approach. Moreover, securing cyberspace is also critical to 
accomplishing nearly all of DHS's other missions successfully.
    In cyberspace, we need to ensure that the federal environments are 
secure and that legitimate traffic is allowed to flow freely while 
malicious traffic is prevented from penetrating our defenses. 
Similarly, we need to support our state and local government and 
private sector partners as they secure themselves against malicious 
activity. Collaboratively, public and private sector partners must use 
our knowledge of these systems and their interdependencies to prepare 
to respond should our defensive efforts fail. This is a serious 
challenge, and DHS is continually making strides to improve the 
nation's overall operational posture and policy efforts.

    The DHS Cybersecurity Mission

    The Department of Homeland Security is responsible for helping 
Federal Executive Branch civilian agencies secure their unclassified 
networks. DHS also works with owners and operators of critical 
infrastructure and key resources (CIKR) sectors-whether private sector, 
state, or municipality-owned-to bolster their cybersecurity 
preparedness, risk assessment and mitigation, and incident response 
capabilities. The Department has a number of foundational and 
forwardlooking efforts under way, many of which stem from the 2008 
Comprehensive National Cybersecurity Initiative (CNCI). We are reducing 
and consolidating the number of external connections federal agencies 
have to the Internet through the Trusted Internet Connections (TIC) 
initiative. Further, DHS continues to deploy its intrusion detection 
capability, known as EINSTEIN 2, to improve the security of 
communications entering or leaving the federal government through those 
TICs. In addition, through the United States Computer Emergency 
Readiness Team (US-CERT), we are working more closely than ever with 
our public and private sector partners to share what we learn from 
EINSTEIN 2 and to deepen our collective understanding, identify threats 
collaboratively, and develop effective security responses.
    In a reflection of the bipartisan nature with which the federal 
government continues to approach cybersecurity, President Obama 
determined that the CNCI and its associated activities should evolve to 
become key elements of the broader national cybersecurity efforts. 
These CNCI initiatives play a central role in achieving many of the key 
recommendations of the President's Cyberspace Policy Review: Assuring a 
Trusted and Resilient Information and Communications Infrastructure. 
Following the publication of those recommendations in May 2009, DHS and 
its components developed a long-range vision of cybersecurity for the 
Department and the nation's homeland security enterprise, which is 
encapsulated in the Quadrennial Homeland Security Review (QHSR). The 
QHSR provides an overarching framework for the Department and defines 
our key priorities and goals. One of the five priority areas detailed 
in the QHSR is safeguarding and securing cyberspace. Within the 
cybersecurity mission area, the QHSR identifies two overarching goals: 
to help create a safe, secure and resilient cyber environment; and to 
promote cybersecurity knowledge and innovation.
    In alignment with the QHSR, Secretary Napolitano consolidated many 
of the Department's cybersecurity efforts under the National Protection 
and Programs Directorate (NPPD). The Office of Cybersecurity and 
Communications (CS&C), a component of NPPD, focuses on reducing risk to 
the nation's communications and information technology infrastructures 
and the sectors that depend upon them, as well as enabling timely 
response and recovery of these infrastructures under all circumstances. 
The functions and mission of the National Cybersecurity Center (NCSC) 
are now supported by CS&C. These functions include coordinating 
operations among the six largest federal cyber centers. CS&C also 
coordinates national security and emergency preparedness communications 
planning and provisioning for the federal government and other 
stakeholders. CS&C comprises three divisions: the National Cyber 
Security Division (NCSD), the Office of Emergency Communications, and 
the National Communications System.
    Teamwork-ranging from intra-agency to international collaboration-
is essential to securing cyberspace. Simply put, the cybersecurity 
mission cannot be accomplished by any one agency; it requires teamwork 
and coordination. Together, we can leverage resources, personnel, and 
skill/sets that are needed to accomplish the cybersecurity mission.
    NCSD collaborates with federal government stakeholders, including 
civilian agencies, law enforcement, the military, the intelligence 
community, state and local partners, and private sector stakeholders, 
to conduct risk assessments and mitigate vulnerabilities and threats to 
information technology assets and activities affecting the operation of 
civilian government and private sector critical infrastructures. NCSD 
also provides cyber threat and vulnerability analysis, early warning, 
and incident response assistance for public and private sector 
constituents. To that end, NCSD carries out the majority of DHS' non-
law enforcement cybersecurity responsibilities.

    National Cyber Incident Response

    The President's Cyberspace Policy Review called for ``a 
comprehensive framework to facilitate coordinated responses by 
government, the private sector, and allies to a significant cyber 
incident.'' DHS coordinated the interagency, state and local 
government, and private sector working group that developed the 
National Cyber Incident Response Plan. The plan provides a framework 
for effective incident response capabilities and coordination among 
federal agencies, state and local governments, the private sector, and 
international partners during significant cyber incidents. It is 
designed to be flexible and adaptable to allow synchronization of 
response activities across jurisdictional lines. In September 2010, DHS 
hosted Cyber Storm III, a response exercise in which members of the 
domestic and international cyber incident response community addressed 
the scenario of a coordinated cyber event. During the event, the 
National Cyber Incident Response Plan was activated and its incident 
response framework was tested. Based on observations from the exercise, 
the plan is in its final stages of revision prior to publication.
    Cyber Storm III also tested the National Cybersecurity and 
Communications Integration Center (NCCIC)-DHS' 24-hour cyber watch and 
warning center-and the federal government's full suite of cybersecurity 
response capabilities. The NCCIC works closely with government at all 
levels and with the private sector to coordinate the integrated and 
unified response to cyber and communications incidents impacting 
homeland security.
    Numerous DHS components, including US-CERT, the Industrial Control 
Systems Cyber Emergency Response Team (ICS-CERT), and the National 
Coordinating Center for Telecommunications (NCC), are collocated into 
the NCCIC. Also present in the NCCIC are other federal partners, such 
as the Department of Defense (DoD) and members of the law enforcement 
and intelligence communities. The NCCIC also physically collocates 
federal staff with private sector and non-governmental partners.
    By leveraging the integrated operational capabilities of its member 
organizations, the NCCIC serves as an ``always on'' cyber incident 
response and management center, providing indications and warning of 
imminent incidents, and maintaining a national cyber ``common operating 
picture.'' This facilitates situational awareness among all partner 
organizations, and also creates a repository of all vulnerability, 
intrusion, incident, and mitigation activities. The NCCIC also serves 
as a national point of integration for cyber expertise and 
collaboration, particularly when developing guidance to mitigate risks 
and resolve incidents. Finally, the unique and integrated nature of the 
NCCIC allows for a scalable and flexible coordination with all 
interagency and private sector staff during steady-state operations, in 
order to strengthen relationships and solidify procedures as well as 
effectively incorporate partners as needed during incidents.

    Providing Technical Expertise to the Private Sector and Critical 
Infrastructure

    US-CERT provides remote and onsite response support and defense 
against malicious cyber activity for the Federal Executive Branch 
civilian networks. US-CERT also collaborates and shares information 
with state and local government, industry, critical infrastructure 
owners and operators, and international partners to address cyber 
threats and develop effective security responses.
    In addition to specific mitigation work we conduct with individual 
companies and sectors, DHS looks at the interdependencies across 
critical infrastructure sectors for a holistic approach to providing 
our cyber expertise. For example, the electric, nuclear, water, 
transportation, and communications sectors support functions across all 
levels of government including federal, state, local, and tribal 
governments. Government bodies and organizations do not inherently 
produce these services and must rely on private sector organizations, 
just as other businesses and private citizens do. Therefore, an event 
impacting control systems has potential implications at all these 
levels, and could also have cascading effects upon all 18 sectors. For 
example, water and wastewater treatment, chemical, and transportation 
depend on the energy sector, and failure in one of these sectors could 
subsequently affect the operations of state, local, or even federal 
government.
    NCCIC's operations are complemented in the arena of industrial 
control systems by ICS-CERT. The term ``control system'' encompasses 
several types of systems, including Supervisory Control and Data 
Acquisition (SCADA), process control, and other automated systems that 
are found in the industrial sectors and critical infrastructure. These 
systems are used to operate physical processes that produce the goods 
and services that we rely upon, such as energy, drinking water, 
emergency services, transportation, postal and shipping, and public 
health. Control systems security is particularly important because of 
the inherent interconnectedness of the CIKR sectors and their 
dependence on one another.
    As such, assessing risk and effectively securing industrial control 
systems are vital to maintaining our nation's strategic interests, 
public safety, and economic well-being. A successful cyber attack on a 
control system could result in physical damage, loss of life, and 
cascading effects that could disrupt services. DHS recognizes that the 
protection and security of control systems is essential to the nation's 
overarching security and economy. In this context, as an example of the 
many related initiatives/activities, DHS-in coordination with the 
Department of Commerce's National Institute of Standards and Technology 
(NIST), the Department of Energy, and DoD-has provided a forum for 
researchers, subject matter experts and practitioners dealing with 
cyber-physical systems security to assess the current state of the art, 
identify challenges, and provide input to developing strategies for 
addressing these challenges. Specific infrastructure sectors considered 
include energy, chemical, transportation, water and wastewater 
treatment, healthcare and public health, and commercial facilities. A 
2010 published report of findings and recommendations is available upon 
request.
    ICS-CERT provides onsite support to owners and operators of 
critical infrastructure for protection against and response to cyber 
threats, including incident response, forensic analysis, and site 
assessments. ICS-CERT also provides tools and training to increase 
stakeholder awareness of evolving threats to industrial control 
systems.
    A real-world threat emerged last year that significantly changed 
the landscape of targeted cyber attacks on industrial control systems. 
Malicious code, dubbed Stuxnet, was detected in July 2010. DHS analysis 
concluded that this highly complex computer worm was the first of its 
kind, written to specifically target mission-critical control systems 
running a specific combination of software and hardware.
    ICS-CERT analyzed the code and coordinated actions with critical 
infrastructure asset owners and operators, federal partners, and 
Information Sharing and Analysis Centers. Our analysis quickly 
uncovered that this sophisticated malware has the ability to gain 
access to, steal detailed proprietary information from, and manipulate 
the systems that operate mission-critical processes within the nation's 
infrastructure. In other words, this code can automatically enter a 
system, steal the formula for the product being manufactured, alter the 
ingredients being mixed in the product, and indicate to the operator 
and the operator's anti-virus software that everything is functioning 
normally.
    To combat this threat, ICS-CERT has been actively analyzing and 
reporting on Stuxnet since it was first detected in July 2010. To date, 
ICS-CERT has briefed dozens of government and industry organizations 
and released multiple advisories and updates to the industrial control 
systems community describing steps for detecting an infection and 
mitigating the threat. As always, we attempt to balance the need for 
public information sharing while limiting the information that 
malicious actors may exploit.
    Looking ahead, the Department is concerned that attackers could use 
the increasingly public information about the code to develop variants 
targeted at broader installations of programmable equipment in control 
systems. Copies of the Stuxnet code, in various different iterations, 
have been publicly available for some time now. ICS-CERT and the NCCIC 
remain vigilant and continue analysis and mitigation efforts of any 
derivative malware.
    ICS-CERT will continue to work with the industrial control systems 
community to investigate these and other threats through malicious code 
and digital media analysis, onsite incident response activities, and 
information sharing and partnerships.

    Protecting Federal Civilian Government Networks

    In addition to its support of private sector owners and operators 
of infrastructure, DHS also collaborates with its partners to increase 
the security of Federal Executive Branch civilian agency networks. As 
part of the CNCI, DHS works with the Office of Management and Budget 
(OMB) to reduce and consolidate the number of external connections that 
federal agencies have to the Internet through the TIC initiative. This 
initiative reduces the number of potential vulnerabilities to 
government networks and allows DHS to focus monitoring efforts on 
limited and known avenues through which Internet traffic must travel. 
DHS conducts onsite evaluations of agencies' progress toward 
implementing TIC goals.
    In conjunction with the TIC initiative, the EINSTEIN system is 
designed to provide the U.S. government with an early warning system 
for intrusions to Federal Executive Branch civilian networks, near 
real-time identification of malicious activity, and automated 
disruption of that malicious activity. The first iteration of EINSTEIN 
was developed in 2003 and automates the collection and analysis of 
computer network security information from participating agency and 
government networks to help analysts identify and combat malicious 
cyber activity that may threaten government network systems, data 
protection and federal communications infrastructure. The second phase 
of EINSTEIN, developed in 2008 as part of the CNCI, incorporates 
intrusion detection capabilities into the original EINSTEIN system. DHS 
is currently deploying EINSTEIN 2 to Federal Executive Branch civilian 
agency TIC locations and Networx Managed Trusted Internet Protocol 
Services (MTIPS) providers, which are private internet service 
providers that serve federal agencies, to assist them with protecting 
their computers, networks and information. EINSTEIN 2 has now been 
deployed at 15 of the 19 large departments and agencies who maintain 
their own TIC locations. Also, the four MTIPS providers currently 
provide service to seven additional federal agencies. In 2010, EINSTEIN 
2 sensors registered 5.4 million ``hits,'' an average of more than 
450,000 hits per month or nearly 15,000 hits per day. A hit is an alert 
triggered by a predetermined intrusion detection signature that 
corresponds to a known threat. Each hit represents potential malicious 
activity for further assessment by US-CERT.
    DHS is currently developing the third phase of the EINSTEIN system-
an intrusion prevention capability which will provide DHS with the 
ability to automatically detect and disrupt malicious activity before 
harm is done to critical networks and systems. In advance of this 
development, DHS, in coordination with the National Security Agency 
(NSA), conducted the CNCI Initiative 3 Exercise. US-CERT successfully 
met the objectives of the CNCI Initiative 3 Exercise, including the 
successful deployment of one signature, scenario and countermeasure, 
and the demonstrated ability to share alert data with DoD. As a result 
of the countermeasures deployed during the exercise, US-CERT was 
successful in denying the entry of more than 36,473 potentially 
malicious threats into the federal agency customer's network 
infrastructure. The CNCI Initiative 3 Exercise advanced the potential 
capabilities of the EINSTEIN system by demonstrating defensive 
technology, sharing near real-time threat information with DoD for 
enhanced situational awareness, and providing a platform upon which an 
oversight and compliance process can be implemented for the evolving 
set of EINSTEIN capabilities. The Department's Privacy Office and its 
Office for Civil Rights and Civil Liberties carefully reviewed the 
exercise concept of operations, and the Privacy Office worked with US-
CERT to publicly release a detailed Privacy Impact Assessment 
evaluating the exercise. US-CERT also briefed the exercise to the cyber 
subcommittee of the independent DHS Data Privacy and Integrity 
Committee.
    Beyond the TIC initiative and the EINSTEIN system, DHS, OMB, and 
the National Institute for Standards and Technology work cooperatively 
with agencies across the federal government to coordinate the 
protection of the nation's federal information systems through 
compliance with the Federal Information Security Management Act of 2002 
(FISMA). US-CERT monitors EINSTEIN 2 sensors for intrusion activity and 
receives self-reported incident information from federal agencies. This 
information is reported to OMB for use in its FISMA oversight capacity. 
In 2010, DHS also began to administer oversight of the CyberScope 
system, which was developed by the Department of Justice. This system 
collects agency information regarding FISMA compliance and, as DHS, OMB 
and their agency partners move toward automated reporting, the system 
will enable real-time assessments of baseline security postures across 
individual agencies and the federal enterprise as a whole. This 
activity complements the development of reference architectures that 
DHS designs for federal agency stakeholders that are interested in 
implementing security solutions based on standards and best practices. 
DHS also works with the General Services Administration to create 
Blanket Purchase Agreements that address various security solutions for 
federal agencies.

    The DHS Cybersecurity Workforce

    As DHS continues to make progress on initiatives such as TIC and 
EINSTEIN, the Department is also mindful that the cybersecurity 
challenge will not be solved by a single technology solution. Multiple 
innovative technical tools are necessary and indeed, technology alone 
is insufficient. The mission requires a larger cybersecurity 
professional workforce, governance structures for enhanced 
partnerships, more robust information sharing and identity protection, 
and increased cybersecurity awareness among the general public. 
Responsibility for these solutions is, and will remain, distributed 
across public and private sector partners.
    DHS is focused on building a world-class cybersecurity team by 
hiring a diverse group of cybersecurity professionals-computer 
engineers, scientists, and analysts-to secure the nation's digital 
assets and protect against cyber threats to our critical infrastructure 
and key resources. NCSD continues to hire cybersecurity and information 
technology professionals, nearly tripling its cybersecurity workforce 
in FY 2009 and nearly doubling that number again in FY 2010. NCSD 
currently has more than 230 cybersecurity professionals on board, with 
dozens more in the hiring pipeline.
    Several initiatives are designed to increase the nation's number of 
highly qualified cybersecurity professionals. DHS and NSA co-sponsor 
the Centers of Academic Excellence in Information Assurance Education 
and Research programs, the goal of which is to produce a growing number 
of professionals with information assurance expertise in various 
disciplines. DHS and the Department of State co-hosted Operation Cyber 
Threat (OCT1.0), the first in a series of government-wide experiential 
and interactive cybersecurity training pilots designed to apply 
learning concepts and share best practices in a secure, simulated 
environment to build capacity within the federal workforce. In December 
2010, the Institute of Electrical and Electronics Engineers Computer 
Society, the world's leading organization of computing professionals, 
formally recognized the Master of Software Assurance (MSwA) Reference 
Curriculum, which DHS sponsored through its Software Assurance (SwA) 
Curriculum Project. The MSwA program is the first curriculum of its 
kind to focus on assuring the functionality, dependability, and 
security of software and systems. Finally, DHS co-sponsored the annual 
Colloquium for Information Systems Security Education and the 
Scholarship for Services (SFS) Job Fair/Symposium, which brought 
together 55 federal agencies and more than 200 SFS students.
    The National Initiative for Cybersecurity Education (NICE) has the 
dual goals of a cyber-savvy citizenry and a cyber-capable workforce. 
Working with NIST, which is the overall interagency lead, DHS heads the 
NICE awareness elements and co-leads the training and professional 
development components with DoD and the Office of the Director of 
National Intelligence.

    Interagency and Public-Private Coordination

    Overcoming new cybersecurity challenges requires a coordinated and 
focused approach to better secure the nation's information and 
communications infrastructures. President Obama's Cyberspace Policy 
Review reaffirms cybersecurity's significance to the nation's economy 
and security. Establishment of a White House Cybersecurity Coordinator 
position solidifies the priority the Administration places on improving 
cybersecurity.
    No single agency controls cyberspace and the success of our 
cybersecurity mission relies on effective communication and critical 
partnerships. Many government players have complementary roles-
including DHS, the Intelligence Community, DoD, the Department of 
Justice, the Department of State, and other federal agencies-and they 
require coordination and leadership to ensure effective and efficient 
execution of our collective cyber missions. The creation of a senior-
level cyber position within the White House ensures coordination and 
collaboration across government agencies.
    DHS works closely with its federal, state and local partners to 
protect government cyber networks. In September 2010, DHS and DoD 
signed a memorandum of agreement that aligns and enhances America's 
capabilities to protect against threats to our critical civilian and 
military computer systems and networks, including deploying a National 
Security Agency support team to the NCCIC to enhance the National Cyber 
Incident Response Plan and sending a full-time senior DHS leader and 
support team to the National Security Agency.
    This initiative builds upon pre-existing liaison exchanges DHS has 
with the National Security Agency/Central Security Service Threat 
Operation Center (NTOC), United States Cyber Command and United States 
Northern Command. Liaisons to DHS operate out of US-CERT and the NCCIC. 
The initiative also further supports DHS' already active partnership 
with DoD. The partnerships ensure that agile coordination and technical 
capabilities support any cyber contingency.
    In November 2010, the Multi-State Information Sharing and Analysis 
Center (MS-ISAC) opened its Cyber Security Operations Center, a 24-hour 
watch and warning facility, which will both enhance situational 
awareness at the state and local level for the NCCIC and allow the 
federal government to quickly and efficiently provide critical cyber 
risk, vulnerability, and mitigation data to state and local 
governments. An MS-ISAC analyst/liaison is collocated in the NCCIC.
    Private industry owns and operates the vast majority of the 
nation's critical infrastructure and cyber networks. Consequently, the 
private sector plays an important role in cybersecurity, andDHS has 
initiated several pilot programs to promote public-private sector 
collaboration. In its engagement with the private sector, DHS 
recognizes the need to avoid technology prescription and to support 
innovation that enhances critical infrastructure cybersecurity.
    In February 2010, DHS, DoD, and the Financial Services Information 
Sharing and Analysis Center (FS-ISAC) launched a pilot designed to help 
protect key critical networks and infrastructure within the financial 
services sector by sharing actionable, sensitive information. In June 
2010, DHS implemented the Cybersecurity Partner Local Access Plan, 
which allows security-cleared owners and operators of CIKR, as well as 
state technology officials and law enforcement officials, to access 
secret-level cybersecurity information and video teleconference calls 
via state and local fusion centers. In November 2010, DHS signed an 
agreement with the Information Technology Information Sharing and 
Analysis Center (IT-ISAC) to embed a fulltime IT-ISAC analyst and 
liaison to DHS at the NCCIC, part of an ongoing effort to collocate 
private sector representatives alongside federal and state government 
counterparts. The IT-ISAC consists of information technology 
stakeholders from the private sector and facilitates cooperation among 
members to identify sector-specific vulnerabilities and risk mitigation 
strategies.
    In December 2010, DHS and NIST signed a Memorandum of Understanding 
with the Financial Services Sector Coordinating Council. The goal of 
the agreement is to speed the commercialization of cybersecurity 
research innovations that support our nation's critical 
infrastructures. This agreement will accelerate the deployment of 
network testbeds for specific use cases that strengthen the resiliency, 
security, integrity, and usability of financial services and other 
critical infrastructures.
    In July 2010, DHS worked extensively with the White House on the 
publication of a draft National Strategy for Trusted Identities in 
Cyberspace, which seeks to secure the digital identities of 
individuals, organizations, services and devices during online 
transactions, as well as the infrastructure supporting the transaction. 
This fulfills one of the near-term action items of the President's 
Cyberspace Policy Review. The strategy is based on public-private 
partnerships and supports the protection of privacy and civil liberties 
by enabling only the minimum necessary amount of personal information 
to be transferred in any particular transaction. Its implementation 
will be led by the Department of Commerce.

    Public Education and Outreach

    While considerable activity is focused on public and private sector 
critical infrastructure protection, DHS is committed to developing 
innovative ways to enhance the general public's awareness about the 
importance of safeguarding America's computer systems and networks from 
attacks. Every October, DHS and its public and private sector partners 
promote efforts to educate citizens about guarding against cyber 
threats as part of National Cybersecurity Awareness Month. In March 
2010, Secretary Napolitano launched the National Cybersecurity 
Awareness Challenge, which called on the general public and private 
sector companies to develop creative and innovative ways to enhance 
cybersecurity awareness. In July 2010, seven of the more than 80 
proposals were selected and recognized at a White House ceremony. The 
winning proposals helped inform the development of the National 
Cybersecurity Awareness Campaign, Stop. Think. Connect., which DHS 
launched in conjunction with private sector partners during the October 
2010 National Cybersecurity Awareness Month. Stop. Think.Connect, a 
message developed with the private sector, has evolved into an ongoing 
national public education campaign designed to increase public 
understanding of cyber threats and how individual citizens can develop 
safer cyber habits that will help make networks more secure. The 
campaign fulfills a key element of President Obama's Cyberspace Policy 
Review, which tasked DHS with developing a public awareness campaign to 
inform Americans about ways to use technology safely. The campaign is a 
component of the NIST National Initiative for Cyber Education (NICE).
    Throughout its public and private sector activities, DHS is 
committed to supporting the public's privacy, civil rights and civil 
liberties. Accordingly, the Department has implemented strong privacy 
and civil rights and civil liberties standards into all of its 
cybersecurity programs and initiatives from the outset. To support 
this, DHS established an Oversight and Compliance Officer within NPPD, 
and key cybersecurity personnel receive specific training on the 
protection of privacy and other civil liberties as they relate to 
computer network security activities. In an effort to increase 
transparency, DHS also publishes privacy impact assessments on its 
website, www.dhs.gov, for all of its cybersecurity systems.

    Conclusion

    Set within an environment characterized by a combination of known 
and unknown vulnerabilities, strong and rapidly expanding adversary 
capabilities, and a lack of comprehensive threat and vulnerability 
awareness, the cybersecurity mission is truly a national one requiring 
collaboration across the homeland security enterprise. The Department 
of Homeland Security is committed to creating a safe, secure and 
resilient cyber environment while promoting cybersecurity knowledge and 
innovation. We must continue to secure today's infrastructure as we 
prepare for tomorrow's challenges and opportunities. It is important to 
recognize that we do not undertake cybersecurity for the sake of 
security itself, but rather to ensure that government, business and 
critical societal functions can continue to use the information 
technology and communications infrastructure on which they depend. We 
are confident that the cyber legislative proposal put forward by the 
Administration will, if enacted, enhance our ability to more 
effectively execute our cybersecurity missions.
    Distinguished Members of the Committee, let me end by reiterating 
that I look forward to exploring opportunities to advance this mission 
in collaboration with the Committee and my colleagues in the public and 
private sectors. Thank you again for this opportunity to testify. I 
would be happy to answer your questions.
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    Chairman Quayle. I would like to thank the whole panel for 
their testimony today. Now, I want to remind Members that 
Committee rules limit questioning to five minutes. The Chair 
will at this point open the round of questions, and I will 
recognize myself for five minutes.
    My first question is to you, Dr. Strawn. In your testimony, 
you stated that the research in NITRD's portfolio is managed, 
selected and funded by one or more of the 14 member agencies 
under their own individual appropriations. Now, my question is, 
how do we avoid duplication here and is there some sort of 
mechanism that you currently have in place to monitor where all 
these federally funded research initiatives are going and what 
they are accomplishing?
    Mr. Strawn. Thank you for the question. We do believe, Mr. 
Quayle, that one of the primary functions of the NITRD program 
which provides for interaction among the agencies and 
discussion of what their plans and programs are for the coming 
years results in cooperative ventures in finding out that other 
agencies are doing something that they thought they would need 
to do and now they can rely on the other agencies' results 
rather than doing so. So filling gaps and avoiding overlaps is 
something that I think we have always considered to be an 
important part of our obligations.
    Chairman Quayle. So you think that you have the ability to 
make sure that we are not having duplicative research and also 
within the various agencies? One of the other things within 
that is that there are some concerns that as various agencies 
try to fight for turf, especially within the cybersecurity 
realm, that they are going to less likely to want to work with 
other agencies because they have that protective turf battle 
going on.
    Mr. Strawn. Well, I suppose agencies are a little like 
companies in that there is cooptition going on, cooperating at 
some places and yet there is a limited amount of federal funds 
and so forth they are in competition for appropriations. 
Certainly the NITRD program as a venue for cooperation doesn't 
enforce or attempt to boss the agencies around in these regards 
but when they become aware of what each other is doing, we have 
seen plenty of cases where it has led to cooperation and better 
extension of federal funds.
    Chairman Quayle. Thank you.
    My next question is for Ms. Furlani. When you have the 
changing nature of cyber threats, and we are going to be 
starting to develop some standardization for cybersecurity 
procedures, and standardization always conjures up a very 
inflexible model, how do we make sure that we do set up the 
procedures so that we have the flexibility to address these 
changing cyber threats because they will continue to change as 
years go on?
    Ms. Furlani. We frequently change our recommended standards 
for the Federal Government and we do that because we work so 
closely with industry, who is aware of what is changing and 
they give us that feedback and that recognition of how we 
should be modifying. We put out our drafts for public comment. 
We get comments internationally as well as locally and we adapt 
as we go, and we also work to move our standards and other 
standards along in the international arena because we also have 
the responsibility to work with industry to develop voluntary 
consensus standards and make sure that the Federal Government 
is using voluntary, consistent standards wherever applicable. 
And so being aware and connected with industry as closely as we 
are has been very effective in making sure that we are adapting 
as we move along because technology moves just too fast for 
standing in one place.
    Chairman Quayle. So as different best practices are 
developed in various industries that you deal with, especially 
on the cybersecurity front, that you just have an evolving 
standards practice basically?
    Ms. Furlani. We are flexible enough to adapt to new 
changes, new needs and we listen and we have our mechanisms 
that work that through and again try to move them into the 
international standards so our industries can compete globally.
    Chairman Quayle. Okay. Thank you very much.
    Now, Rear Admiral Brown, the Administration has proposed a 
cybersecurity legislative package tasking the Secretary of DHS 
with working with interested parties to propose standardized 
frameworks to address cybersecurity risks to critical 
infrastructure. The package also states that the Secretary 
should work with the Director of NIST to develop alternate 
standards if the voluntary standards developed by the 
interested parties do not meet the required criteria. What 
role, if any, does the Secretary envision for NIST in the 
initial voluntary standards development process?
    Admiral Brown. Sir, we already have a very close 
relationship with NIST. We have been working in particular on 
several parts of the private sector and believe that building 
upon that information and the relationship that we have, the 
development of the standards, and from DHS's operational 
perspective that we will continue to leverage that and apply 
that in the rule sets that we will be putting forward.
    Chairman Quayle. Okay. Thank you very much.
    The Chair now recognizes Mr. Wu for five minutes.
    Mr. Wu. Thank you very much, Mr. Chairman.
    I would like to use my five minutes to put two questions to 
whomever on the panel wishes to answer them. The concept of 
anonymity and privacy are frequently conflated in our 
discussions, and setting privacy aside for the moment, I would 
like to focus on anonymity. It is very, very legitimate to very 
much completely identify someone who is going into look at, 
say, medical information or banking information whereas if 
someone is going to read a newspaper or do a posting on a 
political wall, at least in our society we would view that as 
something which should be protected by anonymity if the user so 
chooses. There are increasingly attribution technologies. Also, 
if you come off your Facebook page, you are locked in by your 
community pretty much as your identity and there are also 
proposals for inherently secure Internet backbone, which may 
also lead to traceability on the Internet. Could you all 
address how these what we view as advantageous technologies can 
also be reconciled with a continuing need for freedom of the 
Internet so that certain societies, certain governments will 
not be further empowered to crack down on what we view as 
inherently private and desirable activities.
    Mr. Strawn. Let me take a quick crack at that, Mr. Wu. I 
think that better identity management may also help assure 
anonymity in the right situations. For example, in the academic 
world, library checkouts are an example of where anonymity has 
typically been appropriate and probably continues to be, but 
let us say at a university, only students of that university 
and perhaps some others are permitted to check books out or do 
what have you. If we have the ability to do identity management 
by attribute as opposed to just by name, if a person can log 
into a trusted identity management and indicate that they are 
in fact a student because it is trusted who they are, then the 
attribute of being a student can be used to check out the books 
and the publications at a library, and so better identity 
control can enable anonymity in that sense as well as enable 
full identity when appropriate.
    Ms. Furlani. Yes, I would like to amplify on that because 
of the National Strategy for Trusted Identities in Cyberspace. 
This is one of the goals to have an ecosystem where there might 
be credentials and you could choose, each individual could 
choose whether they want to be anonymous today or whether they 
want their bank to know who they are, that they really can move 
that money around, and so that is one of the goals. We have 
workshop coming up in June to explore what it means to have 
such a system, and we will be talking with industry as usual to 
understand how this could be facilitated.
    Mr. Jahanian. I would just add that as my colleague 
highlighted already, identity management is key to this. I 
would also like to add that at National Science Foundation, we 
have a number of research activities that look at this issue, 
particularly at anonymization techniques, identity management, 
and we all recognize that ultimately we have to reach a balance 
between protecting public privacy and public safety, national 
security and economic prosperity. So I do want to add that we 
have a number of research activities that are ongoing 
addressing the very issue that you highlighted.
    Mr. Wu. Thank you very much.
    My second question is directly international rather than 
obliquely international, and that is that just as the proposed 
legislation preempts a lot of state legislation, so many of the 
problems really are of a multinational nature. But there has 
been already a lot of jockeying about international standards, 
and could you address the issue of how to negotiate truly 
international standards and the issue of certain countries 
jockeying for advantage in setting up islands of technology and 
these islands not only grant commercial advantage but they also 
potentially decrease Internet freedom in those islands?
    Ms. Furlani. Certainly this is an issue that we work with, 
and the openness and the way that the international standards 
are developed and we try to make sure that our experts are 
participating actively and the value is seen of having 
standards that everyone can use and setting that baseline has 
been pretty effective in solving this issue, and we continue to 
watch out for such opportunities to make sure that the 
understanding is there because it is really a value proposition 
that if we can collaborate on these, we all benefit.
    Mr. Wu. Let me just add that I look forward to NIST 
continuing to take a lead role in international negotiation. 
Thank you for your tolerance, Mr. Chairman.
    Chairman Quayle. Thank you, Mr. Wu.
    The Chair now recognizes Mr. Brooks for five minutes.
    Mr. Brooks. Thank you, Mr. Chairman. As much as I am going 
to be able to be here for the entire hearing, some of the other 
Members have time constraints, I am going to defer my time to 
Mr. Smith.
    Mr. Smith. Thank you, Mr. Chairman. Thank you, Mr. Brooks. 
I appreciate the courtesy there.
    I have a couple of questions, and the first question is for 
all Members, all witnesses here today, and Dr. Furlani, I 
realize you have touched on this subject in response to the 
Chairman's question a while ago but I would like to ask all of 
you this. One of the concerns that is often voiced about the 
Federal Government's approach to cybersecurity is that it does 
not take into consideration often enough the expertise that is 
available in the private sector, and so I would like to ask 
each of you how your agency intends to collaborate with the 
private sector, private industry to take advantage of their 
expertise, and I guess, Dr. Strawn, we will begin with you.
    Mr. Strawn. Thank you, Mr. Smith. I think that a little 
historical example might help. I mentioned previously that our 
agencies have been working on a strategic plan for 
cybersecurity research, and that plan has not only involved 
agency collaboration but has involved several interactions with 
the private sector, holding workshops where private sector 
experts are invited in to comment and assist us in formation of 
that plan. We have a history of doing that with other 
activities as well and we continue to see that mechanism both 
in asking for public feedback from documents that we prepare 
and prior to that asking input as we prepare documents from 
experts in the various fields.
    Mr. Smith. Thank you.
    Dr. Jahanian?
    Mr. Jahanian. Yes, I am happy to answer that. Our panel 
review process actively involves not only scholars from 
academic institutions but also government folks as well as 
experts from industry, so that is one aspect of it. We run a 
number of workshops that involve both academics as well as 
individuals from the private sector as they advise us about our 
programs, about the future of research investments and so on, 
but I also want to highlight a couple of other things. For 
example, the research contributions that I have listed in my 
written testimony and other outcomes and innovations that have 
been developed with National Science Foundation's funding and 
other federal partners are now being used by the private sector 
as well as government agencies. In fact, recently I did a quick 
count of past five years of various technology that has been 
transferred from the cybersecurity program from National 
Science Foundation. I was pleasantly surprised to see the 
number of technologies that have made it into the private 
sector, commercialized, used by Federal Government agencies and 
by the private sector. I counted 20 startups that have been 
launched just over the last 2, three years based on the 
research that we funded. I also highlight that some of this of 
course is leading toward securing our infrastructure, 
protecting our national security, but also is fueling job 
growth. Another program that I want to highlight is that the 
National Science Foundation relies heavily on SBIR and STTR to 
fuel innovation and foster adoption of that innovation by 
government as well as the private sector.
    Mr. Smith. Okay. Thank you.
    Dr. Furlani?
    Ms. Furlani. Yes. I had mentioned it earlier that we hardly 
do anything without talking with industry first. If we see a 
problem that we need to consider and how we might formulate 
some strategy for protecting cyberspace, we would typically 
open a workshop and ask anyone of interest to come and discuss 
it. Then once we collect our thoughts and put something down in 
writing that people can react to, it is put out for public 
comment and we take those comments extremely seriously. We work 
through every one. We put back publicly what we have done with 
each comment, and if whatever draft we put out changes 
significantly, then we put it out again so that there is a 
second round, so we move very carefully.
    Mr. Smith. Thank you.
    Admiral Brown, since I am almost out of time, let me ask 
you to address another question in addition, if you would. In 
San Antonio, we have an Operations Warfare Center at Lackland 
Air Force Base that you are probably familiar with, very 
similar to the National Counterterrorism Center. The Operations 
Warfare Center helps the Department of Defense in planning to 
stop or prevent cyberattacks. Do you think there is any 
possibility of that kind of operations center might be a 
prototype and useful to the government in other areas?
    Admiral Brown. Yes, sir. Tied to your first question, what 
we have established inside DHS is the National Cybersecurity 
and Communications Integration center. It is an operations 
center to be able to look at and provide situational awareness, 
and tied to your first question, that is part of our 
relationship with the private sector. We have representatives 
there from an operational view and so that has proved to be 
very effective in our ability to operate in the environment 
that we see.
    Mr. Smith. Thank you, Admiral Brown.
    Thank you, Mr. Chairman.
    Mr. McCaul. [Presiding] The Chair now recognizes a good 
friend from Illinois, we co-introduced the Cybersecurity 
Enhancement Act the last Congress, which passed overwhelmingly, 
Mr. Lipinski.
    Mr. Lipinski. Thank you, Mr. McCaul.
    I want to start out by asking a question of Dr. Jahanian 
and Dr. Strawn. In a 2009 hearing before this Committee, one 
expert described the ``never ending tug of war between security 
and usability,'' and this is, I think, a very important issue 
that has at times been overlooked. I think we are now giving a 
better focus to this. I just wanted to ask if you can describe 
how research in social, behavioral and economic sciences can 
improve both usability and security, and also how is social 
science research incorporated into the soon-to-be-released R&D 
strategic plan, whoever wants to start?
    Mr. Strawn. Thank you, Mr. Lipinski. I will say a quick 
word on it and then I will turn to my colleague since much of 
this work is done in the National Science Foundation. But the 
NITRD program has had working groups in socioeconomic impacts 
of information technology for some time. It also has a subgroup 
of that group specifically in education purposes, which is a 
social science activity, I would say. The cybersecurity 
research program, research strategic program that we have has a 
dimension of seeking economic incentives for better 
cybersecurity practices. So I think that within the NITRD 
program, we have a number of cases where socioeconomic research 
is functioning and is a part of the overall picture.
    Mr. Jahanian. Congressman Lipinski, you raise a very 
important point. The issue of cybersecurity goes far beyond 
technology. It involves human beings. It involves humans in a 
loop, if you will. Two years ago when we launched the--3 years 
ago when we launched the trustworthy cross-cutting program at 
National Science Foundation, we actually acknowledged that 
there are four components or themes to this program. One is 
security, how vulnerable is it to attack, the system is 
vulnerable to attack; reliability, does it work as it is 
intended, privacy, does it protect a person's information, and 
finally, usability, can human beings use the system in an 
efficient way, in a secure way. I do believe that in fact the 
programs that we have launched in recent years directly address 
the usability issue. We have a number of research activities 
that are funded by National Science Foundation that recognize 
humans in the loop and interaction of humans with computer 
systems.
    As part of our new initiative, we are also looking at 
cybereconomic incentives, and if you permit me in 30 seconds I 
will try to explain what that is. Consider the attacks that 
exploit human behavior, user behavior, weak passwords, for 
example. We are also seeing increasingly social engineering 
where you receive an e-mail and you click on a link in your e-
mail and inadvertent you download, one downloads a program that 
infects your computer and can be used for all sorts of 
malicious activities. So recognizing that, we need to look at 
human behavior, understanding human behavior and also 
understanding the motivation of attackers and be able to 
reconcile that with the technologies that we develop and 
technologies that we deploy. Also, we need to consider 
incentives that make cybersecurity ubiquitous. Why is it that 
not everybody is using good hygiene, if you will, when it comes 
to cybersecurity? How do you incentivize good behavior and 
disincentivize bad behavior? Also, understanding the motivation 
behind bad actors, as I mentioned, and also understanding 
various kinds of user models. Incentives to facilitate adoption 
of trustworthy technologies is not just limited to individuals, 
it also includes government agencies and the private sector. So 
understanding all of that plays an important and critical role 
in our solution and our approach to dealing with this important 
problem.
    Mr. Lipinski. Thank you. In the very short time I have 
left, what is being done--because I think cybersecurity 
education and building our workforce to address cyber 
challenges is very important. Is there anything that you are 
doing with K-12 students, any of the agencies, for education? 
Just quickly.
    Admiral Brown. Yes, sir. From DHS, we have an ongoing 
relationship with the National Cybersecurity Alliance, a 
program called C-SAVE, and that is very much focused on K-12 
and we are going to continue to build that capability.
    Ms. Furlani. And also with the National Initiative on 
Cybersecurity Education, we work as the lead but the Department 
of Education is one of our partners and looking at that very 
issue.
    Mr. Jahanian. NSF is also participating in that same 
activity and looking at the issue.
    Mr. Lipinski. Thank you very much. I yield back.
    Mr. McCaul. Thank you.
    The Chair now recognizes the gentleman from Maryland, Mr. 
Bartlett.
    Mr. Bartlett. Thank you very much.
    In the Department of Defense, our weapons system 
developments take a very long time. They can easily take a 
decade. Obviously in that decade, technologies are changing, 
some of them dramatically. So when we begin a development, we 
are interested in the technologies and how fast they can 
develop and what is the ultimate achievable. For an airplane, 
for instance, we are interested in stealth and how little can 
we look to the radar. On the other hand, we are also interested 
in how fast the capability of radar will grow so that they can 
see us, although we are really tiny, and then what about the 
capability of once they have identified our airplane of taking 
it out with a missile from another airplane or from the ground 
or by and by maybe something from a satellite.
    A bit ago, Gina Dugan, the director of DARPA, was in my 
office and I asked her if she could help us in that kind of an 
analysis because we are looking to develop a new deep strike 
heavy bomber, and I have no idea which of those technologies is 
growing the faster and I don't want to put billions of dollars 
in developing a plane that is simply going to be easily spotted 
and taken out of the sky when it is finally fielded 12, 15 
years from now. She said oh, we really can help you with that 
sort of thing, and what she gave me as an example was something 
in cybersecurity, and she showed me a graph, and it showed that 
the codes, the lines of code that the bad guys use in malware 
is not increasing but the lines of code that we are using to 
defend ourselves is increasing exponentially. Every month, 
every year it gets bigger and bigger.
    What we are asking of the system is two things which kind 
of appear to be mutually exclusive. On the one hand, we want it 
wide open so that it is readily accessible, and on the other 
hand, we want it really secure. Are we going to be able to bend 
that curve, that exponentially increasing curve of the lines of 
code that we use to defend ourselves and will our systems 
ultimately be consumed with the necessity of protecting 
themselves so they won't be able to do any useful work for us?
    Mr. Jahanian. Congressman Bartlett, we should have you 
write our solicitations for the National Science Foundation. 
You articulated the problem extremely well. The technology base 
for our systems is rapidly evolving. Every three to five years, 
we deploy new computers, new systems because their new 
functionalities have come out, new performance enhancements. 
The settings in which our computer systems are being deployed 
and the functionalities that they provide also is not static. 
My belief is that future security challenges will follow 
adoption of Internet patterns that we see. For example, mobile 
devices with cloud computing, different settings are going to 
impose new challenges for us.
    So you are absolutely right that the code base is 
increasing. The complexity of systems that we are trying to 
secure is definitely getting more challenging. We are also 
seeing an increasing trends toward cyber-enabled 
infrastructures and system such as power grids. Information 
technology has become so pervasive that we are seeing it in 
power grids, we are seeing it in the financial sector, 
transportation networks and so on and so on, and it has been 
identified already our national critical infrastructure has 
become so dependent on information technology and computer 
networks that the vulnerability is there and we need to do 
something about it.
    From a research point of view, our thoughts and our 
thinking, I should say, the thinking of the broader scientific 
community is that we need to develop a scientific foundation 
for dealing with this problem. We cannot be just chasing the 
bad guys, trying to stay slightly ahead of the latest attack 
and latest trends that we see. The scientific approach must 
promote discovery of new laws, if you will, meaning scientific 
laws. We have to be able to do hypothesis testing. We have to 
be able to demonstrate repeatable experiments. We have to 
enable data gathering. We need new metrics. We need to have 
critical analysis to this problem. In doing so, I should just 
highlight that the National Science Foundation did launch a 
program in our trustworthy computing program that focuses on 
the overall trustworthiness of our critical infrastructure and 
it directly addresses the scientific foundation that is needed 
to solve this problem.
    Mr. Bartlett. Thank you. Clearly, this affects just about 
every one of us and every part of our government, and I still 
am not certain that we can bend that curve. It seems to me that 
we are going to be using ever-increasing percentages of our 
capability just to protect ourselves. It is a huge problem. 
Thank you all for being involved, and thank you, Mr. Chairman, 
for holding this hearing.
    Mr. McCaul. And thank you, Mr. Bartlett, for your 
expertise.
    The Chair now recognizes the gentleman from Maryland, Mr. 
Sarbanes.
    Mr. Sarbanes. Thank you very much, Mr. Chairman. Thank you 
all for your testimony today.
    Congressman Bartlett and I and other Members of the 
Maryland delegation are very excited and proud that the new 
cyber command is going to be stood up at Fort Meade in our 
state, and we are trying to prepare for that as well as we can, 
and I wanted to go back and maybe give you all a little bit 
more time to speak to the question that Congressman Lipinski 
posed about how you prepare a workforce because that is 
obviously something we are very interested in seeing happen in 
Maryland and sort of where do you start, where does that 
pathway, that career pathway to being ready to take these 
diverse set of job opportunities that cybersecurity will 
provide, you know, chief security officers, analysts, forensics 
experts, etc., where that pipeline starts, what is the kind of 
coursework you think is important to offer, what is the role of 
two-year colleges, community colleges as well as the four-year 
colleges? And in particular, I would be curious to have you 
speak to the complications with respect to security clearance. 
That always seems to be an issue. You can deliver up a cohort 
of highly qualified people and they still have to jump through 
the security clearance process. Are there ways to anticipate 
that and integrate it into the educational process so that when 
they kind of graduate from the pipeline, they are actually 
ready to get right into the job? And so I offer that to any of 
the panel members to respond to. There is three minutes. Thank 
you.
    Mr. Strawn. I will just say a quick overview about how 
important the NITRD program agrees or believes that these 
issues are. We have also recently been working on a strategic 
plan for the whole NITRD activity in addition to the Strategic 
Plan for Cybersecurity, and the three pillars of the NITRD 
strategic plan are technology and its increasing partnership 
with us and new ways of use. That is pillar one. Pillar two is 
trust and confidence, which we are here talking about today, 
and pillar three is a cyber-ready society including pipeline 
issues of professionals and general knowledge for the public to 
fully utilize cyber. So we are focusing our efforts to focus on 
these activities directly.
    Admiral Brown. Sir, I will talk a little bit about what we 
are doing at DHS, but I also want to right up front talk about 
what the teamwork is that you see here. We have already 
mentioned the efforts that NICE has. We have mentioned the fact 
that I think there are over 106 centers of academic excellence 
that DOD and DHS have been working on scholarship for service 
to identify people early on to be able to get them the right 
skill sets and afford them an opportunity to work for the 
government. We have also just recently started, again, DOD, 
DHS, doing the same type of center for academic excellence for 
the two-year schools that you mentioned.
    The clearances are an issue but part of what we have been 
doing, particular under the NICE initiative, is to identify all 
the skills that are required, career paths. There are many that 
don't necessarily require clearances and so we need to take 
advantage of that opportunity and the skills and the people 
that come there. And finally from a DHS perspective on that 
last point that you talked about, trying to bring them in so 
they are ready, we started an intern program inside DHS as well 
as a fellowship program, and we look to be able to take that 
model and expand it and bring it across the rest of the Federal 
Government. That is just some of the things that we are doing.
    Mr. Jahanian. May I add a couple of points? As you probably 
know from my bio, in addition to my academic experience, I have 
private sector experience, particularly in cybersecurity. I 
think this problem of education, workforce development, 
curriculum development is extremely important to the Nation. It 
is a very, very important problem that is being addressed by 
multiple agencies. I will highlight a couple of programs. 
Scholarship for Service, that was mentioned. National Science 
Foundation has been extremely pleased with our involvement in 
the Scholarship for Service program. In particular, it is being 
offered at 34 institutions today and more than 1,000 students 
who have graduated from this program have returned to 
government service, so it is a great success story.
    Another track related to Scholarship for Service includes 
capacity building. Again, we offer funds to universities and 
colleges to develop curriculum, and there are a number of 
center-scale activities that have been launched related to this 
which involve multiple institutions collaborating, developing 
new curriculum specifically in the cybersecurity area.
    Another program that I think is extremely important in 
terms of training technicians and training particularly entry-
level positions is the Advanced Technological Education program 
which addresses directly the two-year colleges. In my 
testimony, I highlighted three regional centers, and again, it 
is a terrific success story, allowing individuals to be 
retrained or go through a two-year program led by our community 
colleges, be trained and go back into the workforce, 
particularly the government sector.
    Mr. McCaul. The Chair now recognizes the gentleman from 
Alabama, Mr. Brooks.
    Mr. Brooks. Thank you, Mr. Chairman.
    Dr. Strawn, in the Administration's proposed legislation 
released in early May, you mention a few places where research 
and development is mentioned. For the sections you reference, 
it is clear that NITRD would lead these efforts--excuse me. Is 
it clear that NITRD would lead these efforts? Is it necessary 
for that leadership to be explicitly defined in the statute?
    Mr. Strawn. Mr. Brooks, we are usually careful to use the 
word ``coordinate'' as opposed to ``lead'' in terms of the 
activities of the NITRD program based on the fact that each 
agency has their separate mission, has their separate 
appropriations and appropriations committees, and our goal is 
to make the whole greater than the sum of the parts by bringing 
everyone together in terms of the knowledge of what is going 
on, finding ways to work together and collaborate, but given 
the way the government is organized, it seems to us that 
collaboration is the way we can best fulfill our mission.
    Mr. Brooks. Thank you.
    Next, Dr. Jahanian, is there a current need for 
postdoctoral research fellowships in cybersecurity and are 
cybersecurity postdocs eligible for already established NSF 
fellowship programs?
    Mr. Jahanian. At this point in time, we don't believe that 
we need to have a separate postdoc program for the 
cybersecurity area in particular. As you probably know, 
information technology and computer science is a very hot, 
exciting area. There are jobs available for our Ph.D.s all over 
the country, in the private sector, in government as well as 
our academic institutions, and yes, the postdoc funding that is 
available through the National Science Foundation through my 
directorate that goes through our research programs is 
available to support postdocs across the field.
    I do want to highlight that during the recent economic 
crisis 2, three years ago, we recognized that there were a 
number of bright minds who were getting their Ph.D.s and were 
potentially leaving the research field, so we came up with a 
program which lasts only two or three years called computing 
innovation fellows that allowed us to support postdocs 
specifically for a short period of time to maintain the 
pipeline for our research activities, research programs in 
academic institutions and industry, and it has been a very, 
very successful program, supporting more than 100 postdocs. But 
I don't believe in the long run this is something that we need 
to invest in. However, it is something that we are looking at 
and we are going to continue to consider.
    Mr. Brooks. Thank you. Another unrelated question to Dr. 
Jahanian. The fiscal year 2012 budget request includes $12 
million in new spending for cyber activities within the Social, 
Behavioral and Economic Sciences Directorate. What is the need 
and purpose for this funding? Does SBE have appropriate 
expertise in cybersecurity issues to accomplish the goals of 
this funding or will other directorates be taking the lead?
    Mr. Jahanian. I briefly alluded to this issue of our need 
to address the role of humans in dealing with cybersecurity 
challenges. First, let me state that we expect that there will 
be a single cybersecurity solicitation from NSF including the 
science directorate, SBE and Office of Cyber Infrastructure, so 
these are not independent programs that are all going to be 
under one umbrella.
    The second thing that I want to raise is that we expect 
fully to have scientists from various disciplines to 
participate in addressing some of the issues dealing with 
cybersecurity including computer scientists, mathematicians as 
well as economists. I responded to an earlier question about 
our thoughts toward cybereconomic incentives, in particular, 
dealing with the kind of threats that involve social 
engineering. By that I mean, when you receive an e-mail and you 
click on a link and suddenly your machine is infected, your 
computer is infected. So we need to understand incentives that 
make cybersecurity ubiquitous, how do we incentivize, as I 
mentioned, good behavior and disincentivize bad behavior, 
understand the motivation behind bad actors and understand new 
user models, and I also mentioned that we need to incentivize 
facilitation of adoption of trustworthy technologies by various 
government agencies as well as the private sector. So 
understanding all of that allows us to develop new technologies 
and incorporate some of that into the technologies that we 
expect will come down the road.
    Mr. Brooks. Thank you, Dr. Jahanian.
    I yield the remainder of my time.
    Mr. McCaul. Thank you, Mr. Brooks.
    The Chair now recognizes himself for five minutes. As I 
mentioned, Congressman Lipinski and I introduced a 
cybersecurity enhancement bill last Congress that passed 
overwhelmingly. We plan to reintroduce that as early as next 
week, but we wanted to have the benefit of your testimony on 
this bill. I know you have had a opportunity to review the 
legislation, and if I could go over four major points to the 
legislation that I wanted to cover, and the first deals with, 
Dr. Strawn and Dr. Furlani, the NIST standards, giving NIST the 
authority to set security standards for federal networks. Can 
you give me your comments in terms of whether that is helpful 
to the Federal Government? Dr. Strawn?
    Mr. Strawn. I think the fact that NIST has been involved 
with setting standards for us for the last decade in my direct 
experience as CIO has been very helpful and so any additional 
responsibilities that NIST might take such as identified in the 
proposed legislation I think would be helpful.
    Mr. McCaul. Ms. Furlani?
    Ms. Furlani. We have been working in that space for some 
time, particularly thinking about the security aspects of 
domain name security and working to deploy that in the dot-gov 
and dot-com domains and so I think it is a reasonable fit.
    Mr. McCaul. The next area establishes a federal university-
private sector taskforce to coordinate research and development 
and also authorizes I think much-needed cybersecurity research 
and development programs. I think, Dr. Jahanian, you may be 
best qualified to speak to that provision.
    Mr. Jahanian. Yes. I think it is very important and it has 
been already highlighted by others that we need to involve the 
private sector as we think about addressing the issues that 
confront the country, cybersecurity challenges that impact our 
economic security, national security and of course public 
safety. So as I indicated already in my testimony, the National 
Science Foundation and other agencies actively involve the 
private sector in how we approach cybersecurity in our research 
programs, in our merit review programs, in the workshops we 
run, SBIR, STTR, So expanding that and bringing the private 
sector and academics together, I think it serves the country 
well.
    Mr. McCaul. Well, thank you for that.
    And lastly, there has been a lot of talk about a 
cybersecurity workforce professionals. The bill creates 
scholarship programs, both undergraduate and graduate, at the 
NSF, and that is to be repaid with federal service. So I think 
that question actually could go to both Dr. Jahanian and to Mr. 
Brown in terms of DHS having a cyber federal workforce. Dr. 
Jahanian?
    Mr. Jahanian. Yes. The question was--as I indicated in 
answer to a previous question, I believe the issue of workforce 
development, education and curriculum development and capacity 
building is extremely important. It has to be at the center of 
our response to cybersecurity challenges. So this is very much 
aligned with the needs of the country.
    Mr. McCaul. Admiral Brown?
    Admiral Brown. Sir, I think Scholarship for Service is 
extremely important. It has been great for us in the public 
sector. From DHS perspective, we have teamed extremely well 
with NSF on that, and we have reaped some of the benefits. Some 
senior leaders have been graduates of that program as well as 
some of our phenomenal analysts, so it is a great program.
    Mr. McCaul. So I take then from the witnesses' testimony 
that you are all supportive of this legislation? Is that 
correct? You don't have to all yell at once.
    Mr. Jahanian. I forgot to push the button.
    Mr. McCaul. One last question, and this has to do probably 
more when I was ranking Member on the Cybersecurity 
Subcommittee on Homeland Security, Admiral Brown. The cyber 
command is standing up at Fort Meade. In my home state, 
Lackland Air Force Base which, as you know, conducts cyber 
operations, and the coordination between DHS and I think the 
DOD and NSA is very important in terms of the left hand knowing 
what the right hand is doing. It seems to me, you can't fully 
protect and defend the Nation as DHS is charged with their 
mission if you are not coordinating with those who know the 
offensive capability the best. Has that enhanced over the years 
and can you tell me to the extent you can in an open setting 
what your relationship is now with the Air Force?
    Admiral Brown. Sir, the basic premise of your question, the 
answer is, you just described my job description. As the 
cybersecurity coordinator for DHS, my responsibility is to work 
with both NSA and with U.S. Cyber Command so that we are 
synchronizing, we are from both the DOD and DHS perspective 
aware of our operations, that we are capable of working 
together, and for U.S. Cyber Command, that means working with 
its components like the 24th Air Force. So that is part of my 
job is to make sure that I am providing that situation 
awareness to DHS so that we are prepared when we are looking at 
protecting the dot-gov and working with the private sector and 
the dot-com and vice versa to be able to provide that 
information, to be able to work with NSA and with U.S. Cyber 
Command as they are executing their missions and 
responsibilities.
    Mr. McCaul. That is excellent news, because five years ago 
when we held hearings on the issue, that was not the case. 
There wasn't that kind of coordination, so I commend you for 
taking the lead on that, and I think that is going to make the 
country a lot safer.
    Thanks to the witnesses. We have one last round of 
questions, as I understand. Mr. Wu is recognized.
    Mr. Wu. Thank you, Mr. Chairman, and I understand, this may 
be the last question. I want to do the Congressional hearing 
question equivalent of a core dump. There has been a lot of 
discussion about cloud computing. We have also migrated to 
mobile devices, a lot of computing there, a lot of information 
sharing. Could whomever wants to address this, address the 
security implications and challenges of cloud computing and 
mobile devices and directions to go to try to solve some of 
those issues?
    Mr. Strawn. Thank you, Mr. Wu. You have nailed some 
important questions right there, and they are illustrative of 
the history of IT that every time we think we are on top of 
things, something new emerges, and therefore we have to sort of 
think it over again and start up and we are always looking for 
basic principles like Dr. Jahanian was talking about but many 
times we are simply reacting to the new technologies. It is 
certainly true that cloud computing for one is a potentially 
very important technology. The NIST activities have been taking 
some lead in that and I am sure that Ms. Furlani will have 
something to say about that.
    I have an opinion that once we are over the transition to 
cloud computing, we will actually be in a more secure 
environment rather than a less secure environment because we 
will have people whose core competencies are to provide secure 
information and secure access to information. The various 
organizations that are required to provide that type of 
security for themselves, it isn't a core competency, so once we 
are over the transition, I look for actually superior security.
    Ms. Furlani. Yes, we are leading the Federal Government's 
look at how standards need to be deployed and worrying about 
the cybersecurity privacy and security issues, and we have 
recently published a special publication to look at those 
specific issues. It is out for public comment right now. We 
have also established the--proposed a definition for cloud 
computing which has been taken up by everyone so that we are 
all at least speaking on the same terms so that we know what we 
are speaking about, which helps get us over that hump. The 
second piece I wanted to mention is the mobile devices. That is 
something we have been looking at and again holding workshops 
on understanding what we need to be thinking in that aspect 
from the standards and testing point of view.
    Admiral Brown. Sir, just to build off of what Ms. Furlani 
had said, we have been active participants in that work, 
particularly the cloud computing, the definitions and 
interagency efforts have been going on, but from a mobile-
device standard, U.S. Cyber Command on a regular basis is 
putting out information to the public sector about what the 
threats are, the best practices that need to be done and making 
sure that some of that is available as we continue to look at 
the employment and deployment of those capabilities.
    Mr. Wu. Thank you very much.
    Mr. McCaul. Thank you, Mr. Wu.
    I want to thank the witnesses for their valuable testimony. 
The record will remain open for two weeks and so Members may 
have additional questions for you in writing. I would ask that 
you respond.
    With that, the witnesses are excused and this hearing is 
adjourned.
    [Whereupon, at 11:30 a.m., the Subcommittees were 
adjourned.]
                                Appendix

                              ----------                              


                   Answers to Post-Hearing Questions


<SKIP PAGES = 000>

                   Answers to Post-Hearing Questions
Responses by Dr. George O. Strawn, Director, National Coordination 
        Office for Networking and Information Technology Research and 
        Development

        <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
        
                   Answers to Post-Hearing Questions


Responses by Dr. Farnam Jahanian, Assistant Director, Directorate for 
        Computer and Information Science and Engineering, National 
        Science Foundation

Question submitted by the Honorable Mo Brooks

    Q1. Your testimony touches on the way investments in cybersecurity 
research are tied to investments in cybersecurity education and 
workforce development. Why is this important? Are there real-world 
implications if federal investments shift from education and workforce 
development in this field?

    A1. If these investments were to shift or stop, the pipeline of 
cybersecurity scientists, engineers and professionals would be slowed. 
With insufficient cybersecurity experts, the US would no longer be 
competitive in the science and engineering of cybersecurity and in the 
development of new cybersecurity technologies and start-ups.
    For example, the Scholarship for Service (SFS) program at NSF 
provides direct evidence that investments in cybersecurity education 
can have a profound impact on the Nation and its ability to secure 
cyberspace. To date, SFS has admitted 1400 students; 1100 of the 
graduates have been successfully placed in the Federal government, 
including at the National Security Agency, Department of Homeland 
Security, Central Intelligence Agency, and the Department of Justice.
    The Advanced Technology Education (ATE) program focuses on the 
education of technicians in high technology fields. The ATE center-
scale track is funding three cybersecurity education centers. Each 
center has myriad partners, including a dozen or more community 
colleges and universities; each center has enrolled over 1500 students 
since its inception. Both SFS and ATE reach every region of the country 
and significantly increase the pool of cybersecurity professionals 
available for jobs in the U.S.
    Our investment in fundamental, unclassified, long-term research in 
cybersecurity has an educational component as well. NSF-funded research 
projects are the training grounds for the graduate students who will 
turn into the next generation of advanced cyber security professionals. 
NSF principal investigators (who are usually university faculty) 
recruit graduate students to work with them side by side to make 
discoveries. This day by day faculty-student research training is the 
basic way we ensure a continuing supply of innovators. Trustworthy 
Computing currently has about 500 ongoing projects; most of them have 
at least one graduate student. These NSF principal investigators also 
recruit undergraduates to work in their labs through supplements to 
their grants in the Research Experiences for Undergraduates (REU) 
program. Finally, NSF's most prestigious program that supports junior 
faculty--the CAREER program--explicitly addresses the integration of 
research and education to ensure that young faculty learn early in 
their careers the critical connection between fundamental research and 
science and engineeering education.

Question submitted by the Honorable David Wu

    Q1. In Rear Admiral Brown's testimony, he notes that no single 
agency controls cyberspace and the success of our cybersecurity mission 
relies on effective communication and critical partnerships across the 
government. However, the Administration's legislative proposal released 
on May 12th recommends consolidating a significant amount of 
cybersecurity related activities at DHS, arguably making DHS the de 
facto lead on cybersecurity activities in the Federal government. If 
this structure is enacted, how can we ensure that it will not reduce 
incentives for other agencies to be actively engaged on cybersecurity, 
believing that DHS has it covered?

    A1. The model proposed in the legislation reflects established 
partnerships with Department of Homeland Security (DHS) on broad 
cybersecurity operational matters and those involving FISMA legislative 
and policy requirements. In addition, NSF interacts with DHS and other 
agencies to share cybersecurity ``best practices'' and ``lessons 
learned'' through the government-wide Chief Information Security 
Officer forum and routinely leverages DHS expertise to address an 
increasingly dynamic threat environment. DHS conducts independent 
benchmarking and qualitative reviews of Federal agency cybersecurity 
programs as part of the FISMA review process. NSF has participated in 
these assessments for the last two years, and has used the results to 
make continued improvements to our cybersecurity program.
    Such a framework clearly defines the structure of the authorities 
and responsibilities of the partners. In this case, subsection 3553 
assigns DHS a leadership role in setting overall policy and providing 
guidance and requirements. Subsection 3554 assigns specific 
responsibilities to agencies, including: assessing risk; determining 
appropriate levels of security; implementing policies and procedures; 
actively monitoring effectiveness; and sharing cybersecurity 
information. Thus, the proposal envisions DHS and the agencies working 
together towards better cybersecurity operations across the federal 
government.
    NSF frequently works in partnership with other agencies. Another 
example--focused on cybersecurity education--is the National Initiative 
for Cybersecurity Education (NICE), which is led by NIST with the 
participation of the Departments of Homeland Security, Defense, Labor, 
and Education, the Office of Personnel Management, the National Science 
Foundation, the Director of National Intelligence, and other Federal 
agencies.
    NSF remains the lead agency, however, for long-term, foundational 
research in cybersecurity. In FY 2011, NSF will invest up to $129.4 
million in cybersecurity research, including $55 million in the cross-
cutting Trustworthy Computing program. Its projects range from security 
at the microscopic level, detecting whether a silicon chip contains a 
malicious circuit, to the macroscopic, determining strategies for 
securing the next generation electrical power grid. These investments 
are critical to an effective national strategy of achieving a 
``trustworthy'' cyberspace.

Question submitted by the Honorable Randy Neugebauer

    Q1. What aspects of the current federal system of research and 
development in the United States allow us to stay ahead of the curve in 
predicting and responding to future cybersecurity threats? What must be 
improved?

    A1. A major reason that cybersecurity is such a challenging problem 
is that attacks and defenses co-evolve. Every day, we learn about more 
sophisticated and dangerous attacks: systems that were secure yesterday 
are no longer secure. To respond to this continued escalation, we have 
created a healthy and vibrant U.S. cybersecurity R&D ecosystem that--
with effective nurturing--has kept us at the frontier of innovation and 
deployment.
    This ecosystem is driven by fundamental research. It is important 
to note that many of our cybersecurity technologies deployed today 
capitalize on fundamental research and discoveries made years, even 
decades, ago. Fundamental problems that are being addressed now are 
often difficult to solve but may bear fruit that will give us dramatic 
new advantages against cyberthreats. For example, doubly homomorphic 
encryption is a technique that will allow us to secure computers at the 
same level we can currently secure networks: even physical access to a 
computer would not allow useful information to be stolen. While this 
approach was first proposed back in 1978, recent NSF-funded research 
has led to its implementation, but only in limited ways. With continued 
work by our brightest researchers, we could soon see a fully practical 
approach that will be adopted by industry.
    NSF's cybersecurity research efforts are focused on building 
systems whose trustworthiness derives from first principles. To do 
that, we are formulating and developing a comprehensive research 
portfolio around a view of systems that are deemed trustworthy, i.e., 
systems that people can depend on day after day and year after year to 
operate correctly and safely. Such systems include transportation 
systems (avionics, metro, automobile systems), medical devices (medical 
implants, robotic surgery operated remotely that can be used to save 
lives in remote areas and on battlefields), and the rapidly developing 
smart power grid. Included in this notion of trustworthiness are a 
number of critical concepts: reliability (does it do the right thing?); 
security (how vulnerable is it to attack?); privacy (does it protect a 
person's information?); and usability (can a human easily use it?). 
Such research needs to be game-changing and forward-looking.
    Of course, one program in one agency cannot solve the challenges of 
cybersecurity alone, and so part of the research ecosystem is the rich 
exchange of ideas, goals, and results. This exchange is across 
disciplines, across governmental agencies via the NITRD program, 
between industrial partners and research institutions, and across 
nations; it has fueled new ideas, approaches, and results.
    Exchanges between academia and industry bring fundamental results 
into practice. NSF-funded principal investigators, working with 
industry partners and mission agencies, continually seed translation of 
knowledge into new technologies and more effective practice. NSF-funded 
research activities have led to the formation of start-up companies in 
the IT sector that are bringing innovative solutions and technologies 
to the marketplace, both helping to protect cyberspace and fueling job 
growth. Other NSF-funded research activities have led to current 
industries directly adopting results to harden existing IT 
infrastructure. By promoting a healthy connection between academia and 
industry, NSF further enhances its research portfolio in trustworthy 
computing with foundational concepts and new ideas that are directly 
relevant to the commercial sector.
    For example, the NSF Team for Research in Ubiquitous Security 
Technology (TRUST) Science and Technology Center combines 6 
universities with 16 industrial partners, and has produced new 
knowledge ranging from how to protect automobile control systems from 
attack to revealing flaws in methods used by websites to guard against 
attacks by programs impersonating people. Such partnerships need to be 
encouraged.
    The trend toward increasingly cyber-enabled systems, i.e., the 
integration of computation, communication, and control into physical 
systems, offers new challenges. Healthcare, education, and finance are 
already at risk of attack, and physical infrastructure--manufacturing, 
energy production, and transportation--will be next. An effective 
national strategy to secure cyberspace must include investments in 
these areas of research, which will allow our society to continue to 
benefit from a robust, secure, dependable cyber infrastructure that 
supports all application sectors, including those on which our lives 
depend. NSF will continue to make significant investments in support of 
a secure cyberinfrastrucrue.
    Cybersecurity researchers need access to research infrastructure 
with operational data in order to develop and validate their new 
theories, approaches, and technologies. For many reasons, such data has 
been hard to obtain. One excellent example of a long-term effort to 
provide such data is the PREDICT archive, developed by the Department 
of Homeland Security's Science & Technology Directorate. In partnership 
with industry and other organizations, more data archives like this 
need to be developed and put into routine use.
    More broadly, as we become ever more cross-disciplinary, cross-
agency and international, the coordination costs of supporting the R&D 
enterprise increase. Partnerships are a critical component, but they 
also require considerable investments of time. We need to develop tools 
and approaches to become more efficient and effective. For example, new 
technologies need to be employed that allow for more effective remote 
collaboration such as virtual presence, as well as for research 
portfolio and gap analysis.
                   Answers to Post-Hearing Questions

    Responses by Ms. Cita Furlani, Director, Information Technology 
Laboratory, National Institute of Standards and Technology

Questions submitted by Representative Ben Quayle


    Q1. I understand the National Initiative for Cybersecurity 
Education (NICE) and the expectation of a NICE strategic plan being 
released in the near future. Can anyone provide further clarity on when 
that document will be available for our review?

    A1. The NICE strategic plan is expected to be released for public 
review in mid-July.

    Q2. You mention NIST's participation in international consensus 
standards. Could you elaborate on how cybersecurity standards 
development happens in conjunction with other nations? How are other 
nations dealing with the protection of their civilian networks?

    A2. Cybersecurity standards development occurs in conjunction with 
other nations in open, consensus based standards organizations. NIST 
and other U.S. agencies participate in these international bodies and, 
in particular, NIST and other U.S. agencies work closely with the 
American National Standards Institute (ANSI), a federation of standards 
developers, government, industry, consumers, and other stakeholders. 
ANSI is the U.S. Member Body (i.e., representative) to the 
International Organization for Standardization (ISO) and serves to 
promote and facilitate U.S. voluntary standards development activities. 
ANSI's collaboration with the U.S. government performs a vital 
coordinating role for the entire standards community, ensuring that 
U.S. interests are adequately represented in international standards 
arenas.

    Q3. Under the Administration's proposed cybersecurity legislative 
package, the Secretary of DHS is tasked with working with interested 
parties to propose standardized frameworks to address cybersecurity 
risks to critical infrastructure. The package also states that the 
Secretary should work with the Director of NIST to develop alternate 
standards if the voluntary standards developed by the interested 
parties do not meet the required criteria. What role, if any, do you 
envision for NIST in the initial voluntary standards development 
process?

    A3. NIST has a long history and depth of expertise in voluntary 
consensus standards development processes. We will continue to work 
closely with DHS in areas of cybersecurity standards and standardized 
frameworks. In this case we plan to continue to bring our technical 
expertise, experience working with industry and extensive cybersecurity 
body of work to assist with organizations who are working on addressing 
their cybersecurity risks.

    Q4. Some witness testimony touched on cloud computing. Could you 
provide more detail about how cybersecurity impacts the growing cloud 
services, and what your agency is doing to secure this region?

    A4. Concerns over cybersecurity are having a number of impacts on 
the growing cloud services. Significant impacts include:
        <bullet>  For some customers, limiting their use of public 
        cloud services primarily to low security impact data and 
        processing. Many customers are reticent to use a cloud solution 
        for moderate or high security impact data and processing.
        <bullet>  Some customers choose the private cloud deployment 
        model for security reasons. In some cases, use of the private 
        deployment model is a temporary phase during which a customer 
        gains familiarity with cloud services before migrating to a 
        public cloud solution. In other cases, customers may retain 
        some portion of their cloud-based work in private deployments.
        <bullet>  Cloud providers often implement vendor-specific 
        security measures (such as monitoring of customer processing) 
        and impose customer agreements (contracts) that specify that a 
        customer's account will be terminated if it uses a cloud 
        service to launch cyber attacks.
    NIST is addressing the need for cybersecurity in cloud services 
through several complementary efforts: NIST has produced three draft 
special publications (SP800-144, SP800-145, and SP800-146) focusing on 
cloud computing. Two of these address security. SP800-144 addresses 
security issues in public cloud computing, and SP800-146 provides 
general guidance on cloud computing, including security.
    <bullet>  The NIST Cloud Computing program runs a working group 
dedicated to security issues. The group is generating a document that 
will list security impediments that could limit the adoption or 
usefulness of cloud computing and, for each impediment, information on 
how to mitigate it. The mitigation of a security impediment may be a 
NIST-led effort or may refer to efforts conducted by other entities. 
The NIST Cloud Security Working Group's output will be incorporated 
into the ``NIST U.S. Government Cloud Computing Technology Roadmap'' 
document. Release 1.0 of this document, for public comment, is planned 
for early November 2011.
    <bullet>  NIST is working with various voluntary consensus 
standards bodies. These include, but are not limited to,
        <bullet>  European Telecommunications Standards Institute 
        (ETSI),
        <bullet>  Distributed Management Task Force (DMTF),
        <bullet>  IEEE,
        <bullet>  Organization for the Advancement of Structured 
        Information Standards (OASIS),
        <bullet>  Open Grid Forum (OGF),
        <bullet>  Object Management Group (OMG), and
        <bullet>  US National Body contributing to the International 
        Organization for Standardization (ISO).
    <bullet>  The NIST Cloud Computing program also runs several other 
working groups that relate to security. The Standards Roadmap Working 
Group includes security in its consideration of the standards needed 
for cloud computing adoption. The Reference Architecture Working Group 
includes security as a key element for cloud architectures. The 
Business Use Cases Working Group identifies security requirements which 
must be implemented to support an agency's deployment and use of cloud 
computing to support its mission. The Standards Acceleration to 
Jumpstart Adoption of Cloud Computing (SAJACC) Working Group considers 
technical security aspects in low-level technical use case scenarios.
    <bullet>  NIST also serves in a Cloud Computing technical advisory 
role to the U.S. Chief Information Officer Council. The scope of this 
effort includes security. An example is the security guidance NIST 
provides to the Federal Risk and Authorization Management Program 
(FedRAMP), which specifies requirements to satisfy a number of controls 
for managing security in cloud services.

    Q5. In mid-April, the Obama Administration released the National 
Strategy for Trusted Identities in Cyberspace (N-STIC). It establishes 
a framework for the development of securing online transactions, and 
within the FY12 budget request is the establishment of a National 
Program Office focused on interagency coordination, headed by NIST. 
Could you please discuss your agency roles in NSTIC, and why NIST has 
been selected to lead the implementation of the Strategy? 

    A5. The National Program Office (NPO) will be responsible for 
coordinating the processes and activities of organizations that will 
implement the Strategy. NIST - with its long history of working 
collaboratively with the private sector to develop standards and best 
practices for cybersecurity and identity management - is uniquely 
suited to work with the private sector to bring the collective 
expertise of the nation to bear in implementing the Strategy.
    The NPO will lead the day-to-day coordination of NSTIC activities, 
working closely with the Cybersecurity Coordinator in the White House. 
The National Program Office will:
        <bullet>  Promote private-sector involvement and engagement;
        <bullet>  Support interagency collaboration and coordinate 
        interagency efforts associated with achieving programmatic 
        goals;
        <bullet>  Build consensus on policy frameworks necessary to 
        achieve the vision;
        <bullet>  Identify areas for the government to lead by example 
        in developing and supporting the Identity Ecosystem, 
        particularly in the government's role as a provider and 
        validator of key credentials;
        <bullet>  Actively participate within and across relevant 
        public- and private-sector fora; and
        <bullet>  Assess progress against the goals, objectives, and 
        milestones of the Strategy and the associated implementation 
        activities.
    A core focus of NSTIC is to help the country address some of the 
key policy and technology challenges - such as cost, interoperability 
and privacy - that have prevented Americans from obtaining and 
regularly using stronger authentication technologies. Passwords today 
are easily defeated through a variety of attacks from cybercriminals 
and identity thieves, and do not provide appropriate levels of security 
for many online transactions. Because of this, many transactions that 
could be online - in health care, banking, government, and other 
sectors - still require individuals to appear in person. NIST will work 
collaboratively with industry to develop standards and best practices 
that will address these challenges, enabling American consumers, 
businesses, governments and other organizations to more easily adopt 
stronger types of authentication that augment or replace passwords 
while enhancing individuals' privacy.

Question submitted by Representative David Wu


    Q1. In Rear Admiral Brown's testimony, he notes that no single 
agency controls cyberspace and that the success of our cybersecurity 
mission relies on effective communication and critical partnerships 
across the government. However, the Administration's legislative 
proposal released on May 12th recommends consolidating a significant 
amount of cybersecurity-related activities at DHS, arguably making DHS 
the de facto lead on cybersecurity activities in the Federal 
government. If this structure is enacted, how can we ensure that it 
will not reduce incentive for other agencies to be actively engaged on 
cybersecurity, believing that DHS has it covered?

    A1. Cybersecurity is a dynamic and complex space that needs to 
leverage a combined talent of active partnerships with industry and 
academia. No one organization can have it covered and this very hard 
problem requires collaboration for us to continue to succeed in 
cyberspace. Two of the many great attributes of NIST are its close 
collaboration with other agencies, industry and academia as well as 
NIST's open processes used to develop, design and deploy its extensive 
cybersecurity tools, guidelines and reference materials for doing 
everything from DNSSec for securing the internet to Information 
Security Best Practices for Small Businesses.

Questions submitted by Representative Randy Neugebauer


    Q1. What aspects of the current federal system of research and 
development in the United States allow us to stay ahead of the curve in 
predicting and responding to future cybersecurity threats? What must be 
improved?

    A1. One aspect for NIST is our active and collaborative work with 
other agencies, industry and academia in areas of research and 
development. This gives NIST access to a large body of experts whose 
cutting edge work in the IT industry enables us to stay ahead of the 
curve on the development, design and deployment of new technologies. 
NIST uses this extensive knowledge base and legacy of connections to 
continue its internationally recognized cybersecurity research and 
development efforts. As a result, NIST's cybersecurity-related R&D and 
associated technology transfer has directly resulted in the adoption by 
the public and private sectors of many commonly assumed security 
programs such as USCERT, CERT-CC, Role Based Access Controls, PIV 
Cards, eCommerce, Security Automation and Digital Signatures. NIST is 
always looking to improve its methods, techniques and reference 
materials for conducting accurate and repeatable measurements in all 
areas of science and technology, including cybersecurity.

    Q2. In your testimony, you mention the international voluntary 
consensus cybersecurity standards. What is the assessment of both the 
strength of current international standards and their flexibility in 
responding to unanticipated events in the future? What are key areas in 
which international consensus standards must be strengthened or 
improved?

    A2. The U.S. Government recognizes the importance of international 
voluntary cybersecurity standards for both US industry and US citizens. 
This focus aligns well with NIST's mission. Consistent with that focus 
and in keeping with our mission, NIST ensures its cybersecurity experts 
play key and leading roles in international standards bodies whether 
serving as members, co-chairs or chairs in various cybersecurity 
workgroups. These standards bodies are comprised not only with experts 
from government, but mostly from the US private sector, to ensure that 
they continue to be responsive to the needs of U.S. industry.
    National and international cybersecurity standards efforts include, 
but are not limited to 100's of published standards and current 
standards projects such as:
        <bullet>  Biometric standards for data interchange formats, 
        common file formats, application program interfaces, profiles, 
        and performance testing and reporting
        <bullet>  Management of information security and systems
        <bullet>  Management of third party information security 
        service providers
        <bullet>  Intrusion detection
        <bullet>  Network security
        <bullet>  Incident handling
        <bullet>  IT Security evaluation and assurance
        <bullet>  Cryptographic and non-cryptographic techniques and 
        mechanisms
        <bullet>  Security of the global supply chain
        <bullet>  Identity management
        <bullet>  Privacy enhancing technologies.
    Based on current technology, the relevant cybersecurity standards 
portfolio is quite strong in most of the areas listed above, while 
others are still actively being developed. As an example, one new 
technology for which current cybersecurity standards are being revised 
or for which new standards are being pursued is cloud computing. NIST 
is actively engaged to ensure that this standards work comes to 
fruition as quickly as possible and is focused on standards that will 
be immediately useful. All stakeholders must be vigilant to ensure that 
these and other cybersecurity standards are updated to keep pace with 
technology advances.
                   Answers to Post-Hearing Questions

    Responses by Rear Admiral Michael A. Brown, Director, Cybersecurity 
Coordination, Department of Homeland Security

Questions submitted by Representative Ben Quayle


    Q1. What will be the impacts on U.S. industry if other countries do 
not adopt similar approaches to cybersecurity as proposed in the 
Administration's legislation? How can we assure that there would be a 
balance between legitimate risk reduction efforts and the ability of 
U.S. businesses to compete globally?

    A1. The Administration will make every effort to coordinate our 
domestic efforts to secure critical infrastructure with our 
international engagement. As President Obama stated in the May 2011 
International Strategy for Cyberspace, "the United States is committed 
to working with like-minded states to establish an environment of 
expectations, or norms of behavior, that ground foreign and defense 
policies and guide international partnerships." To that end, as the 
United States moves forward with efforts to better protect critical 
infrastructure networks, we will collaborate with our international 
partners in an effort to harmonize those efforts, where appropriate.
    The Administration's cybersecurity proposal would establish a risk 
mitigation regime, in which industry would develop the solutions to 
common cyber risks, and other critical infrastructure companies would 
use those frameworks as a guide to better secure their own networks. 
Under this proposal, the Administration does not encourage a top-down, 
government-developed approach, but rather a broader implementation of 
security practices that are currently working for global companies. The 
Administration believes that companies that already have robust 
cybersecurity practices will not be significantly impacted by this 
proposal, regardless of where they do business. However, to ensure that 
industry has a strong voice in the process and that U.S. business 
interests are adequately considered, the proposed risk mitigation 
regime would be implemented through a public rulemaking process.

    Q2. Some witness testimony touched on cloud computing. Could you 
provide more detail about how cybersecurity impacts the growing cloud 
services, and what your agency is doing to secure this region?

    A2. Cloud computing raises many of the same security issues that 
emerged when shared computer services were created in the 1960s; 
however, the cybersecurity mission to protect integrity, availability, 
and confidentiality remains the same. The inherent advantages of cloud 
computing create some security challenges, but they also provide a 
number of security advantages. Although we may never fully eliminate 
all cloud computing risks, we are able to tolerate the different levels 
of risk posed to different users, organizations, and missions. Even if 
private, community, and public cloud computing business models use the 
same security mitigations and countermeasures, different business 
models create different security risk environments. The Department of 
Homeland Security (DHS) encourages cloud computing providers to propose 
innovative security solutions that effectively protect Federal systems, 
information, and communications.
    DHS does not support requiring providers to follow particular 
designs or architectures for cloud computing. Such an approach would 
interfere with the innovative and entrepreneurial forces that created 
cloud computing. Instead, DHS is collaborating with industry and 
government partners to establish cloud computing security standards. 
For example, the Federal Chief Information Officer established the 
Federal Risk and Authorization Management Program (FedRAMP) to provide 
a standardized approach to assessing and authorizing cloud computing 
services and products. The National Protection and Program 
Directorate's Office of Cybersecurity and Communications is actively 
participating in FedRAMP development. FedRAMP allows joint 
authorizations and continuous security monitoring services for 
government and commercial cloud computing systems intended for multi-
agency use.

    Q3. In mid-April, the Obama Administration released the National 
Strategy for Trusted Identities in Cyberspace (N-STIC). It establishes 
a framework for the development of securing online transactions, and 
within the FY12 budget request is the establishment of a National 
Program Office focused on interagency coordination, headed by NIST.
    Could you please discuss your agency roles in NSTIC, and why NIST 
has been selected to lead the implementation of the Strategy?

    A3. The Department of Homeland Security (DHS) provided its privacy 
and cybersecurity subject matter expertise during the development of 
the National Strategy for Trusted Identities in Cyberspace (NSTIC). 
This effort enabled the Administration to obtain input from public and 
private sector critical infrastructure partners through working groups 
that meet under the Critical Infrastructure Protection Advisory Council 
and the National Infrastructure Protection Plan partnership frameworks.
    The Department uses NSTIC to build a shared foundation for 
authentication of identity across government, business, and the general 
public. DHS's cybersecurity mission allows it to work with Federal, 
state, local, and critical infrastructure partners to encourage and 
employ improved authentication policies and technologies. A healthy 
cyber ecosystem, however, is dependent on privacy-enhancing, 
interoperable, and reliable risk-based authentication capabilities for 
information and data exchanges that occur within domestic and 
international commerce. The Department of Commerce is well-positioned 
to promote this aspect of the cyber ecosystem through the NSTIC. 
Because users' communication devices need to be interoperable, 
appropriate underlying standards are necessary. The National Institute 
of Standards and Technology (NIST), in collaboration with DHS and other 
Federal, state, local, and private sector partners, can effectively 
address standards requirements on both the national and international 
levels. Additionally, DHS has provided a detailee to NIST to support 
the implementation of the NSTIC and will continue to support the NSTIC 
through additional subject matter expertise as needed.

Questions submitted by Representative Lamar Smith


    Q1. How does the cybersecurity division work of the Science and 
Technology Directorate's Homeland Security Advanced Research Projects 
Agency (HSARPA) inform the activities of the National Protection and 
Programs Directorate (NPPD) and the National Cybersecurity Center 
(NCSC)? Conversely, how does the NPPD and the NCSC inform the research 
and development direction of the cybersecurity division? Is there 
anyone who serves as a formal liaison between these entities within 
DHS?

    A1. The National Protection and Programs Directorate's Office of 
Cybersecurity and Communications' (CS&C) Research and Standards 
Integration (RSI) program serves as the formal liaison between the 
operational needs of CS&C and the Homeland Security Advanced Research 
Projects Agency's (HSARPA) Cyber Security Division (CSD). RSI's mission 
is to gather cybersecurity-related research and development (R&D) 
requirements from all elements within CS&C, including the National 
Cyber Security Division and the National Cybersecurity and 
Communications Integration Center (NCCIC), and prioritize and harmonize 
them. RSI then communicates these requirements to CSD for inclusion in 
its overall R&D requirements. RSI also participates in the 
identification and selection of R&D supported by CSD. By participating 
in principal-investigator meetings, RSI tracks and helps apply CSD's 
R&D results to enhance operational capability within CS&C through the 
use of a repeatable technology transition process.
    CS&C has detailed a member of the Senior Executive Service to 
HSARPA/CSD to assist in the establishment of the Transition to Practice 
program, which is aimed at identifying projects and technologies that 
can be transitioned and commercialized. This detailee works to identify 
technologies related to the cybersecurity needs of CS&C.

    Q2. Over the past several years, DHS cybersecurity personnel have 
grown from around 30 to over 400 full time employees. The legislative 
plan proposed by the Administration codifies and expands many of DHS's 
current cybersecurity responsibilities. How much additional funding 
will be needed to carry out these duties and employ the necessary 
workforce? Recognizing the growth of cyber threats, can we expect the 
costs of managing these responsibilities to continue to grow in future 
years? How can we guarantee any sort of cost containment?

    A2. Similar to the Department of Homeland Security's (DHS) public 
and private sector partners, DHS is growing its cybersecurity 
workforce. The Department estimates that within the National Protection 
and Programs Directorate, the workforce will continue to steadily 
increase from current strength during the next several years. However, 
we do not anticipate the Administration's legislative proposal to 
increase the Department's resource needs substantially as much of the 
proposal is codifying ongoing activities. Additionally, the mandatory 
critical infrastructure risk mitigation regime was purposely crafted to 
minimize Federal Government growth and utilize existing private sector 
resources. DHS has requested a modest increase in cybersecurity funding 
for FY 2012 and does not intend to alter that request based on the 
legislative proposal.

Question submitted by Representative David Wu


    Q1. In your testimony, you note that DHS's operational missions 
benefit from, and drive the requirements for, the research and 
development work of the Science and Technology Directorate. In the 
fiscal year 2012 homeland security appropriations bill passed by the 
House on June 1st the budget proposed for the Science and Technology 
Directorate was $398 million, a 54 percent reduction from fiscal year 
2010. How would the proposed budget for the Science and Technology 
Directorate impact the ability of DHS to meet its operational goals and 
mission in the area of cybersecurity?

    A1. The proposed budget passed by the House allocates $398 million 
for the Science and Technology Directorate's (S&T) Research, 
Development, Acquisition, and Operation (RDA&O). At that funding level 
S&T would have virtually no money for discretionary research and 
development. S&T would not fund any cybersecurity R&D.

    Q2. To what extent was the Science and Technology Directorate 
involved in the development of the first and second iterations of 
EINSTEIN? And what involvement does the Science and Technology 
Directorate currently have with the development of the third phase of 
the EINSTEIN system?

    A2. The Department of Homeland Security's (DHS) Science and 
Technology Directorate (S&T) served as the testing oversight body for 
the deployment of EINSTEIN's Security Incident and Event Management 
analytics capability (referred to as National Cybersecurity Protection 
System Block 2.1). S&T did not perform any testing activities for the 
first or second iterations of EINSTEIN. EINSTEIN 1 was not an 
acquisition program and did not require test and evaluation. The MITRE 
Corporation performed test and evaluation oversight for EINSTEIN 2.
    With respect to EINSTEIN 3, the S&T Test and Evaluation and 
Standards Office designated a Test Area Manager for Test & Evaluation 
oversight of the Program. This Manager has been engaged in the EINSTEIN 
3 project since October 2010. S&T's focus in this area is on the formal 
operational test and evaluation of the acquisition. The S&T 
representative is also a standing member of the DHS Acquisition Review 
Team, in support of the DHS Acquisition Review Board, and is actively 
involved in the bi-weekly EINSTEIN 3 integrated product team meetings 
and the Test and Evaluation working integrated product team meetings. 
S&T has been actively engaged with the program throughout the 
development of test related acquisition artifacts and is providing 
subject matter expertise for the duration of EINSTEIN 3's testing 
activities.

Question submitted by Representative Randy Neugebauer


    Q. What aspects of the current federal system of research and 
development in the United States allow us to stay ahead of the curve in 
predicting and responding to future cybersecurity threats? What must be 
improved?

    A. The Department of Homeland Security (DHS) participates in the 
Networking and Information Technology Research and Development (NITRD) 
Cyber Security and Information Assurance Interagency Working Group 
(CSIA IWG) to enhance the flow of rapidly changing information 
assurance needs and recent research and development (R&D) advancements 
across the Federal R&D community. The CSIA IWG is co-chaired by DHS's 
Science and Technology Directorate (S&T) and the National Institute of 
Standards and Technology's Computer Security Division. Through 
collaborative execution of the R&D roadmap and national R&D theme 
areas, DHS works with other stakeholders in the R&D community to ensure 
that current and future threats are addressed.
    DHS S&T has led the development of a Federal R&D Strategic Plan 
within the CSIA IWG. A primary objective of the Federal cybersecurity 
R&D strategic plan is to express a vision for the research necessary to 
develop technologies that can neutralize the attacks on the cyber 
systems of today and lay the foundation for a scientific approach that 
better prepares the field to meet the challenges of securing the cyber 
systems of tomorrow.
    Maintaining a long-term focus on the national theme areas and their 
relationship to the R&D requirements of DHS is essential to providing 
consistent and continuous support to the Federal R&D community. While 
the threats rapidly change, R&D approaches must be maintained to 
facilitate the fundamental breakthroughs necessary to predict and 
respond to future cybersecurity threats.
    An important area of improvement is reconciling the tension between 
short-term needs for operational tools and long-term acquisition 
cycles. We need to develop efficient and effective processes for 
rapidly transitioning new R&D products into operational use. The 
Federal R&D Strategic Plan includes the definition of an inter-agency 
program for transitioning government-funded R&D into commercial 
operations.

                                   

</pre></body></html>
